No. _______
IN THE

Supreme Court of the United States
DONALD J. TRUMP, President of the United States,
Petitioner,
v.
CYRUS R. VANCE, JR., in his official capacity as District Attorney
of the County of New York; MAZARS USA, LLP.
Respondents.
ON PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE SECOND CIRCUIT

PETITION FOR A WRIT OF CERTIORARI
William S. Consovoy
Alexa R. Baltes
CONSOVOY MCCARTHY PLLC
1600 Wilson Blvd., Ste. 700
Arlington, VA 22209
(703) 243-9423
will@consovoymccarthy.com
Patrick Strawbridge
CONSOVOY MCCARTHY PLLC
Ten Post Office Square
8th Floor South PMB #706
Boston, MA 02109
patrick@consovoymccarthy.com

Jay Alan Sekulow
Counsel of Record
Stuart J. Roth
Jordan Sekulow
CONSTITUTIONAL LITIGATION
AND ADVOCACY GROUP, P.C.
1701 Pennsylvania Ave, NW,
Ste. 200
Washington, DC 20006
(202) 546-8890
jsekulow@claglaw.com

Counsel for President Donald J. Trump

i
QUESTIONS PRESENTED
The District Attorney for the County of New
York is conducting a criminal investigation that, by
his own admission, targets the President of the United
States for possible indictment and prosecution during
his term in office. As part of that investigation, he
served a grand-jury subpoena on a custodian of the
President’s personal records, demanding production
of nearly ten years’ worth of the President’s financial
papers and his tax returns. That subpoena is the
combination—almost a word-for-word copy—of two
subpoenas issued by committees of Congress for these
same papers. The Second Circuit rejected the
President’s claim of immunity and ordered compliance
with the subpoena.
The question presented is: Whether this
subpoena violates Article II and the Supremacy
Clause of the United States Constitution.

ii

PARTIES TO THE PROCEEDING AND
RELATED PROCEEDINGS
The parties to the proceeding below are as
follows:
Petitioner is Donald J. Trump, President of the
United States. He was the plaintiff in the district
court and appellant in the court of appeals.
Respondents are Cyrus R. Vance, Jr., in his
official capacity as District Attorney of the County of
New York, and Mazars USA, LLP. Respondents were
defendants in the district court and appellees in the
court of appeals.
The related proceedings below are:
1) Trump v. Vance, No. 19-cv-8694 (S.D.N.Y.)
– Judgment entered October 7, 2019; and
2) Trump v. Vance, No. 19-3204 (2d Cir.) –
Judgment entered November 4, 2019.

iii

TABLE OF CONTENTS
Page
QUESTIONS PRESENTED ....................................... i
PARTIES TO THE PROCEEDING AND
RELATED PROCEEDINGS ................................. ii
TABLE OF CONTENTS ........................................... iii
TABLE OF APPENDICES .........................................v
TABLE OF AUTHORITIES..................................... vii
OPINIONS BELOW ....................................................1
JURISDICTION ..........................................................1
CONSTITUTIONAL PROVISIONS INVOLVED ......1
INTRODUCTION ........................................................2
STATEMENT OF THE CASE ....................................6
A. Background .......................................................6
B. Proceedings Below ............................................9
REASONS FOR GRANTING THE PETITION .......14
I. Whether the President is absolutely
immune is an important and unsettled
issue of federal law that the Court should
resolve .............................................................14

iv

II. The Second Circuit incorrectly decided
this important immunity question ................18
A. The District Attorney’s subpoena
violates the absolute immunity that
the President holds from state criminal
process while in office ...............................18
B. The subpoena is unconstitutional even
if Nixon controls this dispute ....................34
CONCLUSION ..........................................................37

v

TABLE OF APPENDICES
Page
APPENDIX A — OPINION OF THE UNITED
STATES COURT OF APPEALS FOR THE
SECOND CIRCUIT, DATED NOVEMBER 4,
2019 ......................................................................1a
APPENDIX B — DECISION AND ORDER OF
THE UNITED STATES DISTRICT COURT
FOR THE SOUTHERN DISTRICT OF NEW
YORK, DATED OCTOBER 7, 2019 ..................30a
APPENDIX C — EMERGENCY NOTICE OF
APPEAL TO THE UNITED STATES
DISTRICT COURT FOR THE SOUTHERN
DISTRICT OF NEW YORK, DATED
OCTOBER 7, 2019 .............................................96a
APPENDIX D — ORDER OF THE UNITED
STATES COURT OF APPEALS FOR THE
SECOND CIRCUIT, DATED OCTOBER 7,
2019 ....................................................................98a
APPENDIX E — ORDER OF THE UNITED
STATES COURT OF APPEALS FOR THE
SECOND CIRCUIT, DATED OCTOBER 7,
2019 ..................................................................100a
APPENDIX F — MEMORANDUM IN
SUPPORT OF EMERGENCY MOTION OF
THE UNITED STATES COURT OF
APPEALS FOR THE SECOND CIRCUIT,
DATED OCTOBER 18, 2019 ...........................103a

vi

APPENDIX G — AGREEMENT TO RESOLVE
MOTION FOR STAY, DATED OCTOBER 21,
2019 ..................................................................106a
APPENDIX H — LETTER WITHDRAWING
MOTION FOR STAY, DATED OCTOBER 21,
2019 ..................................................................109a
APPENDIX I — SUBPOENA TO THE TRUMP
ORGANIZATION, DATED AUGUST 1, 2019 110a
APPENDIX J — SUBPOENA TO MAZARS USA
LLP, DATED AUGUST 29, 2019 ....................117a
APPENDIX K — EXCERPTS OF COMPLAINT,
FILED SEPTEMBER 24, 2019 .......................123a
APPENDIX
L
—
CONSTITUTIONAL
PROVISIONS INVOLVED ..............................127a

vii

TABLE OF AUTHORITIES
Page(s)
Cases:
Cheney v. U.S. Dist. Court for D.C.,
542 U.S. 367 (2004) ........................................35, 36
Clinton v. Jones,
520 U.S. 681 (1997) ...................................... passim
Eastland v. U.S. Servicemen’s Fund,
421 U.S. 491 (1975) ..............................................32
Free Enter. Fund v. PCAOB,
561 U.S. 477 (2010) ..............................................19
In re Sealed Case,
121 F.3d 729 (D.C. Cir. 1997) .................... 5, 34, 36
Kendall v. U.S. ex rel. Stokes,
37 U.S. 524 (1838) ................................................20
M‘Clung v. Silliman,
19 U.S. 598 (1821) ................................................24
M‘Culloch v. Maryland,
17 U.S. 316 (1819) ................................................23
Nixon v. Fitzgerald,
457 U.S. 731 (1982) ...................................... passim
Nixon v. Sirica,
487 F.2d 700 (D.C. Cir. 1973) .................. 22, 25, 26

viii

North Dakota v. United States,
495 U.S. 423 (1986) ..............................................24
Trump v. Hawaii,
138 S. Ct. 2392 (2018) ............................................3
Trump v. Mazars USA, LLP,
940 F.3d 710 (D.C. Cir. 2019) ..........................6, 23
United States v. AT&T Co.,
551 F.2d 384 (D.C. Cir. 1976) ..............................32
United States v. Burr,
25 F. Cas. 187 (C.C.D. Va. 1807) ................. passim
United States v. McLeod,
385 F.2d 734 (5th Cir. 1967) ..........................24, 27
United States v. Morton Salt Co.,
338 U.S. 632 (1950) ..............................................34
United States v. Nixon,
418 U.S. 683 (1974) ...................................... passim
Younger v. Harris,
401 U.S. 37 (1971) ..........................................10, 12
Statutes and Other Authorities:
U.S. Const. art. I, § 3, cl. 7 ....................................1, 20
U.S. Const. art. II, § 1, cl. 1...................................1, 14
U.S. Const. art. II .............................................. passim
U.S. Const. art. II, § 2 ...........................................1, 14

ix

U.S. Const. art. II, § 3 ............................... 1, 14, 18, 33
U.S. Const. art. II, § 4 ...........................................1, 20
U.S. Const. art. VI, cl. 2 ........................................1, 17
28 U.S.C. § 1254(1) ......................................................1
2 Farrand, Records of the Federal Convention
(rev. ed. 1966) .......................................................21
3 J. Story, Commentaries on the Constitution of
the United States § 1563 (1st ed. 1833) .........15, 19
9 The Writings of Thomas Jefferson 60 (Paul
Leicester Ford ed., 1898) .....................................21
A Sitting President’s Amenability to Indictment
and Criminal Prosecution, 24 O.L.C. Op. 222
(Oct. 16, 2000) ................................................20, 28
Akhil Reed Amar & Brian C. Kalt, The
Presidential Privilege Against Prosecution,
2-SPG NEXUS: J. Opinion 11 (1997) ...... 19, 20, 25
Akhil Reed Amar & Neal Kumar Katyal,
Executive Privileges and Immunities: The
Nixon and Clinton Cases, 108 Harv. L. Rev.
701 (1995) .............................................................15
Akhil Reed Amar, Nixon’s Shadow, 83 Minn. L.
Rev. 1405 (1999) ...................................................31
Alberto R. Gonzales, Presidential Powers,
Immunities, and Pardons, 96 Wash. U. L.
Rev. 905 (2019) .....................................................28

x

Congressional Committee’s Request for the
President’s Tax Returns Under 26 U.S.C.
§ 6103(f), 43 Op. O.L.C. __ (June 13, 2019) ..........7
Dan Mangan & Chris Eudaily, Trump’s ExLawyer Michael Cohen Cooperating with New
York Prosecutors in Probe of Whether Trump
Organization Falsified Records, CNBC (Sept.
11, 2019) .................................................................7
Federalist No. 65 (Alexander Hamilton) (Rossiter
ed., 1961) ........................................................22, 23
Federalist No. 69 (Alexander Hamilton) (Rossiter
ed., 1961) ..............................................................21
Federalist No. 77 (Alexander Hamilton) (Rossiter
ed., 1961) ..............................................................22
Jay S. Bybee, Who Executes the Executioner?,
2-SPG NEXUS: J. Opinion 53 (1997) ............15, 20
Journal of William Maclay (Edgar S. Maclay ed.,
1890) .....................................................................21
Lisa Hagen, Congress Returns, Trump
Investigations Resume, U.S. News & World
Report (Sept. 9, 2016) ............................................7

xi

Memorandum for the U.S. Concerning the Vice
President’s Claim of Constitutional Immunity
17, In re Proceedings of the Grand Jury
Impaneled Dec. 5, 1972, No. 73-cv-965
(D. Md.) ...........................................................18, 21
Memorandum from Robert G. Dixon, Jr., Asst.
Att’y Gen., O.L.C., Re: Amenability of the
President, Vice President, and Other Civil
Officers to Federal Criminal Prosecution
While in Office 30 (Sept. 24, 1973) ................19, 20
William K. Rashbaum & Ben Protess, 8 Years of
Trump Tax Returns Are Subpoenaed by
Manhattan
D.A.,
New
York
Times
(Sept. 16, 2019) ......................................................7

1

President Donald J. Trump respectfully
petitions for a writ of certiorari to review the
judgment of the United States Court of Appeals for the
Second Circuit.
OPINIONS BELOW
The opinion of the Second Circuit is not yet
reported, but it is available at 2019 WL 5687447 and
is reproduced in the Appendix (“App.”) at 1a-29a. The
opinion of the Southern District of New York is
reported at 395 F. Supp. 3d 283 and is reproduced at
App. 30a-95a.
JURISDICTION
The judgment of the Second Circuit was
entered on November 4, 2019. This Court has
jurisdiction pursuant to 28 U.S.C. § 1254(1).
CONSTITUTIONAL PROVISIONS
INVOLVED
The pertinent
constitutional
provisions
involved in this case are listed below and reproduced
at App. 127a-29a.
U.S. Const. art. I, § 3, cl. 7
U.S. Const. art. II, § 1, cl. 1; § 2; § 3; § 4
U.S. Const. art. VI, cl. 2

2

INTRODUCTION
For the first time in our nation’s history, a state
or local prosecutor has launched a criminal
investigation of the President of the United States and
subjected him to coercive criminal process. The
subpoena issued by the New York County District
Attorney seeks reams of President Trump’s private
financial records for the express purpose of deciding
whether to indict him for state crimes. The Court
should grant certiorari to decide the important and
unsettled issue this dispute raises: whether the
District Attorney’s issuance of criminal process
demanding the President’s records violates the
immunity that he holds under Article II and the
Supremacy Clause of the Constitution.
This immunity question is plainly important.
Every time a President has asked the Court to review
an unprecedented use of legal process against the
occupant of the office, it has done so. The Supreme
Court has stressed the “importance” of questions
concerning presidential immunity. Clinton v. Jones,
520 U.S. 681, 689 (1997). It has granted certiorari to
decide these questions even in “‘one-of-a-kind cases’”
in which there was no “conflict among the Courts of
Appeals.” Id. The Court has even taken the rare step
of granting certiorari before judgment to review the
President’s claim “because of the public importance of
the issues presented.” United States v. Nixon, 418 U.S.
683, 686-87 (1974). The Court, in short, does not
“‘proceed against the president as against an ordinary
individual’” and extends him the “high degree of

3

respect due the President of the United States.” Id. at
708, 715.
Thus, when the President argues that novel
legal process directed at him will lead to the “diversion
of his energies,” the Court takes the claim quite
seriously given “the singular importance of the
President’s duties.” Nixon v. Fitzgerald, 457 U.S. 731,
751 (1982). The Court’s approach to cases of this type
is not out of concern for any “particular President,”
but for “the Presidency itself.” Trump v. Hawaii, 138
S. Ct. 2392, 2418 (2018). When the Executive Branch
argues that legal process raises “serious risks for the
institution of the Presidency,” as it has argued here,
the Court grants certiorari to give those
“representations” the “respectful and deliberate
consideration” they indisputably deserve. Jones, 520
U.S. at 689-90.
The Court should follow that approach in this
case. The Department of Justice supported the
President below. The Second Circuit acknowledged
that this dispute raises “novel and serious claims,”
Appendix (“App.”) 13a, and that “the Supreme Court
has not had occasion to address this [immunity]
question,” App. 21a. Indeed, the Court’s previous
immunity cases identified the key elements of this
case—targeting a President for criminal investigation
through coercive process issued by a local official—as
an unresolved issue, and carefully reserved the
question. The Court should decide it now.
The decision below is not only important,
however. It is incorrect. There has been broad

4

bipartisan agreement, for decades if not centuries,
that a sitting President cannot be subjected to
criminal proceedings. That consensus follows from the
Constitution’s text, history, and structure, as well as
from precedent. The Framers recognized the clear
need for a strong Chief Executive, and they fashioned
a process for investigating and removing him in a
manner that would embody the will of the people. A
lone county prosecutor cannot circumvent this
arrangement. That the Constitution would empower
thousands of state and local prosecutors to embroil the
President in criminal proceedings is unimaginable.
State criminal process interferes with the President’s
ability to execute his duties under Article II, violates
the Supremacy Clause, and is irreconcilable with our
constitutional design.
This subpoena subjects the President to
criminal process under any reasonable understanding
of the concept. It demands the President’s records,
names him as a target, and was issued as part of a
grand-jury proceeding that seeks to determine
whether the President committed a state-law crime.
That the grand-jury subpoena was issued to a thirdparty custodian does not alter the calculus. If it did,
every local prosecutor in the country could easily
circumvent presidential immunity.
Whether compliance with this subpoena will
burden the President is the wrong question. The
Court has always taken a categorical approach to
presidential immunity. The Court asks whether this
kind of legal process violates the Constitution. But the
President should prevail even under a case-specific

5

approach. The subpoena is highly intrusive to the
President, as it seeks nearly a decade of his sensitive
financial records. And the District Attorney cannot
explain why this subpoena—which he admits to
copying
from
two
unrelated
congressional
investigations—is relevant to the allegations he is
investigating. Indeed, politically motivated subpoenas
like this one are a perfect illustration of why a sitting
President should be categorically immune from state
criminal process.
In other words, the subpoena cannot come close
to the heightened-need showing that United States v.
Nixon requires. The Second Circuit incorrectly held
that Nixon only applies to executive-privilege claims.
In all presidential-immunity cases—not just those
where privilege is invoked—“a court … must balance
the constitutional weight of the interest to be served
against the dangers of intrusion on the authority and
functions of the Executive Branch.” Fitzgerald, 457
U.S. at 754. In this context, that balance is struck by
requiring the prosecutor to show, at a minimum, that
the “evidence sought” is “directly relevant to issues
that are expected to be central” and “not available
with due diligence elsewhere.” In re Sealed Case, 121
F.3d 729, 754-55 (D.C. Cir. 1997). This subpoena fails
that standard as a matter of law.

6

STATEMENT OF THE CASE
A.

Background

In April 2019, following hearings regarding the
President’s financial holdings and business ventures,
the Oversight Committee of the U.S. House of
Representatives issued a subpoena to the President’s
accounting firm, Mazars USA, LLP. See Trump v.
Mazars USA, LLP, 940 F.3d 710, 716 (D.C. Cir. 2019).
Mazars was responsible for, among other things,
preparing financial statements for businesses owned
by President Trump, as well his personal tax returns.
Id. at 716. The Committee claimed to be investigating
a number of issues, including the President’s past
financial transactions, possible violations of the
Emoluments Clauses of the U.S. Constitution and
federal financial disclosure laws. Id. The legality of
the Mazars subpoena quickly became embroiled in
litigation, and the subpoena has been stayed ever
since. Id. at 717-18.1
During that same timeframe, the House Ways
and Means Committee subpoenaed the President’s
federal tax returns from the Treasury Department.
The Treasury Department declined to disclose the
President’s returns, citing previous statements
suggesting that the Committee lacked a legitimate
This litigation remains ongoing. The D.C. Circuit
recently denied the President’s petition for rehearing en banc,
CADC Doc. #1815681, Trump v. Mazars USA, LLP, No. 19-5142
(D.C. Cir.), but the President has indicated that he will petition
this Court for certiorari, CADC Doc. #1812461, at 12, Trump v.
Mazars USA, LLP, No. 19-5142 (D.C. Cir.).
1

7

legislative purpose. See Congressional Committee’s
Request for the President’s Tax Returns Under 26
U.S.C. § 6103(f), 43 Op. O.L.C. __, __ (June 13, 2019).
That subpoena’s legality is similarly embroiled in
litigation. See Doc. 1, Comm. on Ways & Means v. U.S.
Dept. of Treasury, No. 19-cv-1974 (D.D.C.). The
Committee therefore has been unable, to date, to
secure these tax documents.
News subsequently broke that the District
Attorney of New York County had opened its own
investigation into the President’s business dealings,
including certain payments made in 2016. See Dan
Mangan & Chris Eudaily, Trump’s Ex-Lawyer
Michael Cohen Cooperating with New York
Prosecutors in Probe of Whether Trump Organization
Falsified Records, CNBC (Sept. 11, 2019),
cnb.cx/2pgvfh4. The District Attorney’s investigation
came a year after the Democrats had taken “back the
majority” of the House of Representatives and in the
face of dismay over their failure “to get their hands on
the long-sought after documents.” Lisa Hagen,
Congress Returns, Trump Investigations Resume, U.S.
News & World Report (Sept. 9, 2016), bit.ly/2NGeLIt.
There was optimism that “it may be more difficult to
fend off a subpoena in a criminal investigation with a
sitting grand jury.” William K. Rashbaum & Ben
Protess, 8 Years of Trump Tax Returns Are
Subpoenaed by Manhattan D.A., New York Times
(Sept. 16, 2019), nyti.ms/34YW4FN.
As part of that investigation, the District
Attorney served a grand jury subpoena on the Trump
Organization that demanded documents and

8

communications concerning the President. App. 110a16a. The subpoena was entitled “Investigation into
the Business and Affairs of John Doe (201800403803).” App. 110a. The Trump Organization
began complying. But a dispute arose over the
subpoena’s scope.
The District Attorney declined to resolve the
dispute by negotiation and compromise. He instead
sought to bypass the President by subpoenaing
Mazars. App. 117a-22a. That subpoena—also entitled
“Investigation into the Business and Affairs of John
Doe
(2018-00403803)”—names
the
President
personally and demands production of his personal
records (including his tax returns). Id.
The District Attorney’s subpoena to Mazars is
copied, virtually word-for-word, from the one the
Oversight Committee issued to Mazars. App. 123a26a. The only difference is that the Oversight
Committee did not seek the President’s tax returns.
App. 124a. That portion of the District Attorney’s
subpoena instead mirrors the subpoena the House
Ways and Means Committee sent to the Treasury
Department. In other words, the District Attorney cut
and pasted from two congressional subpoenas to craft
his request to Mazars.
Unsurprisingly, then, the grand jury subpoena
to Mazars is not tailored to the 2016 payments and
business records he claims to be investigating. It seeks
reams of the President’s confidential information,
reaches back to 2011, and asks for documents—like
those relating to a hotel in Washington, D.C.—that

9

have nothing to do with New York. App. 119a-20a.
The District Attorney nevertheless refused to narrow
the subpoena, allow more time for negotiations, or
even stay its enforcement while the parties litigated
its validity.2
B.

Proceedings Below

On September 19, the President filed this
federal action. The complaint challenges the Mazars
subpoena as violating the temporary immunity a
sitting President holds under Article II and the
Supremacy Clause of the Constitution. The President
also sought an emergency injunction to stay
enforcement of the subpoena. See App. 37a-38a. The
Executive Branch filed a statement of interest in
support of the President.
The District Attorney agreed to stay
enforcement of the Mazars subpoena until September
25 so that the parties could brief and argue the
President’s motion on a highly expedited basis.
Ultimately, the parties agreed to stay enforcement of
the subpoena until 1:00 pm on October 7. App. 38a39a.
On October 7, at 8:47 am, the district court
issued a 75-page opinion denying the President’s
requests for injunctive relief and dismissing his
Throughout this litigation, Mazars has consistently
represented that “this action is between Appellant [the
President] and Appellee Vance,” and it therefore “takes no
position on the legal issues raised by [the President].” See CA2
Doc. 96.
2

10

complaint. App. 30a. Specifically, the court held that
the President’s immunity claim must be pursued in
state court under Younger v. Harris, 401 U.S. 37
(1971), and dismissed the complaint on that basis.
App. 41a-61a.
As an “alternative” holding, the district court
denied the President’s immunity claim on “the
merits.” App. 61a. According to the district court, the
President’s temporary immunity from criminal
process—including indictment and imprisonment—
while in office must be assessed on a case-by-case
basis. App. 93a. As a result, although the President
might be immune from “lengthy imprisonment” or “a
charge of murder,” he might not be immune from a
shorter prison sentence or prosecution for lesser
crimes such as “failing to pay state taxes, or of driving
while intoxicated.” App. 33a, 82a. In so holding, the
court “reject[ed]” the contrary views of the
Department of Justice over the last 50 years even
though they “have assumed substantial legal force.”
App. 70a-71a. Applying its novel balancing test, the
district court held that the President is not immune
from this subpoena while in office. App. 61a-62a, 93a.
Because Mazars was set to comply with the
subpoena within hours of the district court’s decision,
the President filed a notice of appeal and an
emergency motion for stay with the Second Circuit.
App. 96a; CA2 Doc. 8. Within an hour, the Second
Circuit granted the President’s motion—highlighting
the “unique issues raised by this appeal.” App. 98a99a. The court issued an expedited briefing schedule,
set oral argument for October 23, and informed the

11

parties that the stay would only “remain[] in effect
until argument is completed.” App. 100a-02a. The
Executive Branch filed an amicus brief supporting the
President’s position, arguing that “the district court
erred in … declining to halt the District Attorney’s
enforcement of the subpoena against the President’s
personal records.” CA2 Doc. 83 at 8.
On October 18, after briefing was complete and
the District Attorney continued to oppose any further
stay of the subpoena, the President filed an emergency
motion for stay pending appeal. App. 103a-04a. As
things stood, Mazars would have been required to
comply with the subpoena immediately after oral
argument ended, presumably before the Second
Circuit could take the matter under submission and
issue a ruling. The President asked the Second Circuit
to stay the subpoena until it resolved the President’s
appeal. See id.
On October 21, the parties reached an
agreement. The District Attorney would forbear
enforcement of the Mazars subpoena between the date
of oral argument in the Second Circuit and 10
calendar days after the Second Circuit issued its
ruling so long as any petition for certiorari would be
filed in the Supreme Court within that timeframe.
The agreement also required the President to
immediately withdraw all pending motions for a stay
in the Second Circuit. The parties further agreed that,
if the President petitioned for certiorari, the District
Attorney would then continue to forbear enforcement
of the subpoena until a final disposition from the
Supreme Court, but only if the President asked for the

12

case to be heard and decided this Term. App. 106a08a. In accordance with this agreement, the President
thus respectfully asks the Court to hear and decide
the case this Term should certiorari be granted.
At oral argument, the District Attorney made
clear that he is targeting the President in a criminal
investigation for the purpose of possible indictment.
Because, in the District Attorney’s view, any
presidential immunity is not triggered until
indictment, there is “no basis to object at this point.”
OA 31:35-37, cs.pn/2CAtWfM (emphasis added). But
even if the investigation reaches the point of
indictment, the District Attorney would not recognize
absolute immunity for a sitting President:
It’s hard for me to say that there could
be no circumstance under which a
President could ever imaginably be
criminally charged or perhaps tried.…
You can invent scenarios where you can
imagine that it would be necessary or at
least perhaps a good idea for a sitting
President to be subject to a criminal
charge even by a state while in office.
OA 30:12-21; 37:56-38:08.
On November 4—twelve days after argument—
the Second Circuit issued its opinion. App. 1a. It first
disagreed with the district court’s dismissal of the
complaint under Younger and vacated that part of the
judgment. The President’s “novel and serious claims,”
in the Second Circuit’s view, “are more appropriately

13

adjudicated in federal court.” App. 13a-14a. But the
Second Circuit affirmed what it construed as the
district court’s denial of a preliminary injunction. In
particular, it held that the President is unlikely to
prevail on his claim that he is “absolutely immune
from all stages of state criminal process while in office,
including pre-indictment investigation, and that the
Mazars subpoena cannot be enforced in furtherance of
any investigation into his activities.” App. 14a-15a.
The Second Circuit aligned itself with what it
called the district court’s “thorough and thoughtful
decision” resolving the immunity issue against the
President. App. 7a. “With the benefit of the district
court’s well‐articulated opinion,” it held “that any
presidential immunity from state criminal process
does not bar the enforcement of [this] subpoena.” App.
28a. According to Second Circuit, it thus had “no
occasion to decide ... the precise contours and
limitations
of
presidential
immunity
from
prosecution,” and was “express[ing] no opinion on the
applicability of any such immunity under
circumstances not presented here.” App. 15a. It
instead framed the holding as “only that presidential
immunity does not bar the enforcement of a state
grand jury subpoena directing a third party to produce
non‐privileged material, even when the subject matter
under investigation pertains to the President.” App.
15a. The Second Circuit remanded the case “for
further proceedings consistent with this opinion.”
App. 29a.

14

REASONS FOR GRANTING THE PETITION
The Second Circuit “decided an important
question of federal law that has not been, but should
be, settled by this Court.” Sup. Ct. Rule 10(c). This
petition presents a critically important question about
the existence and scope of a sitting President’s
temporary immunity from state criminal process. The
Constitution’s text, structure, and history all confirm
that the District Attorney’s grand-jury subpoena for
the President’s records violates Article II and the
Supremacy Clause. The Second Circuit erred in
holding otherwise. The Court should grant review and
reverse the decision below.
I.

Whether the President is absolutely
immune is an important and unsettled
issue of federal law that the Court should
resolve.

This petition involves an indisputably
important issue. The Court has “long recognized the
‘unique position in the constitutional scheme’” that
the Presidency occupies. Clinton v. Jones, 520 U.S.
681, 698 (1997). Article II vests “[t]he executive
Power” in one “President of the United States of
America.” U.S. Const. art. II, § 1, cl. 1. Article II thus
gives the President vast authority over foreign and
domestic affairs. He must, among other things,
command the armed forces, negotiate treaties,
appoint and remove federal officers, and “take Care
that the Laws be faithfully executed.” U.S. Const. art.
II, §§ 2-3. In short, the President is “the chief
constitutional officer of the Executive Branch,

15

entrusted with supervisory and policy responsibilities
of utmost discretion and sensitivity.” Nixon v.
Fitzgerald, 457 U.S. 731, 750 (1982).
The President, accordingly, is different from all
other constitutional officers. He is “the only person
who is also a branch of government.” Jay S. Bybee,
Who Executes the Executioner?, 2-SPG NEXUS: J.
Opinion 53, 60 (1997). “Unlike federal lawmakers and
judges,” in other words, “the President is at ‘Session’
twenty-four hours a day, every day. Constitutionally
speaking, the President never sleeps. The President
must be ready, at a moment’s notice, to do whatever it
takes to preserve, protect, and defend the
Constitution and the American people.” Akhil Reed
Amar & Neal Kumar Katyal, Executive Privileges and
Immunities: The Nixon and Clinton Cases, 108 Harv.
L. Rev. 701, 713 (1995).
The “‘power to perform’” these critical tasks, in
turn, is “‘necessarily implied’” from the vesting of
them in the President. Fitzgerald, 457 U.S. at 749
(quoting 3 J. Story, Commentaries on the Constitution
of the United States § 1563 (1st ed. 1833)). It is
therefore imperative that the President not be
“distract[ed] ... from his public duties, to the detriment
of not only the President and his office but also the
Nation that the Presidency was designed to serve.” Id.
at 753. In order to perform his constitutionally
assigned functions, the President must be “free from
risk of control, interference, or intimidation by other
branches,” id. at 760-61 (Burger, C.J., concurring), as
well as from such intrusion by the States. For these
reasons, this Court has rigorously scrutinized legal

16

process issued to the President to ensure that it does
not result in the “diversion of his energies.” Id. at 751
(majority opinion).
To that end, the Court reviews presidential
claims of immunity or privilege without concern for
circuit splits, percolation, or other criteria that
ordinarily inform its decision whether to grant
certiorari. In United States v. Nixon, for example, the
Court granted certiorari even in the absence of
judgment from the court of appeals given “the public
importance of the issues presented and the need for
their prompt resolution.” 418 U.S. 683, 686-87 (1974).
In Clinton v. Jones, the Court granted review even
assuming that the dispute was a “‘one-of-a-kind case’”
that presented a “novel constitutional question.” 520
U.S. at 689-90. The decision to grant certiorari was a
marker of the presidential immunity question’s
“importance”—it was not a “judgment concerning the
merits of the case.” Id. at 689. The case’s importance
was bolstered by the “representations made on behalf
of the Executive Branch” that the Eighth Circuit’s
ruling “was ‘fundamentally mistaken’ and created
‘serious risks for the institution of the Presidency.’” Id.
at 689-90.
The Court’s solicitude is attributable to the fact
that the President—both as a litigant and as a
constitutional officer—is no “‘ordinary individual.’”
Nixon, 418 U.S. at 708 (quoting United States v. Burr,
25 F. Cas. 187, 192 (C.C.D. Va. 1807) (Marshall, C.J.)).
The Court has always understood the “high degree of
respect due the President of the United States,” id. at
715, and it has consistently recognized the office’s

17

“singular importance” in maintaining “the effective
functioning of government,” Fitzgerald, 457 U.S. at
751.
The Court should do the same here. For the
first time in our Nation’s history, a local prosecutor
has issued criminal process—this grand-jury
subpoena—directed at a sitting President, as part of a
criminal investigation into the President himself.
Whether the Constitution permits an assertion of this
kind of authority over the Chief Executive raises a
momentous question of first impression about the
scope of Presidential immunity. The President’s
“novel and serious,” App. 13a, immunity claim is no
less worthy of review than those raised in Nixon,
Fitzgerald, and Jones.
If anything, the Court’s intervention is more
urgently needed here. The earlier cases all involved
the imposition of federal process. But the concerns
associated with exposing the President to state
process are far more serious. That is true as a
practical matter given the sheer number of state and
local prosecuting offices. The potential for abuse is
also graver given that, unlike their federal
counterparts, state and local prosecutors are not
under centralized control and, in many cases, have
assumed office by local election. In fact, the District
Attorney’s criminal subpoena threatens the balance of
power between the national and state governments.
“Because the Supremacy Clause makes federal law
‘the supreme Law of the Land,’ Art. VI, cl. 2, any direct
control by a state … over the President, who has
principal responsibility to ensure that those laws are

18

‘faithfully executed,’ Art. II, § 3,” implicates concerns
far beyond—and far more acute—than those raised in
previous immunity cases. Jones, 520 U.S. 691 n.13.
For state and local prosecutors, the President is an
“easily identifiable” and often politically expedient
target. Fitzgerald, 457 U.S. at 751-53.
In sum, as the Executive Branch explained in
its amicus briefs below, the President’s immunity
claim involves “serious,” “significant,” and “weighty
constitutional issues.” CA2 Doc. 83 at 8; D.Ct. Dkt. 32
at 6. Every time that a President has asked this Court
to hear an important and unsettled claim of immunity
under the Constitution, it has granted certiorari. The
Court should do the same here.
II.

The Second Circuit incorrectly decided
this important immunity question.
A.

The District Attorney’s subpoena
violates the absolute immunity that
the President holds from state
criminal process while in office.

Under Article II, the Supremacy Clause, and
the overall structure of our Constitution, the
President of the United States cannot be “subject to
the criminal process” while he is in office.
Memorandum for the U.S. Concerning the Vice
President’s Claim of Constitutional Immunity 17, In
re Proceedings of the Grand Jury Impaneled Dec. 5,
1972, No. 73-cv-965 (D. Md.) (Bork Memo). The
requirement for immunity is especially clear when the
criminal process originates, as it did here, from a state

19

or local prosecutor. No court—until this case—has
ever suggested otherwise.
That the President cannot be indicted,
prosecuted, or imprisoned while in office should not be
controversial. See Fitzgerald, 457 U.S. at 749 (citing 3
Story § 1536). As explained, the President has vast
and ceaseless duties in domestic and foreign affairs.
See supra 14-15. “It is his responsibility to take care
that the laws be faithfully executed.” Free Enter. Fund
v. PCAOB, 561 U.S. 477, 493 (2010). Because “the
President is a unitary executive,” when “the President
is being prosecuted, the presidency itself is being
prosecuted.” Akhil Reed Amar & Brian C. Kalt, The
Presidential Privilege Against Prosecution, 2-SPG
NEXUS: J. Opinion 11, 12 (1997).
Thus, as the Office of Legal Counsel has
repeatedly explained, the criminal prosecution of a
sitting President violates Article II. “To wound [the
President] by a criminal proceeding is to hamstring
the operation of the whole governmental apparatus,
both in foreign and domestic affairs.” Memorandum
from Robert G. Dixon, Jr., Asst. Att’y Gen., O.L.C., Re:
Amenability of the President, Vice President, and
Other Civil Officers to Federal Criminal Prosecution
While in Office 30 (Sept. 24, 1973) (Dixon Memo).
Those wounds go beyond physical constraints on the
President’s liberty, diversion of the President’s
attention from his official duties, or demands on the
President’s time. Criminal prosecution comes with a
“distinctive and serious stigma”—and the “stigma and
opprobrium associated with a criminal charge” could
“undermin[e] the President’s leadership and efficacy

20

both here and abroad.” A Sitting President’s
Amenability to Indictment and Criminal Prosecution,
24 O.L.C. Op. 222, 249-51 (Oct. 16, 2000) (Moss
Memo).
Other provisions of the Constitution bolster
this understanding. By its terms, Article II only
authorizes
the
President’s
“remov[al]”
via
“Impeachment.” U.S. Const. art. II, § 4. A sitting
President “convicted” by the Senate can then be “liable
and subject to Indictment, Trial, Judgment, and
Punishment, according to Law.” Id. art. I, § 3, cl. 7.
The Constitution’s use of the past-tense “convicted”
reinforces that the President cannot be subject to
criminal process before that juncture. See Bybee 5465.
Any other rule is untenable. It would allow a
single prosecutor to circumvent the Constitution’s
specific rules for impeachment. See Kendall v. U.S. ex
rel. Stokes, 37 U.S. 524, 610 (1838). The Constitution’s
assignment of the impeachment power to the House of
Representatives, and its supermajority requirement
for removal by the Senate, ensure that “the process
may be initiated and maintained only by politically
accountable legislative officials” who represent a
majority of the entire nation. Moss Memo 246; see
Dixon Memo 32; see also Amar & Kalt 12 (“The
President is elected by the entire polity and
represents all 260 million citizens of the United States
of America. If the President were prosecuted, the
steward of all the People would be hijacked from his
duties by an official of few (or none) of them.”).

21

Moreover, the Framers’ debates at the
Philadelphia Convention “strongly suggest an
understanding that the President, as Chief Executive,
would not be subject to the ordinary criminal process.”
Bork Memo 6. The Framers understood “that the
nation’s Chief Executive, responsible as no other
single officer is for the affairs of the United States,
would not be taken from duties that only he can
perform unless and until it is determined that he is to
be shorn of those duties by the Senate.” Id. at 17.
Oliver Ellsworth and John Adams, for example,
believed that “the President, personally, was not the
subject to any process whatever…. For [that] would …
put it in the power of a common justice to exercise any
authority over him and stop the whole machine of
Government.” Journal of William Maclay 167 (Edgar
S. Maclay ed., 1890). Later, Thomas Jefferson opined
that if, through compulsory process, “the several
courts could bandy [the President] from pillar to post,
keep him constantly trudging from north to south &
east to west,” they could “withdraw him entirely from
his constitutional duties.” 9 The Writings of Thomas
Jefferson 60 (Paul Leicester Ford ed., 1898).
When the Framers discussed the possibility of
subjecting a President to criminal process, they
agreed that it would occur after impeachment and
removal from office. See, e.g., Federalist No. 69, at 416
(Alexander Hamilton) (Rossiter ed., 1961) (“The
President … would be liable to be impeached, tried,
and, upon conviction … would afterwards be liable to
prosecution and punishment in the ordinary course of
law.” (emphasis added)); 2 Farrand, Records of the
Federal Convention 500 (rev. ed. 1966) (Gouverneur

22

Morris: “A conclusive reason for making the Senate
instead of the Supreme Court the Judge of
impeachments, was that the latter was to try the
President after the trial of the impeachment.”
(emphasis added)); Federalist No. 77, at 464
(Alexander Hamilton) (discussing impeachment and
“subsequent prosecution in the common course of law”
(emphasis added)).
The rationale for presidential immunity from
indictment and prosecution applies equally when, as
here, the President is targeted for criminal
investigation and then served with compulsory
process. Article II requires that “all aspects of
criminal prosecution of a President must follow
impeachment” and that “removal from office must
precede any form of criminal process against an
incumbent President.” Nixon v. Sirica, 487 F.2d 700,
757 (D.C. Cir. 1973) (MacKinnon, J., concurring in
part and dissenting in part) (emphasis added).
Allowing the sitting President to be targeted for
criminal investigation—and to be subpoenaed on that
basis—would, like an indictment itself, distract him
from the numerous and important duties of his office,
intrude on and impair Executive Branch operations,
and stigmatize the presidency.
Moreover, allowing a single prosecutor to
investigate a sitting President through the issuance of
criminal process no less invades Congress’s
impeachment authority than the filing of a criminal
charge. Investigation of wrongdoing by the President
is a “NATIONAL INQUEST.” The Federalist No. 65,
at 397 (Alexander Hamilton). “If this be the design of

23

it, who can so properly be the inquisitors for the nation
as the representatives of the nation themselves.” Id.;
see also Mazars, 940 F.3d at 750 (Rao, J., dissenting).
The constitutional prohibition on subjecting a
sitting President to criminal process is especially
strong when applied to state and local governments.
See Jones, 520 U.S. at 691 n.13. The Supremacy
Clause exists to ensure that States are unable to
“defeat the legitimate operations” of the federal
government. M‘Culloch v. Maryland, 17 U.S. 316, 427
(1819). “It is of the very essence of supremacy, to
remove all obstacles to its action within its own
sphere, and so to modify every power vested in
subordinate governments, as to exempt its own
operations from their own influence.” Id. Subjecting a
sitting President to state criminal process would
“prostrat[e]” the federal government “at the foot of the
states.” Id. at 432.
As the Fifth Circuit told an Alabama grand jury
when it attempted to investigate a Justice
Department lawyer:
Both the Supremacy Clause and the
general principles of our federal system of
government dictate that a state grand
jury may not investigate the operation of
a federal agency…. [T]he investigation …
is an interference with the proper
governmental function of the United
States ... [and] an invasion of the
sovereign powers of the United States of
America. If the [State] had the power to

24

investigate …, it has the power to do
additional acts in furtherance of the
investigation; to issue subpoenas to
compel the attendance of witnesses and
the production of documents, and to
punish by fine and imprisonment for
disobedience. When this power is
asserted by a state sovereignty over the
federal sovereignty, it is in contravention
of our dual form of government and in
derogation of the powers of the federal
sovereignty. The state having the power
to subpoena … could embarrass, impede,
and obstruct the administration of a
federal agency. No federal agency can
properly function if its employees are
being constantly called from their duties
….
United States v. McLeod, 385 F.2d 734, 751-52 (5th
Cir. 1967). Giving every state and local prosecutor in
the country the unfettered authority that the District
Attorney claims here to issue criminal process to a
sitting President implicates all these concerns.
This is true as a principle of sovereignty and
without regard to the extent of the burden the state
interference imposes on federal operations. See North
Dakota v. United States, 495 U.S. 423, 437-38 (1986)
(“States may not directly obstruct the activities of the
Federal Government.”); M‘Clung v. Silliman, 19 U.S.
598, 605 (1821) (a state court cannot issue a
mandamus to an officer of the United States because
that officer’s “conduct can only be controlled by the

25

power that created him”). That said, the practical
threat that state criminal process poses to a President
cannot be overstated. State and local prosecutors have
massive incentives to target him with investigations
and subpoenas to advance their careers, enhance their
reelection prospects, or make a political statement.
Unleashing all fifty states and thousands of local
governments to conduct their own broad-ranging
criminal investigations of a sitting President is
unimaginable. It would overrun the right of the people
to “a vigorous Executive.” Amar & Kalt 20-21.
The foregoing principles resolve this dispute in
favor of immunity here. The District Attorney served
the sitting President, through his custodian, with
compulsory criminal process. There is no dispute that
the President is a target of this grand jury
investigation. See, e.g., App. 22a (explaining “that the
grand jury is investigating not only the President, but
also other persons and entities.” (emphasis added));
App. 117a-120a (naming the President and seeking
his personal records). Indeed, the most that the
Second Circuit would say is that “it is unclear whether
the President will be indicted.” App. 22a. The district
court was likewise only willing to say that the grand
jury “may or may not ultimately target [i.e., indict] the
President.” App. 53a.
As the record stands, then, the legal dispute
must be resolved on the understanding that the
District Attorney’s subpoena was issued to support “a
finding that it is probable that the President has
committed a crime.” Sirica, 487 F.2d at 758
(MacKinnon, J., concurring in part and dissenting in

26

part). That insinuation, even if it is made “obliquely,”
would “vitiate the sound judgment of the Framers
that a President must possess the continuous and
undiminished capacity to fulfill his constitutional
obligations.” Id. Granting a sitting President
immunity from criminal process ensures that this
does not happen.
The Second Circuit’s reasons for reaching a
different conclusion are misplaced. To begin, the
Second Circuit made a key conceptual error by
focusing on whether this subpoena interferes with the
President’s execution of his duties under Article II.
App. 18a-19a & n.12, 21a. Presidential immunity does
not turn on the idiosyncratic burdens (or lack thereof)
of a particular subpoena. This Court always takes a
categorical approach to presidential immunity.
This Court did not inquire, for example,
whether Mr. Fitzgerald’s suit alone “would raise
unique risks to the effective functioning of
government.” Fitzgerald, 457 U.S. at 751. The Court
recognized that “the President would be an easily
identifiable target for suits for civil damages” and,
collectively, those civil suits “could distract a
President from his public duties, to the detriment of
not only the President and his office but also the
Nation that the Presidency was designed to serve.” Id.
at 753. Similarly, this Court did not scrutinize
whether the suit brought by Ms. Jones would—in and
of itself—“create[] serious risks for the institution of
the Presidency.” Jones, 520 U.S. at 689. Rather, the
Court surveyed the “200-year history of the Republic”
and then asked whether “this particular case—as well

27

as the potential additional litigation that an
affirmance of the Court of Appeals judgment might
spawn—may impose an unacceptable burden on the
… office.” Id. at 701-02 (emphasis added).
There is no basis for framing a narrower
immunity inquiry here. The question, therefore, is not
whether this criminal subpoena will burden or
distract the President. It is whether allowing every
state or local prosecutor to target the President for
criminal investigation via the issuance of compulsory
process would cross the constitutional barrier erected
by Article II and the Supremacy Clause. It clearly
would.
The Second Circuit’s reliance on precedent to
reject the President’s immunity claim fares no better.
App. 15a-16a. The court principally relies on United
States v. Nixon. App. 16a-24a. But that reliance is
misplaced. The kind of legal process at issue here is
distinguishable from Nixon in several respects.
First, Nixon involved federal—not state—
process. See 418 U.S. at 707 (stressing how
presidential immunity would “gravely impair the role
of the courts under Art. III”). The difference is
material. The President’s asserted privilege created a
conflict between coequal branches of government.
Nixon had no occasion to consider the “contravention
of our dual form of government” or the “derogation of
the powers of the federal sovereignty” that would
result from a state exercising direct control over the
President of the United States. McLeod, 385 F.2d at
752. Moreover, as the Executive Branch explained

28

below: “In contrast to a United States Attorney, who
is accountable to the Attorney General and to the
President, who in turn is accountable to the Nation as
a whole, a local prosecutor is accountable to a small
and localized electorate.” CA2 Doc. 83 at 15.
Second, the subpoena upheld in Nixon asked
the President to provide evidence in someone else’s
criminal proceeding; the President was not himself a
target. 418 U.S. at 710. Indeed, the Nixon Court
refused to decide whether a grand jury could name a
sitting President as an unindicted coconspirator—an
issue on which the Court had originally granted the
United States’ cross-petition for certiorari. See 418
U.S. at 687 n.2.
The differences between treating the President
as a witness in a criminal proceeding and treating him
as a target in a criminal proceeding are important.
Only the latter carries the “distinctive and serious
stigma,” the “public … allegation of wrongdoing,” and
“the unique mental and physical burdens” that are
“placed on a President facing criminal charges.” Moss
Memo 249-52; see also Alberto R. Gonzales,
Presidential Powers, Immunities, and Pardons, 96
Wash. U. L. Rev. 905, 940 n.153 (2019). Those are the
concerns that drive the inquiry into whether the
President should be immune.
Third, the Nixon subpoena involved another
person’s criminal trial—not a grand jury
investigation. The Second Circuit dismissed this
distinction solely due to the comparable importance of
trial juries and grand juries. App. 22a-24a. But the

29

dispute is not over the important function served by
grand juries. The point is that a trial triggers
additional (and competing) constitutional rights held
by the criminal defendant. That is why the Court
stressed that criminal defendants enjoy Fifth and
Sixth Amendment rights that stake a constitutional
claim, even vis-à-vis the President, to the “production
of all evidence at a criminal trial.” Nixon, 418 U.S. at
711. Those concerns are simply not present in a grand
jury investigation.
Fourth, Nixon neither considered nor decided a
claim of presidential immunity. App. 18a-19a & n.14.
This Court labeled its analysis: “THE CLAIM OF
PRIVILEGE.” Id. at 703. Under that heading, the
Court briefly explained that the President was
arguing that “the separation of powers doctrine
precludes judicial review of a President’s claim of
privilege.” Id. Later, the Court noted that one
argument supporting the President’s claim for
“absolute privilege rests on the doctrine of separation
of powers …[, which] insulates the President from a
judicial subpoena.” Id. at 706. The Second Circuit read
this to be an assertion of immunity from criminal
process separate from the claim of executive
privilege—i.e., the argument that the President raises
here. App. 19a n.14. But, especially given that the
Court addressed the argument in a section concerning
the President’s “claim of privilege,” the better reading
is that the only “immunity” claim raised was an
argument that courts have no power to review the
invocation of privilege; that is, as soon as a President
asserts privilege, no court has the power to overcome
that claim.

30

The President’s reading is confirmed by the
Court’s treatment of the Government’s cross-petition,
which “raised the issue whether the grand jury acted
within its authority in naming the President as a
coconspirator.” 418 U.S. 687 n.2. The Court found
resolution of the issue “unnecessary to resolution of
the question whether the claim of privilege is to
prevail,” and therefore dismissed the cross-petition as
improvidently granted. Id. In other words, because
the Court concluded that President Nixon was a mere
third-party witness, only raising a claim of privilege,
the Court did not need to decide any broader
immunity question. That is why this “Court’s analysis
focused almost entirely on privilege.” App. 19a.
The Second Circuit also points to Jones and
Burr. But neither case considered—let alone
decided—this issue. In Jones, as the Second Circuit
recognized, the Court merely reiterated that “‘the
President is subject to judicial process in appropriate
circumstances.’” App. 15a (quoting Jones, 520 U.S. at
703). But it never decided whether subjecting the
President to judicial process is appropriate in this
kind of case. Indeed, the Court was careful to leave
open whether a civil suit brought in state court would
be constitutionally permissible, and it flagged the
violation of the Supremacy Clause that the President
raises here. See id. at 691 & n.13.
The Second Circuit also highlights that, as in
Jones, the Mazars subpoena has no “relation to the
President’s performance of his official functions.” App.
17a; see also App. 18a (“These documents do not
implicate, in any way, the performance of his official

31

duties.”). But that cannot be a relevant consideration
here unless the Second Circuit was deciding the issue
it claimed to leave open, viz., “whether the President
is immune from indictment and prosecution while in
office.” App. 28a. If presidential immunity turns on
official versus unofficial conduct, a sitting President
could be indicted, prosecuted, and imprisoned for
“failing to pay state taxes, or of driving while
intoxicated.” App. 82a. Jones certainly did not decide
that issue.
Burr also did not address the issue presented
here. In that case, Chief Justice Marshall, sitting as a
trial judge, subpoenaed President Jefferson to
produce a private letter to prove the innocence of the
criminal defendant (Aaron Burr)—not to prove
Jefferson’s guilt. See Burr, 25 F. Cas. at 32. Chief
Justice Marshall explained that while “[t]he court
would not lend its aid to motions obviously designed
to manifest disrespect to the government,” it was
appropriate to issue a subpoena “for papers to which
the accused may be entitled, and which may be
material in his defence.” Id. at 35; see also Akhil Reed
Amar, Nixon’s Shadow, 83 Minn. L. Rev. 1405, 1408
(1999). In a later opinion, the Chief Justice noted that,
had President Jefferson himself objected to the
subpoena, rather than delegate all authority over the
task to an attorney, “all proper respect would have
been paid” to the objection. 25 F. Cas. at 192.
To be sure, then, the Second Circuit is correct
that Burr “upheld the issuance of a subpoena duces
tecum to President Jefferson.” App. 15a. But, like
Jones, it did not decide this kind of immunity case.

32

That is why the Second Circuit ultimately, and
correctly, acknowledges that “the Supreme Court has
not had occasion to address this question.” App. 21a
(emphasis added).
Finally, the Second Circuit determined that the
fact that the subpoena was issued to the President’s
accountants instead of to him directly mattered to the
immunity inquiry: “The subpoena at issue is directed
not to the President, but to his accountants;
compliance does not require the President to do
anything at all.” App. 20a. But that distinction is
legally and factually untenable.
As an initial matter, the Second Circuit did not
hold that issuing the subpoena to Mazars rendered
the claim of immunity non-cognizable. It was clear
that the “President has standing to challenge the
Mazars subpoena.” App. 20a n.15. That is of course
right. The District Attorney sent the subpoena to
Mazars precisely because it is the President’s
custodian. Mazars is meant to function, at least for the
District Attorney’s purposes, as the President—just
without the inconvenience of having the subpoena
resisted or having its legality tested in court. Allowing
this type of behavior to defeat immunity would
“frustrate … judicial inquiry.” Eastland v. U.S
Servicemen’s Fund, 421 U.S. 491, 501 n.14 (1975); see
United States v. AT&T Co., 551 F.2d 384, 385 (D.C.
Cir. 1976).
Rather, the Second Circuit seized on the thirdparty nature of the subpoena to substantiate its
conclusion that compliance will not burden the

33

President because he will not have to physically “do
anything.” App. 20a. But immunity does not turn on
whether the President will personally take charge of
compliance. If it did, state and local prosecutors from
around the country could criminally subpoena a
sitting President’s medical, legal, banking, and
countless other personal papers held by third-party
custodians without implicating immunity. In all these
instances, the President would not have “to do or
produce anything.” For presidential immunity to
mean anything, it cannot be so easily evaded.
Subpoenas to custodians must be treated as though
they were sent to the target directly.
It is also a hollow distinction. Even if the
subpoena were sent to the President, it is unrealistic
to assume that he would personally search through
and compile documents responsive to this or any
subpoena. And again, immunity does not turn on
whether he would. In Fitzgerald, immunity turned on
the burdens of “concern,” “fear[],” and “distract[ion].”
457 U.S. at 752-53. The same burdens should be
decisive here. What matters is that the District
Attorney is targeting the President for criminal
investigation and issuing compulsory process for his
personal papers in an effort to build a case against
him. The issue is whether this criminal process will
create a “burden or distraction” that “would rise to the
level of interfering with his duty to ‘faithfully
execute[ ]’ the laws, U.S. Const. art. II, § 3, or
otherwise subordinate federal law in favor of a state
process.” App. 21a. That issue cannot be avoided
because the District Attorney sent the subpoena for

34

the President’s papers to his accountants, rather than
to him.
B.

The subpoena is unconstitutional
even if Nixon controls this dispute.

As explained, the Second Circuit’s reliance on
Nixon was erroneous. But even if Nixon controls this
case, the subpoena is still invalid. That is because,
under Nixon, the District Attorney still must have a
“demonstrated, specific need” for the requested
material. 418 U.S. at 713. In other words, he must
“demonstrate that the Presidential material [is]
‘essential to the justice of the (pending criminal)
case.’” Id. (quoting Burr, 25 F. Cas. at 192). Other
courts have interpreted the standard to mean that the
“evidence sought must be directly relevant to issues
that are expected to be central” and “not available
with due diligence elsewhere.” In re Sealed Case, 121
F.3d at 754-55. This stands in stark contrast to the
ordinary rule that a grand jury “can investigate
merely on suspicion that the law is being violated, or
even just because it wants assurance that it is not.”
United States v. Morton Salt Co., 338 U.S. 632, 642-43
(1950).
In the Second Circuit’s view, however, the
heightened Nixon standard applies only when a
President asserts a claim of executive privilege. App.
27a-28a. That is incorrect. Nixon itself acknowledged
that “‘in no case of this kind would a court be required
to proceed against the president as against an
ordinary individual.’” 418 U.S. at 708 (quoting Burr,
25 F. Cas. at 192). That is a strong signal that the

35

heightened standard applies without regard to the
assertion of privilege.
Cheney v. U.S. District Court for D.C.
illustrates the point. 542 U.S. 367 (2004). “Special
considerations control,” the Court explained, when the
“autonomy” of the President’s office is at stake. Id. at
385. It matters to the analysis whether, as in Nixon,
the subpoena “‘precisely identified’ and ‘specifically
enumerated’ the relevant materials” or, as in Cheney,
the discovery requests asked for “everything under
the sky.” Id. at 387 (cleaned up). “The very specificity
of the subpoena requests serves as an important
safeguard against unnecessary intrusion into the
operation of the Office of the President.” Id.
The District Attorney cannot satisfy the
heightened showing required under Nixon. The
subpoena to Mazars is not tailored to the needs of this
grand jury investigation. Indeed, the District
Attorney did not even try to tailor it to investigative
needs. He just photocopied congressional subpoenas
relating to federal issues that New York County has
no authority to investigate, and sent it to Mazars. This
subpoena is, by definition, grossly overbroad and the
District Attorney’s claim that it “mirrored certainly
the scope of what [he] needed from Mazars,” D.Ct.
Dkt. 38 at 30, is meritless on its face.
The District Attorney, moreover, has failed to
even assert that his sweeping request for the
President’s private documents is particularly
important or that the information he seeks is
accessible only through those specific records—much

36

less that he needs these documents in order to file a
criminal charge. Cf. In re Sealed Case, 121 F.3d at
754-55. To be sure, duplicating a congressional
subpoena may be more “efficient.” CA2 Doc. 99 at 46.
But efficiency is no substitute for the demonstrated,
specific need that is required of any subpoena that
purports to compel production of documents from a
sitting President. See Nixon, 418 U.S. at 713; Cheney,
542 U.S. at 387; see also Burr, 25 F. Cas. at 191-92.3

At a minimum, this Court should vacate and remand for incamera review. The Second Circuit rejected this argument as a
matter of law and did not rely on sealed portions of the District
Attorney’s affidavit filed in district court to support its
affirmance. App. 3a-4a & n.3; see D.Ct. Dkt. 17 at 2-4. Were the
Court to adopt this approach, it should preserve the status quo
while that review is conducted and any appeal is taken from the
district court’s decision.
3

37

CONCLUSION
The petition for a writ of certiorari should be
granted.
Respectfully submitted,
William S. Consovoy
Alexa R. Baltes
CONSOVOY MCCARTHY PLLC
1600 Wilson Blvd., Ste. 700
Arlington, VA 22209
(703) 243-9423
will@consovoymccarthy.com
Patrick Strawbridge
CONSOVOY MCCARTHY PLLC
Ten Post Office Square
8th Floor South PMB #706
Boston, MA 02109
patrick@consovoymccarthy.com

Jay Alan Sekulow
Counsel of Record
Stuart J. Roth
Jordan Sekulow
CONSTITUTIONAL LITIGATION
AND ADVOCACY GROUP, P.C.
1701 Pennsylvania Ave, NW,
Ste. 200
Washington, DC 20006
(202) 546-8890
jsekulow@claglaw.com

APPENDIX

1a
APPENDIX A — Appendix
OPINIONAOF THE UNITED
STATES COURT OF APPEALS FOR THE
SECOND CIRCUIT, DATED NOVEMBER 4, 2019
UNITED STATES COURT OF APPEALS
FOR THE SECOND CIRCUIT
Docket No. 19-3204
DONALD J. TRUMP,
Plaintiff-Appellant,
-v.CYRUS R. VANCE, JR., IN HIS OFFICIAL
CAPACITY AS DISTRICT ATTORNEY OF THE
COUNTY OF NEW YORK, MAZARS USA, LLP,
Defendants-Appellees.1
October 23, 2019, Argued
November 4, 2019, Decided
Before: K ATZMANN, Chief Judge, CHIN and
DRONEY, Circuit Judges.
President Donald J. Trump filed suit in the United
States District Court for the Southern District of New
York seeking declaratory and injunctive relief to restrain
the District Attorney of New York County from enforcing
1. The Clerk of Court is directed to amend the caption to
conform to the above.

2a
Appendix A
a grand jury subpoena served on Mazars USA LLP, a
third-party custodian of the President’s financial records.
The district court (Marrero, J.) abstained from exercising
jurisdiction and dismissed the President’s complaint
pursuant to Younger v. Harris, 401 U.S. 37, 91 S. Ct. 746,
27 L. Ed. 2d 669 (1971), but also ruled in the alternative that
the President is not entitled to injunctive relief. On appeal,
the President argues that abstention is not the course
that should be taken here, and he asserts a temporary
absolute presidential immunity that would forbid the grand
jury from seeking his financial records in service of an
investigation into conduct that predated his presidency.
We agree that Younger abstention does not apply to the
circumstances of this case. We hold, however, that any
presidential immunity from state criminal process does not
extend to investigative steps like the grand jury subpoena
at issue here. We accordingly AFFIRM the district court’s
decision on the immunity question, which we construe as
an order denying a preliminary injunction, VACATE the
judgment of the district court dismissing the complaint
on the ground of Younger abstention, and REMAND for
further proceedings consistent with this opinion.
K atzmann, Chief Judge:
This case presents the question of when, if ever, a
county prosecutor can subpoena a third-party custodian
for the financial and tax records of a sitting President,
over which the President has no claim of executive
privilege. 2 The District Attorney of New York County has
issued a grand jury subpoena to an accounting firm that
2. Any references in this opinion to the President’s privilege or
lack thereof concerns only a President’s executive privilege.

3a
Appendix A
possesses a variety of such records because it performed
accounting services for President Donald J. Trump and
his organization. When the President sought injunctive
relief in federal court to restrain enforcement of that
subpoena, the district court (Marrero, J.) declined to
exercise jurisdiction and dismissed the case under the
doctrine of Younger v. Harris, 401 U.S. 37, 91 S. Ct. 746,
27 L. Ed. 2d 669 (1971). The district court also explained
in an alternative holding why, in its view, there was no
constitutional basis to temporarily restrain or preliminarily
enjoin the subpoena at issue. On appeal, we conclude that
Younger abstention does not extend to the circumstances
of this case, but we hold that the President has not shown
a likelihood of success on the merits of his claims sufficient
to warrant injunctive relief. Construing the district
court’s discussion of the immunity question as an order
denying a preliminary injunction, we AFFIRM that order,
VACATE the judgment dismissing the complaint on the
ground of Younger abstention, and REMAND for further
proceedings consistent with this opinion.
BACKGROUND
The relevant facts are straightforward. The District
Attorney of the County of New York has initiated a grand
jury investigation that “targets New York conduct and
has yet to conclude as to specific charges or defendants.” 3
3. The President’s complaint is silent as to the nature of the
grand jury investigation, but the District Attorney has described the
investigation in further detail in a declaration filed in opposition to
the President’s motion for preliminary injunctive relief. The relevant
portion of that declaration remains redacted from the public record; in
any event, we need not rely on those further details here. It is enough

4a
Appendix A
Joint App’x 46. The parties agree for purposes of this
case that the grand jury is investigating whether several
individuals and entities have committed criminal violations
of New York law.
On August 1, 2019, the District Attorney served a
subpoena duces tecum on behalf of the grand jury on the
Trump Organization.4 The subpoena sought “documents
and communications” from the period between June 1,
2015 and September 20, 2018 relating to suspected “hush
money” payments made to two women. Joint App’x 39,
48. At first, the Trump Organization cooperated with the
subpoena and produced responsive documents. However,
when “the President’s attorneys”—private counsel
retained by the President and apparently then acting
on behalf of the Trump Organization—learned that the
District Attorney interpreted the subpoena to require
production of the President’s personal tax returns, they
“resisted” that interpretation. Joint App’x 21. Although the
Trump Organization has apparently continued to produce
limited tranches of documents in response to the August
1, 2019 subpoena, it has not produced any tax records.
On August 29, 2019, the District Attorney served
another subpoena duces tecum on behalf of the grand jury
on Defendant-Appellee Mazars USA LLP (the “Mazars
for purposes of our analysis that the Mazars subpoena seeks evidence
in service of an investigation into potential criminal conduct within
the District Attorney’s jurisdiction, a fact about the investigation
which the district court treated as “uncontested.” Joint App’x 76.

4. According to the President’s complaint, the Trump
Organization is wholly owned by the Donald J. Trump Revocable
Trust, of which the President is the grantor and beneficiary.

5a
Appendix A
subpoena”). Mazars is an accounting firm that possesses
various financial records relating to the President’s
personal and business dealings, and the Mazars subpoena
seeks a wide variety of financial records dating from
January 1, 2011 to the present and relating to the
President, the Trump Organization, and several related
entities. Among the records sought in the August 29, 2019
subpoena are any “[t]ax returns and related schedules,
in draft, as-filed, and amended form” within Mazars’s
possession. 5 Joint App’x 34. The subpoena set a return
5. The full document request is as follows:
1.

For the period of January 1, 2011 to the present, with
respect to Donald J. Trump, the Donald J. Trump
Revocable Trust, the Trump Organization Inc., the
Trump Organization LLC, the Trump Corporation,
DJT Holdings LLC, DJT Holdings Managing
Member LLC, Trump Acquisition LLC, Trump
Acquisition, Corp., the Trump Old Post Office LLC,
the Trump Foundation, and any related parents,
subsidiaries, affiliates, joint ventures, predecessors,
or successors (collectively, the “Trump Entities”):
a.

Tax returns and related schedules, in
draft, as-filed, and amended form;

b.

A ny and all statements of financial
condition, annual statements, periodic
f inancial repor ts, and independent
auditors’ reports prepared, compiled,
reviewed, or audited by Mazars USA LLP
or its predecessor, WeiserMazars LLP;

c.

Regardless of time period, any and all
engagement agreements or contracts
related to the preparation, compilation,
review, or auditing of the documents
described in items (a) and (b);

6a
Appendix A
date of September 19, 2019. Only the Mazars subpoena is
the subject of this action and appeal.6
On September 19, 2019, the President filed this action
in the United States District Court for the Southern
District of New York. The President’s complaint asserted
a broad presidential immunity from state criminal process
d. All underlying, supporting, or source
documents and records used in the
preparation, compilation, review, or
auditing of documents described in items
(a) and (b), and any summaries of such
documents and records; and
e.

All work papers, memoranda, notes,
and communications related to the
preparation, compilation, review, or
auditing of the documents described
in items (a) and (b), including, but not
limited to,
i.

A l l com mu n icat ions bet ween
Donald Bender and any employee or
representative of the Trump Entities
as defined above; and

ii. All communications, whether internal
or external, related to concerns
about the completeness, accuracy,
or authenticity of any records,
documents, valuations, explanations,
or other information provided by any
employee or representative of the
Trump Entities.

6. Mazars itself takes no position on the legal issues raised in
this appeal.

7a
Appendix A
and sought “[a] declaratory judgment that the [Mazars]
subpoena is invalid and unenforceable while the President
is in office;” “[a] permanent injunction staying the subpoena
while the President is in office;” “[a] permanent injunction
prohibiting the District Attorney’s office from taking any
action to enforce the subpoena, from imposing sanctions
for noncompliance with the subpoena, and from inspecting,
using, maintaining, or disclosing any information obtained
as a result of the subpoena, until the President is no longer
in office;” “[a] permanent injunction prohibiting Mazars
from disclosing, revealing, delivering, or producing the
requested information, or otherwise complying with the
subpoena, until the President is no longer in office;” and
temporary restraining orders and preliminary injunctions
to the same effect during the pendency of the federal
litigation. Joint App’x 26.
After a compressed briefing schedule, the able district
court issued a thorough and thoughtful decision and order
on October 7, 2019. See Trump v. Vance, 395 F. Supp. 3d
283 (S.D.N.Y. 2019). The court held that it was required to
abstain from exercising jurisdiction under the Supreme
Court’s decision in Younger v. Harris, 401 U.S. 37, 91
S. Ct. 746, 27 L. Ed. 2d 669 (1971), and it dismissed the
President’s complaint on that ground. Trump, 395 F.
Supp. 3d at 316. The court also articulated an alternative
holding—to govern “in the event on appeal abstention
were found unwarranted under the circumstances
presented here”—in which it denied the President’s
motion for injunctive relief. Id. at 290. This appeal followed
immediately on an expedited briefing schedule.

8a
Appendix A
DISCUSSION
I.

Standard of Review

“We review de novo the essentially legal determination
of whether the requirements for abstention have been
met.” Disability Rights N.Y. v. New York, 916 F.3d 129,
133 (2d Cir. 2019).7 Likewise, although the denial of
a preliminary injunction is generally reviewable only
for abuse of discretion, “[q]uestions of law decided in
connection with requests for preliminary injunctions . . .
receive the same de novo review that is appropriate for
issues of law generally.” Am. Express Fin. Advisors Inc.
v. Thorley, 147 F.3d 229, 231 (2d Cir. 1998).
II. Younger Abstention
The district court dismissed the President’s complaint
on the basis that abstention was required under Younger v.
Harris, 401 U.S. 37, 91 S. Ct. 746, 27 L. Ed. 2d 669 (1971).
On appeal, the President and the United States argue that
Younger abstention is unwarranted in the circumstances
of this case. We agree.
“In the main, federal courts are obliged to decide
cases within the scope of federal jurisdiction.” Sprint
Commc’ns, Inc. v. Jacobs, 571 U.S. 69, 72, 134 S. Ct. 584,
187 L. Ed. 2d 505 (2013). “[O]nly exceptional circumstances
7. Unless otherwise indicated, in quoting cases, all internal
quotation marks, alterations, emphases, footnotes, and citations
are omitted.

9a
Appendix A
justify a federal court’s refusal to decide a case in
deference to the States.” New Orleans Pub. Serv., Inc.
v. Council of New Orleans, 491 U.S. 350, 368, 109 S. Ct.
2506, 105 L. Ed. 2d 298 (1989) (“NOPSI”). Under Younger
and its progeny, however, federal courts must decline to
exercise jurisdiction in three such exceptional categories
of cases: “First, Younger preclude[s] federal intrusion
into ongoing state criminal prosecutions. Second, certain
civil enforcement proceedings warrant[] abstention.
Finally, federal courts [must] refrain[] from interfering
with pending civil proceedings involving certain orders
uniquely in furtherance of the state courts’ ability to
perform their judicial functions.” Sprint Commc’ns, 571
U.S. at 78. Younger abstention is thus an “exception to
th[e] general rule” that “a federal court’s obligation to
hear and decide a case is virtually unflagging,” id. at 77,
and the doctrine is also subject to exceptions of its own in
cases of bad faith, harassment, or other “extraordinary
circumstances,” Kugler v. Helfant, 421 U.S. 117, 124, 95
S. Ct. 1524, 44 L. Ed. 2d 15 (1975).
As the district court recognized, Younger abstention
is grounded “partly on traditional principles of equity,
but . . . primarily on the ‘even more vital consideration’
of comity,” which “includes ‘a proper respect for state
functions, a recognition of the fact that the entire country
is made up of a Union of separate state governments, and
a continuance of the belief that the National Government
will fare best if the States and their institutions are left
free to perform their separate functions in their separate
ways.’” NOPSI, 491 U.S. at 364 (quoting Younger, 401 U.S.
at 43-44). And as the Supreme Court has emphasized,

10a
Appendix A
“[w]hen a federal court is asked to interfere with a pending
state prosecution,” those “established doctrines of equity
and comity are reinforced by the demands of federalism,
which require that federal rights be protected in a
manner that does not unduly interfere with the legitimate
functioning of the judicial systems of the States.” Kugler,
421 U.S. at 123.
The demands of federalism are diminished, however,
and the importance of preventing friction is reduced,
when state and federal actors are already engaged in
litigation. Recognition of this reality underlies legislative
enactments like the federal officer removal statute, 28
U.S.C. § 1442(a)(1), which is grounded in a congressional
decision that “federal officers, and indeed the Federal
Government itself, require the protection of a federal
forum.” See Willingham v. Morgan, 395 U.S. 402, 407, 89
S. Ct. 1813, 23 L. Ed. 2d 396 (1969). It is also reflected in
the Supreme Court’s observation that allowing federal
actors to access federal courts is “preferable in the context
of healthy federal-state relations.” Leiter Minerals, Inc. v.
United States, 352 U.S. 220, 226, 77 S. Ct. 287, 1 L. Ed. 2d
267 (1957). We think this is strikingly so when the federal
actor is the President of the United States, who under
Article II of the Constitution serves as the nation’s chief
executive, the head of a branch of the federal government.
The Court’s decision in Leiter is illuminating in this
respect. There the Court held that the Anti-Injunction
Act 8 does not bar the United States from seeking a stay
8. 28 U.S.C. § 2283 (“A court of the United States may not
grant an injunction to stay proceedings in a State court except as

11a
Appendix A
of state court proceedings. Consistent with the discussion
above, the Court recognized that the Act was “designed to
prevent conflict between federal and state courts.” Id. at
225. The Court nevertheless reasoned that “[t]his policy is
much more compelling when it is the litigation of private
parties which threatens to draw the two judicial systems
into conflict than when it is the United States which seeks a
stay to prevent threatened irreparable injury to a national
interest.” Id. at 225-26. Indeed, the Court concluded that
Congress would not have intended for the Act to preclude
stay applications by the United States given “[t]he
frustration of superior federal interests that would ensue
from precluding the Federal Government from obtaining
a stay of state court proceedings.” Id. at 226.
Neither the Supreme Court nor this Court has had
occasion to apply Leiter’s reasoning in the Younger
context or to decide “when, if at all, abstention would be
appropriate where the Federal Government seeks to invoke
federal jurisdiction.” Colo. River Water Conservation
Dist. v. United States, 424 U.S. 800, 816 n.23, 96 S. Ct.
1236, 47 L. Ed. 2d 483 (1976) (citing Leiter, 352 U.S. 220,
77 S. Ct. 287, 1 L. Ed. 2d 267). However, nearly every
circuit to address the issue has either held or suggested
that abstention is unwarranted in such circumstances.9
expressly authorized by Act of Congress, or where necessary in aid
of its jurisdiction, or to protect or effectuate its judgments.”).

9. See United States v. Morros, 268 F.3d 695, 707-09 (9th Cir.
2001); United States v. Composite State Bd. of Med. Exam’rs, 656
F.2d 131, 135-38 (5th Cir. Unit B 1981); cf. United States v. Pa.,
Dep’t of Envtl. Res., 923 F.2d 1071, 1078-79 (3d Cir. 1991) (endorsing
Composite State Board in the context of Declaratory Judgment Act);

12a
Appendix A
We find these decisions persuasive, at least insofar as
they counsel against abstention in this case. Specifically,
we do not believe that Younger’s policy of comity can be
vindicated where a county prosecutor, however competent,
has opened a criminal investigation that involves the
sitting President, and the President has invoked federal
jurisdiction “to vindicate the ‘superior federal interests’
embodied in Article II and the Supremacy Clause.”
Appellant Br. 13. “Comity is a two-way street, requiring
a delicate balancing of sometimes-competing state and
federal concerns,” Yeatts v. Angelone, 166 F.3d 255, 261
(4th Cir. 1999), and on the facts before us, this balance
tips in favor of exercising jurisdiction.10
In reaching the opposite conclusion, the district
court cited our decision in United States v. Certified
Industries, Inc. for the proposition that “a stay [should
First Fed. Sav. & Loan Ass’n of Bos. v. Greenwald, 591 F.2d 417,
423-25 (1st Cir. 1979) (holding that abstention from adjudication of
declaratory judgment action was unwarranted where federal agency
was joined as defendant). But see United States v. Ohio, 614 F.2d
101, 105 (6th Cir. 1979) (holding that, even in “cases brought by the
United States . . . , exercise of . . . jurisdiction must be tempered by
the judicial doctrine of abstention whenever the interest of states in
administering their own laws, as well as in deciding constitutional
questions, would be unnecessarily hampered by federal judicial
proceedings”).

10. Our conclusion is unaltered by the fact that the President
is represented by private counsel. The same was true in Nixon v.
Fitzgerald, 457 U.S. 731, 102 S. Ct. 2690, 73 L. Ed. 2d 349 (1982),
and Clinton v. Jones, 520 U.S. 681, 117 S. Ct. 1636, 137 L. Ed. 2d 945
(1997), and those cases nevertheless raised fundamental questions
involving immunity and the separation of powers.

13a
Appendix A
not be] automatically granted simply on the application
of the United States” because it is “necessary to inquire
‘whether the granting of an injunction [i]s proper in the
circumstances of this case.’” 361 F.2d 857, 859 (2d Cir.
1966) (quoting Leiter, 352 U.S. at 226). This proposition,
while true, does not weigh in favor of abstention. Instead,
Certified Industries merely reiterated Leiter’s holding
that the Anti-Injunction Act neither precludes nor compels
a stay of state court proceedings on the application of the
United States. The same is true here: Younger neither
precludes nor compels the issuance of an injunction in the
circumstances of this case. Indeed, as discussed below, we
ultimately conclude that an injunction is not warranted.
Our conclusion that Younger abstention is not
applicable here is not intended, in any way, to denigrate
the competence of New York’s courts to adjudicate
federal claims. To the contrary, we are confident that
New York’s courts approach federal constitutional claims
with the same care and thoughtfulness as their federal
counterparts.
The district court astutely noted that this case
highlights “the complexities and uncharted ground that
the Younger doctrine presents.” Trump, 395 F. Supp.
3d at 301. Legitimate arguments can be made both in
favor of and against abstention here. Because Younger’s
policy of comity cannot be vindicated in light of the statefederal clash before us, and because the President raises
novel and serious claims that are more appropriately
adjudicated in federal court, we conclude that abstention
does not extend to the circumstances of this case. We

14a
Appendix A
therefore respectfully vacate the district court’s judgment
dismissing the President’s complaint.11
III.

Injunctive Relief

Having concluded that abstention is not the route to
be taken here, we proceed to consider the district court’s
alternative holding that the President failed to demonstrate
his entitlement to injunctive relief. Because the district
court clearly intended its discussion of the President’s
request for injunctive relief to “obviate a remand” in
the event we disagreed with its decision to abstain, we
will construe that discussion as an order denying the
President’s motion for a preliminary injunction. For the
reasons that follow, we affirm that decision.
A party seeking such relief must “show (a) irreparable
harm and (b) either (1) likelihood of success on the merits
or (2) sufficiently serious questions going to the merits to
make them a fair ground for litigation and a balance of
hardships tipping decidedly toward the party requesting
the preliminary relief.” Citigroup Glob. Markets, Inc. v.
VCG Special Opportunities Master Fund Ltd., 598 F.3d
30, 35 (2d Cir. 2010). The district court reasoned that the
President failed to show that (1) he was likely to succeed
on the merits, (2) he would suffer irreparable harm in the
absence of the injunction, or (3) an injunction would be in
the public interest. Trump, 395 F. Supp. 3d at 304, 31516. Because we conclude that the President is unlikely to
11. As we hold that abstention is not called for because of the
reasons above, we need not address the other arguments against
abstention raised by the President and the United States.

15a
Appendix A
succeed on the merits of his immunity claim, we agree with
the district court that he is not entitled to injunctive relief.
The President relies on what he described at
oral argument as “temporary absolute presidential
immunity”—he argues that he is absolutely immune
from all stages of state criminal process while in office,
including pre-indictment investigation, and that the
Mazars subpoena cannot be enforced in furtherance of
any investigation into his activities. We have no occasion
to decide today the precise contours and limitations of
presidential immunity from prosecution, and we express
no opinion on the applicability of any such immunity
under circumstances not presented here. Instead, after
reviewing historical and legal precedent, we conclude only
that presidential immunity does not bar the enforcement
of a state grand jury subpoena directing a third party to
produce non-privileged material, even when the subject
matter under investigation pertains to the President.
We begin with the long-settled proposition that “the
President is subject to judicial process in appropriate
circumstances.” Clinton v. Jones, 520 U.S. 681, 703, 117
S. Ct. 1636, 137 L. Ed. 2d 945 (1997). Over 200 years
ago, Chief Justice Marshall, sitting as the trial judge in
the prosecution of Aaron Burr, upheld the issuance of a
subpoena duces tecum to President Jefferson. United
States v. Burr, 25 F. Cas. 30, 34-35, F. Cas. No. 14692D
(C.C.D. Va. 1807) (No. 14,692D) (Marshall, C.J.); see also
United States v. Burr, 25 F. Cas. 187, 191, F. Cas. No.
14694 (C.C.D. Va. 1807) (No. 14,694) (Marshall, C.J.)
(explaining that it was “not controverted” that “the

16a
Appendix A
president of the United States may be subpoenaed, and
examined as a witness, and required to produce any paper
in his possession”); Clinton, 520 U.S. at 703-04 & 704
n.38 (endorsing Marshall’s position). Consistent with that
historical understanding, presidents have been ordered to
give deposition testimony or provide materials in response
to subpoenas. See Clinton, 520 U.S. at 704-05 (collecting
examples). In particular, “the exercise of jurisdiction [over
the President] has been held warranted” when necessary
“to vindicate the public interest in an ongoing criminal
prosecution.” Nixon v. Fitzgerald, 457 U.S. 731, 754, 102
S. Ct. 2690, 73 L. Ed. 2d 349 (1982).
The most relevant precedent for present purposes is
United States v. Nixon, 418 U.S. 683, 94 S. Ct. 3090, 41 L.
Ed. 2d 1039 (1974). There, a subpoena directed President
Nixon to “produce certain tape recordings and documents
relating to his conversations with aides and advisers” for
use in a criminal trial against high-level advisers to the
President. Id. at 686. Nixon objected on two grounds: first,
that the communications memorialized in the requested
materials were privileged; second, that the separation of
powers “insulates a President from a judicial subpoena
in an ongoing criminal prosecution.” Id. at 705-06. The
Supreme Court unanimously disagreed, noting that
“neither the doctrine of separation of powers, nor the need
for confidentiality of high-level communications, without
more, can sustain an absolute, unqualified Presidential
privilege of immunity from judicial process under all
circumstances.” Id. at 706. The Court explained that “a
generalized claim of the public interest in confidentiality
of nonmilitary and nondiplomatic discussions” was

17a
Appendix A
insufficient to justify non-compliance with a subpoena
“requiring the production of materials for use in a
criminal prosecution.” Id. at 707, 710. The Court noted
that privileges “are not lightly created nor expansively
construed, for they are in derogation of the search for
truth.” Id. at 710. And this was true even of executive
privilege, a doctrine “fundamental to the operation of
Government and inextricably rooted in the separation of
powers under the Constitution.” Id. at 708.
The President has not persuasively explained why, if
executive privilege did not preclude enforcement of the
subpoena issued in Nixon, the Mazars subpoena must be
enjoined despite seeking no privileged information and
bearing no relation to the President’s performance of his
official functions. The Nixon Court explained that even
the President’s weighty interest in candid and confidential
conversations with his advisers could not justify a blanket
privilege that would “cut deeply into the guarantee of due
process of law and gravely impair the basic function of the
courts.” Id. at 712.
Here, none of the materials sought by the Mazars
subpoena implicates executive privilege. Cf. Cheney v.
U.S. Dist. Ct. for D.C., 542 U.S. 367, 384, 124 S. Ct. 2576,
159 L. Ed. 2d 459 (2004) (“In light of the fundamental
and comprehensive need for every man’s evidence in
the criminal justice system . . . the Executive Branch
[must] first assert privilege to resist disclosure. . . .”).
Nor does the subpoena seek information regarding
the President’s “action[s] taken in an official capacity.”
Clinton, 520 U.S. at 694. The subpoena seeks only the

18a
Appendix A
President’s private tax returns and financial information
relating to the businesses he owns in his capacity as a
private citizen. These documents do not implicate, in
any way, the performance of his official duties.12 We
find no support in the Nixon Court’s conclusion—that
even documents exposing the President’s confidential,
official conversations may properly be obtained by
subpoena—for the proposition that a President’s private
and non-privileged documents may be absolutely shielded
from judicial scrutiny. Cf. id. at 693-94 (noting that the
President’s immunity from damages for acts taken in his
official capacity “provides no support for an immunity for
unofficial conduct”).13
Tellingly, although Nixon asserted both a claim of
executive privilege and of presidential immunity from
12. We note that the past six presidents, dating back to
President Carter, all voluntarily released their tax returns to the
public. While we do not place dispositive weight on this fact, it
reinforces our conclusion that the disclosure of personal financial
information, standing alone, is unlikely to impair the President in
performing the duties of his office.
13. Chief Justice Marshall recognized “a privilege . . . to
withhold private letters of a certain description,” but only because
“[l]etters to the president in his private character, are often written
to him in consequence of his public character, and may relate to public
concerns. Such a letter, though it be a private one, seems to partake
of the character of an official paper, and to be such as ought not on
light ground to be forced into public view.” Burr, 25 F. Cas. at 192.
Here, there is no contention that any of the documents sought by
the Mazars subpoena relate in any way to the President’s “public
character” and so there is no reason to give them the heightened
protection afforded to “official paper[s].”

19a
Appendix A
judicial process, the Court’s analysis focused almost
entirely on privilege. That the Court felt it unnecessary
to devote extended discussion to the latter argument
strongly suggests that the President may not resist
compliance with an otherwise valid subpoena for private
and non-privileged materials simply because he is the
President. Cf. Nixon v. Sirica, 487 F.2d 700, 713, 159
U.S. App. D.C. 58 (D.C. Cir. 1973) (per curiam) (“[The
President] concedes that he, like every other citizen, is
under a legal duty to produce relevant, non-privileged
evidence when called upon to do so.”).14
It is true that the President “occupies a unique position
in the constitutional scheme,” Fitzgerald, 457 U.S. at 749,
and we are mindful of the Supreme Court’s admonition
that a court should not “proceed against the president as
against an ordinary individual,” Nixon, 418 U.S. at 708
(quoting Burr, 25 F. Cas. at 192). For example, historical
practice suggests that a court may not compel the President
to personally attend trial or give live testimony in open
court. See Clinton, 520 U.S. at 692 n.14. In the context of
a subpoena, the “timing and scope” of any production from
the President must be informed by “[t]he high respect
14. At oral argument, the President suggested that Nixon either
did not think to, or deliberately chose not to, raise an argument of
presidential privilege. That is not accurate. See Nixon, 418 U.S. at
706 (noting that “[t]he second ground asserted by the President’s
counsel in support of the claim of absolute privilege” is “that the
independence of the Executive Branch . . . insulates a President
from a judicial subpoena in an ongoing criminal prosecution”); see
also Sirica, 487 F.2d at 708 (“Counsel argue, first, that, so long as
he remains in office, the President is absolutely immune from the
compulsory process of a court . . . .”).

20a
Appendix A
that is owed to the office of the Chief Executive.” Id. at
707. And in holding that a former president was entitled
to “absolute immunity from damages liability predicated
on his official acts,” the Supreme Court quoted with
approval Justice Story’s conclusion that the President is
not “liable to arrest, imprisonment, or detention, while he
is in the discharge of the duties of his office.” Fitzgerald,
457 U.S. at 749 (quoting 3 J. Story, Commentaries on the
Constitution of the United States § 1563, pp. 418-19 (1st
ed. 1833)).
But we are not faced, in this case, with the President’s
arrest or imprisonment, or with an order compelling him
to attend court at a particular time or place, or, indeed,
with an order that compels the President himself to do
anything. The subpoena at issue is directed not to the
President, but to his accountants; compliance does not
require the President to do anything at all.15
15. The President resists this distinction, arguing that “courts
treat a subpoena to a third-party custodian as if it was issued directly
to the aggrieved party.” Reply Br. 18 n.7. We do not think that is quite
right. When the objection to a subpoena pertains to the information
sought, there is little difference between the custodian and the true
party in interest, and either may resist enforcement. See 9A Charles
Alan Wright & Arthur R. Miller, Federal Practice and Procedure
§ 2459 (3d ed. 2008) (noting that a party may object to a subpoena
directed to another person if “the objecting party claims some
personal right or privilege with regard to the documents sought”).
That is why the President has standing to challenge the Mazars
subpoena: because he argues that his personal records are absolutely
privileged from criminal discovery, no matter who has custody of
them. Nonetheless, in assessing the impact of the subpoena on the
office of the President, we cannot ignore the fact that compliance
would not require him to do anything.

21a
Appendix A
The President argues that this case is distinguishable
from Nixon and related cases because this subpoena
comes from a state rather than a federal court. While
the Supreme Court has not had occasion to address this
question, it has noted in passing that “any direct control by
a state court over the President” may “implicate concerns”
under the Supremacy Clause. Clinton, 520 U.S. at 691
n.13. But, as already discussed, this subpoena does not
involve “direct control by a state court over the President.”
Although the subpoena is directed to the President’s
custodian, no court has ordered the President to do or
produce anything. Nor has the President explained why
any burden or distraction the third-party subpoena
causes would rise to the level of interfering with his
duty to “faithfully execute[]” the laws, U.S. Const. art.
II, § 3, or otherwise subordinate federal law in favor of
a state process. Cf. Clinton, 520 U.S. at 705 n.40 (noting
that although the President “may become distracted or
preoccupied by pending litigation,” such distractions “do
not ordinarily implicate constitutional separation-ofpowers concerns”). So while the President may be correct
that state courts lack the authority to issue him orders—a
question we have no need to address today—that provides
no basis to enjoin the enforcement of a subpoena issued to
a third party simply because the President is implicated
in the subject matter of the investigation.
The President also argues that this case is unlike
Nixon because he is a “target” of the investigation, which
carries a “distinctive and serious stigma” that is not
present when the President is merely a witness in another
person’s trial. Appellant Br. 29-30. We are not persuaded

22a
Appendix A
by this distinction. The President has not been charged
with a crime. The grand jury investigation may not result
in an indictment against any person, and even if it does,
it is unclear whether the President will be indicted. The
District Attorney represents, and the President does
not contest, that the grand jury is investigating not only
the President, but also other persons and entities. Even
assuming, without deciding, that a formal criminal charge
against the President carries a stigma too great for the
Constitution to tolerate, we cannot conclude that mere
investigation is so debilitating. Indeed, that contention is
hard to square with Nixon. Although that case concerned
a trial subpoena, rather than one issued by a grand jury,
the grand jury had previously named President Nixon
an unindicted coconspirator. See Nixon, 418 U.S. at 687.
Surely that designation carries far greater stigma than
the mere revelation that matters involving the President
are under investigation. It is true that the Supreme Court
did not decide whether it was appropriate for the grand
jury to so name President Nixon, an issue on which it
originally granted certiorari. See id. at 687 n.2. But the
fact that Nixon was ordered to comply with a subpoena
seeking documents for a trial proceeding on an indictment
that named him as a conspirator strongly suggests that
the mere specter of “stigma” or “opprobrium” from
association with a criminal case is not a sufficient reason
to enjoin a subpoena—at least when, as here, no formal
charges have been lodged.
Nor can we accept the President’s suggestion that
a grand jury investigation is less pressing or important
than a criminal trial. It is true, as the President points

23a
Appendix A
out, that the grand jury process does not involve the
same “constitutional dimensions” as a criminal trial.
Id. at 711 (citing the Sixth Amendment’s guarantees
of confrontation and compulsory process and the Fifth
Amendment’s guarantee of due process). But the grand
jury has a central role in our system of federalism
nonetheless. In the federal context, “[g]rand jury
proceedings are constitutionally mandated” for the
“prosecutions for capital or other serious crimes, and its
constitutional prerogatives are rooted in long centuries
of Anglo-American history.” Branzburg v. Hayes, 408
U.S. 665, 687, 92 S. Ct. 2646, 33 L. Ed. 2d 626 (1972).
“[T]he grand jury is similarly guaranteed by many state
constitutions,” id., including New York’s, N.Y. Const. art.
I, § 6. Indeed, “the longstanding principle that the public
has a right to every man’s evidence . . . is particularly
applicable to grand jury proceedings.” Branzburg, 408
U.S. at 688 (emphasis added). Accordingly, the grand
jury’s “investigative powers are necessarily broad.” Id.;
see also Cheney, 542 U.S. at 384 (interpreting Nixon to
require that “privilege claims that shield information from
a grand jury proceeding or a criminal trial are not to be
expansively construed” (emphasis added)).
We are thus hesitant to interfere with the “ancient
role of the grand jury.” Branzburg, 408 U.S. at 686. Our
concern is heightened by the fact that the grand jury
in this case is investigating not only the President, but
also other persons and entities. Assuming, again without
deciding, that the President cannot be prosecuted while
he remains in office, it would nonetheless exact a heavy
toll on our criminal justice system to prohibit a state from

24a
Appendix A
even investigating potential crimes committed by him
for potential later prosecution, or by other persons, not
protected by any immunity, simply because the proof of
those alleged crimes involves the President. Our “twofold
aim” that “guilt shall not escape or innocence suffer,”
Nixon, 418 U.S. at 709, would be substantially frustrated
if the President’s temporary immunity were interpreted
to shield the conduct of third parties from investigation.
We do not hold, contra r y to the P resident’s
characterization, that “a State can criminally prosecute
the President so long as it also prosecutes other people.”
Appellant Br. 37. We have no reason to address that
subject, since at this point any prosecution of any person—
as opposed to investigation—is purely hypothetical.
Rather, we hold only that presidential immunity does not
bar a state grand jury from issuing a subpoena in aid of
its investigation of potential crimes committed by persons
within its jurisdiction, even if that investigation may in
some way implicate the President.
Moreover, the President concedes that his immunity
lasts only so long as he holds office and that he could
therefore be prosecuted after leaving office. There is no
obvious reason why a state could not begin to investigate
a President during his term and, with the information
secured during that search, ultimately determine to
prosecute him after he leaves office. The President
claims to find support for his position in two memoranda
from the Justice Department’s Office of Legal Counsel
(“OLC”), which concluded that the President may not be
prosecuted. See Memorandum from Robert G. Dixon,

25a
Appendix A
Jr., Asst. Att’y Gen., O.L.C., Re: Amenability of the
President, Vice President and other Civil Officers to
Federal Criminal Prosecution while in Office (Sept. 24,
1973) (“Dixon Memo”); A Sitting President’s Amenability
to Indictment and Criminal Prosecution, 24 O.L.C. Op.
222 (Oct. 16, 2000) (“Moss Memo”).16 Both memoranda,
however, are directed almost exclusively to the question of
whether the President may be indicted—an issue, again,
that is not presented by this appeal. Neither concludes
that a sitting President may not be investigated; to
the contrary, the Moss Memo explicitly approves of a
grand jury “continu[ing] to gather evidence throughout
the period of immunity, even passing this task down
to subsequently empaneled grand juries if necessary.”
Moss Memo, 24 O.L.C. Op. at 257 n.36. We therefore find
it unnecessary to consider whether OLC’s reasoning is
persuasive, for even if it is correct, a grand jury that
simply “gather[s] evidence” during the President’s term
commits no constitutional violation. That is all that the
Mazars subpoena seeks to do.17
16. The President appropriately does not argue that we owe
any deference to the OLC memoranda, for “[t]he federal Judiciary
does not . . . owe deference to the Executive Branch’s interpretation
of the Constitution.” Pub. Citizen v. Burke, 843 F.2d 1473, 1478, 269
U.S. App. D.C. 145 (D.C. Cir. 1988).
17. The President also claims to draw support for his broad
view of presidential immunity from a memorandum filed by the
Solicitor General in litigation concerning a grand jury that was
investigating Vice President Spiro Agnew. See Memorandum for
the U.S. Concerning the Vice President’s Claim of Constitutional
Immunity, In re Proceedings of the Grand Jury Impaneled Dec. 5,
1972, No. 73-cv-965 (D. Md.) (“Bork Memo”). The Bork Memo was

26a
Appendix A
The President argues that the District Attorney has
gone beyond the mere “gathering” of evidence because
a subpoena is “a form of coercive process backed up by
the State’s contempt power.” Appellant Br. 35. We find
this distinction unpersuasive. A subpoena is a perfectly
ordinary way of gathering evidence; it strains credulity
to suggest that a grand jury is permitted only to request
the voluntary cooperation of witnesses but not to compel
their attendance or the production of documents. See
Branzburg, 408 U.S. at 688 (“[T]he grand jury’s authority
to subpoena witnesses is not only historic, but essential to
its task.”). More importantly, the subpoena is not directed
to the President and so it cannot “coerc[e]” him at all.
It is Mazars, not the President, that would be cited for
contempt in the event of non-compliance. Cf. Sirica, 487
F.2d at 711 (concluding that an order compelling President
Nixon to produce documents requested by a subpoena
for in camera examination “is not a form of criminal
submitted in opposition to the Vice President’s motion to enjoin the
grand jury investigation and so could be broadly read to suggest
presidential immunity from such investigation. Bork Memo at 3.
Elsewhere, however, the Bork Memo refers more specifically to the
President’s immunity “from indictment and trial.” Id. at 20. And
because the Bork Memo was chiefly concerned with refuting the
Vice President’s claim of immunity, and brought up the President’s
immunity only for the sake of contrast, we are reluctant to read into
it an unspoken assumption that the President cannot be the subject of
a criminal subpoena—particularly since that conclusion would be in
great tension with, if not a direct contradiction of, Nixon and Burr.
In any event, even if the Bork Memo could be read to suggest that the
President is immune from any stage of criminal investigation, that
is plainly not the position of the Department of Justice, as reflected
in the Moss Memo and the government’s amicus brief here.

27a
Appendix A
process”). This case therefore presents no concerns
about the constitutionality of holding a sitting President
in contempt.
The United States, as amicus curiae, argues that while
the President may not be absolutely immune from a state
grand jury’s subpoena power, any prosecutor seeking to
exercise that power must make a heightened showing
of need for the documents sought. But the government
draws this test from cases concerning when a subpoena
can demand the production of documents protected by
executive privilege. See In re Sealed Case, 121 F.3d 729,
753, 326 U.S. App. D.C. 276 (D.C. Cir. 1997) (considering
“what type of showing of need the [prosecutor] must
make . . . in order to overcome the privilege”) (emphasis
added); id. at 754 (“A party seeking to overcome a claim
of presidential privilege” must make a showing of
“demonstrated, specific need”) (emphasis added); see also
Nixon, 418 U.S. at 713 (“The generalized assertion of
privilege must yield to the demonstrated, specific need for
evidence in a pending criminal trial.”). Even assuming that
Nixon imposes a heightened standard in such cases, but
see Cheney, 542 U.S. at 386 (interpreting Nixon to require
subpoenas seeking to overcome executive privilege to
satisfy only the same “exacting standards” applicable to all
criminal subpoenas), that has little bearing on a subpoena
that, as here, does not seek any information subject to
executive privilege.
The United States suggests, without elaboration,
that “[t]he heightened standards set forth in Nixon . . .
are no less appropriate” and “indeed may be even more

28a
Appendix A
necessary” when applied to the President’s personal
records. U.S. Br. 23. We do not see how this is so. Surely
the exposure of potentially sensitive communications
related to the functioning of the government is of greater
constitutional concern than information relating solely to
the President in his private capacity and disconnected
from the discharge of his constitutional obligations. Cf.
Clinton, 520 U.S. at 696 (“With respect to acts taken in
his ‘public character’—that is, official acts—the President
may be disciplined principally by impeachment, not by
private lawsuits for damages. But he is otherwise subject
to the laws for his purely private acts.”).
We emphasize again the narrowness of the issue
before us. This appeal does not require us to consider
whether the President is immune from indictment and
prosecution while in office, nor to consider whether the
President may lawfully be ordered to produce documents
for use in a state criminal proceeding. We accordingly
do not address those issues. The only question before us
is whether a state may lawfully demand production by a
third party of the President’s personal financial records
for use in a grand jury investigation while the President
is in office. With the benefit of the district court’s
well-articulated opinion, we hold that any presidential
immunity from state criminal process does not bar the
enforcement of such a subpoena.
Considering the foregoing, the President has neither
demonstrated that he is likely to prevail on, nor raised
sufficiently serious questions going to the merits of, his

29a
Appendix A
immunity claim, and so he is not entitled to preliminary
injunctive relief.18
CONCLUSION
For the reasons above, we AFFIRM the district
court’s order denying the President’s request for a
preliminary injunction, VACATE the judgment of the
district court dismissing the complaint on the ground
of Younger abstention, and REMAND for further
proceedings consistent with this opinion.19

18. Because the President has not shown that he is likely to
succeed on the merits, we need not consider whether he has met the
remaining requirements for the issuance of injunctive relief. See
Winter v. Nat. Res. Def. Council, Inc., 555 U.S. 7, 23-24, 129 S. Ct.
365, 172 L. Ed. 2d 249 (2008).
19. Because the President’s complaint seeks only declaratory
and injunctive relief, on remand the district court may wish to
consider, and the parties may wish to address, whether further
proceedings are necessary in light of our disposition.

30a
AppendixAND
B ORDER of the
Appendix B — DECISION
UNITED STATES DISTRICT COURT FOR THE
SOUTHERN DISTRICT OF NEW YORK,
DATED October 7, 2019
UNITED STATES DISTRICT COURT FOR THE
SOUTHERN DISTRICT OF NEW YORK
19 Civ. 8694 (VM)
DONALD J. TRUMP,
Plaintiff,
- against –
CYRUS R. VANCE, JR., IN HIS OFFICIAL
CAPACITY AS DISTRICT ATTORNEY
OF THE COUNTY OF NEW YORK,
AND MAZARS USA, LLP,
Defendants.
October 7, 2019, Decided
October 7, 2019, Filed
DECISION AND ORDER
VICTOR MARRERO, United States District Judge.
Plaintiff Donald J. Trump (“Plaintiff ” or the
“President”), filed this action seeking to enjoin enforcement
of a grand jury subpoena (the “Mazars Subpoena”) issued
by Cyrus R. Vance, Jr., in his official capacity as the

31a
Appendix B
District Attorney of the County of New York (the “District
Attorney”), to the accounting firm Mazars USA, LLP
(“Mazars”). (See “Complaint,” Dkt. No. 1; “Amended
Complaint,” Dkt. No. 27.)1
INTRODUCTION
The President asserts an extraordinary claim in
the dispute now before this Court. He contends that, in
his view of the President’s duties and functions and the
allocation of governmental powers between the executive
and the judicial branches under the United States
Constitution, the person who serves as President, while in
office, enjoys absolute immunity from criminal process of
any kind. Consider the reach of the President’s argument.
As the Court reads it, presidential immunity would stretch
to cover every phase of criminal proceedings, including
investigations, grand jury proceedings and subpoenas,
indictment, prosecution, arrest, trial, conviction, and
incarceration. That constitutional protection presumably
would encompass any conduct, at any time, in any forum,
whether federal or state, and whether the President acted
alone or in concert with other individuals.
1. The Court notes a measure of ambiguity regarding
whether the President purports to bring this suit in his official
capacity as President. The President never explicitly states that
he does so, yet his arguments depend on his status as the sitting
President. Whether privately retained, non-government attorneys
accountable only to the President as an individual are entitled
to invoke an immunity allegedly derived from the office of the
Presidency, raises questions not addressed here. In any event,
the Court finds resolution of this ambiguity unnecessary to its
analysis.

32a
Appendix B
Hence, according to this categorical doctrine
as presented in this proceeding, the constitutional
dimensions of the presidential shield from judicial process
are virtually limitless: Until the President leaves office by
expiration of his term, resignation, or removal through
impeachment and conviction, his exemption from criminal
proceedings would extend not only to matters arising from
performance of the President’s duties and functions in his
official capacity, but also to ones arising from his private
affairs, financial transactions, and all other conduct
undertaken by him as an ordinary citizen, both during
and before his tenure in office.
Moreover, on this theory, the President’s special
dispensation from the criminal law’s purview and judicial
inquiry would embrace not only the behavior and activities
of the President himself, but also extend derivatively so
as to potentially immunize the misconduct of any other
person, business affiliate, associate, or relative who may
have collaborated with the President in committing
purportedly unlawful acts and whose offenses ordinarily
would warrant criminal investigation and prosecution of
all involved.
In practice, the implications and actual effects of
the President’s categorical rule could be far-reaching.
In some circumstances, by raising his protective shield,
applicable statutes of limitations could run, barring
further investigation and prosecution of serious criminal
offenses, thus potentially enabling both the President
and any accomplices to escape being brought to justice.
Temporally, such immunity would operate to frustrate the
administration of justice by insulating from criminal law

33a
Appendix B
scrutiny and judicial review, whether by federal or state
courts, not only matters occurring during the President’s
tenure in office, but potentially also records relating to
transactions and illegal actions the President and others
may have committed before he assumed the Presidency.
This Court cannot endorse such a categorical
and limitless asser tion of presidential immunity
from judicial process as being countenanced by the
nation’s constitutional plan, especially in the light of
the fundamental concerns over excessive arrogation of
power that animated the Constitution’s delicate structure
and its calibrated balance of authority among the three
branches of the national government, as well as between
the federal and state authorities. Hence, the expansive
notion of constitutional immunity invoked here to shield
the President from judicial process would constitute an
overreach of executive power.
The Court recognizes that subjecting the President to
some aspects of criminal proceedings could impermissibly
interfere with or even incapacitate the President’s ability
to discharge constitutional functions. Certainly lengthy
imprisonment upon conviction would produce that result.
But, as elaborated below, and contrary to the President’s
immunity claim as asserted here, that consequence would
not necessarily follow every stage of every criminal
proceeding. In particular that concern would not apply
to the specific set of facts presented here to which the
Court’s holding is limited: the President’s compliance
with a grand jury subpoena issued in the course of a
state prosecutor’s criminal investigation of conduct and

34a
Appendix B
transactions relating to third persons that occurred at
least in part prior to the President assuming office, that
may or may not have involved the President, but that at
this phase of the proceedings demand review of records
the President possesses or controls.
A lternatives exist that would recognize such
distinctions and reconcile varying effects associated with
a claim of presidential immunity in different criminal
proceedings and at different stages of the process.
The Court rejects the President’s theory because, as
articulated, such sweeping doctrine finds no support in
the Constitution’s text or history, or in germane guidance
charted by rulings of the United States Supreme Court.
Questions and controversy over the scope of presidential
immunity from judicial process, and unqualified invocations
of such an exemption as advanced by some Presidents,
are not new in the nation’s constitutional experience.
In fact, disputes concerning the doctrine arose during
the Constitutional Convention in 1787 and the Framers’
deliberations gave it some consideration. The underlying
issues, however, were not explicitly articulated in the text
of the charter that emerged from the Convention and thus
have remained largely unresolved. Consequently, the only
thing truly absolute about presidential immunity from
criminal process is the Constitution’s silence about the
existence and contours of such an exemption, a void the
President seeks to fill by the expansive theory he proffers.
Nonetheless, the Founders and courts and legal
commentators have repeatedly expressed one overarching

35a
Appendix B
concern about the breadth of the President’s immunity
from judicial process, a fear that served as a vital principle
for subsequent court and scholarly review of the question:
whether while in office the President stands above the
law and absolutely beyond the reach of judicial process
in any criminal proceeding. Shunning the concept of the
inviolability of the person of the King of England and
the bounds of the monarch’s protective screen covering
the Crown’s actions from legal scrutiny, the Founders
disclaimed any notion that the Constitution generally
conferred similarly all-encompassing immunity upon
the President. They gave expression to that rejection
by recognizing the duality the President embodied as a
unique figure, serving as head of the nation’s government,
but also existing as a private citizen. 2 As detailed below,
the wisdom of that view has been tested before the courts
on various occasions and has been roundly and consistently
reaffirmed by the Supreme Court and lower courts.
In numerous rulings, the courts have circumscribed
claims of presidential immunity in multiple ways.
Specifically, they have held that such protection from
2. See Memorandum from Robert G. Dixon, Jr., Assistant
Attorney General, Office of Legal Counsel, Re: Amenability of
the President, Vice President and Other Civil Officers to Federal
Criminal Prosecution While in Office at 20 n.14 (Sept. 24, 1973)
(“The Framers of the Constitutions made it abundantly clear that
the President was intended to be a Chief Executive, responsible,
subject to the law, and lacking the prerogatives and privileges of
the King of England . . . and that the President would not be above
the law, nor have a single privilege annexed to his character.”)
(citing sources).

36a
Appendix B
judicial process does not extend to civil suits regarding
private conduct that occurred before the President
assumed office, to responding to subpoenas regarding the
conduct of third-persons, and to providing testimony in
court proceedings relating to private disputes involving
third persons.
The notion of federal supremacy and presidential
immunity from judicial process that the President here
invokes, unqualified and boundless in its reach as described
above, cuts across the grain of these constitutional
precedents. It also ignores the analytic framework that
the Supreme Court has counseled should guide review of
presidential claims of immunity from judicial process. Of
equal fundamental concern, the President’s claim would
tread upon principles of federalism and comity that form
essential components of our constitutional structure and
the federal/state balance of governmental powers and
functions. Bared to its core, the proposition the President
advances reduces to the very notion that the Founders
rejected at the inception of the Republic, and that the
Supreme Court has since unequivocally repudiated: that
a constitutional domain exists in this country in which not
only the President, but, derivatively, relatives and persons
and business entities associated with him in potentially
unlawful private activities, are in fact above the law.
Because this Court finds aspects of such a doctrine
repugnant to the nation’s governmental structure and
constitutional values, and for the reasons further stated
below, it ABSTAINS from adjudicating this dispute and
DISMISSES the President’s suit. In the alternative, in the

37a
Appendix B
event on appeal abstention were found unwarranted under
the circumstances presented here, the Court DENIES
the President’s motion for injunctive relief.
I.

BACKGROUND

The Court begins by briefly recounting some facts
that appear to be uncontested. The District Attorney is
investigating conduct that occurred in New York State.
As part of that investigation, the District Attorney served
a grand jury subpoena on the Trump Organization,
LLC (the “Trump Organization”) on August 1, 2019.
That subpoena seeks various documents and records of
the Trump Organization covering the period from June
2015 through September 2018. The Trump Organization
proceeded to respond, at least in part, to that subpoena
without court involvement. On August 29, 2019, the
District Attorney served the Mazars Subpoena on
Mazars. The Mazars Subpoena seeks various documents
and records, including tax returns of the President and
possibly third persons, covering the period from January
2011 through the present. In mid-September, counsel
for the President informed the District Attorney that
the President would seek to prevent enforcement of and
compliance with the Mazars Subpoena as it related to the
production of tax records. The President has now done so
through this action.
On September 19, 2019, the President filed the
Complaint in this action. On the same day, the President
filed an emergency motion for a temporary restraining
order and a preliminary injunction. (See “Pl.’s Motion,”

38a
Appendix B
Dkt. No. 6; “PL’s Mem.,” Dkt. No. 10-13; “Consovoy Decl.,”
Dkt. No. 6-2.) Upon receipt of the President’s motion and
supporting documents, the Court directed the parties to
confer on a briefing schedule and hearing date. Consistent
with the Court’s request, the parties submitted a joint
letter with a proposed briefing schedule and hearing date,
which the Court endorsed. (See Dkt. No. 4.) At the same
time, the District Attorney agreed to stay enforcement
of and compliance with the Mazars Subpoena until
Wednesday, September 25, 2019 at 1:00 p.m. (See id.)
On September 23, 2019, the District Attorney filed
a memorandum of law in opposition to the President’s
motion for injunctive relief and in favor of the District
Attorney’s motion to dismiss the Complaint. (See
“September 23 Letter,” Dkt. No. 15; “Def.’s Mem.,” Dkt.
No. 16; “Shinerock Decl.,” Dkt. No. 17.)
On September 24, 2019, the President filed an
opposition to the District Attorney’s motion to dismiss
and a reply in further support of the President’s motion
for injunctive relief. (See “Pl.’s Reply,” Dkt. No. 22.)
On the same day, the United States filed a statement
in support of the entry of a temporary restraining order.
(See Dkt. No. 24.) Specifically, the United States supported
3. Citations to the memorandum of law in support of the
President’s motion for injunctive relief herein shall be citations to
Dkt. No. 10-1. The Court notes, however, that the memorandum of
law at that docket entry is an amended version of the memorandum
of law originally filed with the Court at Dkt. No. 6-3. (See Dkt.
No. 10.)

39a
Appendix B
the granting of a temporary restraining order in order
to afford the United States additional time to consider
whether to participate in this action. (See id.)
Also on the same day, the Court received a letter from
Mazars, which indicated that Mazars “takes no position
on the legal issues raised by Plaintiff.” (See Dkt. No. 26.)
The Court heard oral arguments from the President
and the District Attorney on September 25, 2019. (See
Dkt. Minute Entry dated 9/25/2019; Transcript (“Tr.”).)
At the conclusion of oral argument, the Court extended
the stay of enforcement of and compliance with the Mazars
Subpoena to September 26, 2019 at 5:00 p.m.; ordered the
parties to meet and confer regarding their concerns, and
to inform the Court by September 26, 2019 at 4:00 p.m.
whether they had agreed upon a process for proceeding;
and granted the request of the United States for additional
time to consider whether to participate in the action. (See
Dkt. No. 25.)
By letter dated September 26, 2019, the District
Attorney informed the Court that the parties had agreed
that the District Attorney would forbear from enforcement
of the Mazars Subpoena until 1:00 p.m. two business days
after the Court’s ruling (or until 1:00 p.m. on Monday,
October 7, 2019, whichever is sooner) and Mazars would
gather and prepare responsive documents in the interim.
(See Dkt. No. 28.)
By letter dated September 30, 2019, the United States
indicated its intent to file a submission. (See Dkt. No. 30.)

40a
Appendix B
On October 2, 2019, the United States filed a Statement of
Interest, urging the Court not to abstain, but to exercise
jurisdiction over this dispute and, following additional
briefing, to reach the merits of the President’s claimed
immunity. (See “Statement of Interest,” Dkt. No. 32.)
By letter dated October 3, 2019, the District Attorney
responded to the Statement of Interest. (See “Def.’s
Response,” Dkt. No. 33.)
II. 	DISCUSSION
A.

ANTI-INJUNCTION ACT

The Court begins its analysis by considering the
District Attorney’s argument that the Anti-Injunction
Act, 28 U.S.C. Section 2283 (the “AIA”), forecloses the
injunctive relief the President seeks. (See Def.’s Mem. 5-6,
8-9.) Dating to the 18th century and designed “to forestall
the inevitable friction between the state and federal
courts that ensues from the injunction of state judicial
proceedings by a federal court,” Vendo Co. v. Lektro-Vend
Corp., 433 U.S. 623, 630, 97 S. Ct. 2881, 53 L. Ed. 2d
1009 (1977), the AIA provides that a “court of the United
States may not grant an injunction to stay proceedings
in a State court except as expressly authorized by Act of
Congress, or where necessary in aid of its jurisdiction, or
to protect or effectuate its judgments.” 28 U.S.C. § 2283.
The President has amended his complaint to clarify that
he brings suit under 42 U.S.C. Section 1983 (“Section
1983”) (see Amended Complaint ¶ 8), meaning this case fits

41a
Appendix B
squarely into the first of the AIA’s three exceptions.4 See
Mitchum v. Foster, 407 U.S. 225, 243, 92 S. Ct. 2151, 32 L.
Ed. 2d 705 (1972) (“[Section] 1983 is an Act of Congress
that falls within the ‘expressly authorized’ exception
of [the AIA].”). Because Mitchum allows the Court to
conclude that the AIA is no bar to injunctive relief here,
the Court finds it unnecessary to reach the President’s
alternative arguments for the inapplicability of the AIA.
B. ABSTENTION
The District Attorney also submits that, under the
abstention doctrine set forth in Younger v. Harris, 401
U.S. 37, 91 S. Ct. 746, 27 L. Ed. 2d 669 (1971), the Court
must decline to exercise jurisdiction over the President’s
suit. (See Def.’s Mem. at 5-9.) Younger abstention is
grounded in
the notion of “comity,” that is, a proper respect
for state functions, a recognition of the fact
that the entire country is made up of a Union of
4. The District Attorney argues that the President’s claimed
immunity is “too vague and amorphous” to be cognizable under
Section 1983. (Def.’s Response at 2 (quoting Golden State Transit
Corp. v. City of Los Angeles, 493 U.S. 103, 106, 110 S. Ct. 444, 107
L. Ed. 2d 420 (1989)).) The Court shares the District Attorney’s
doubts on this score. However, because the Court declines to
exercise jurisdiction on other grounds, it will assume without
deciding that the claim is properly brought under Section 1983.
See Spargo v. New York State Comm’n on Judicial Conduct, 351
F.3d 65, 74 (2d Cir. 2003) (noting that federal courts may “choose
among threshold grounds for disposing of a case without reaching
the merits” (internal quotation marks omitted)).

42a
Appendix B
separate state governments, and a continuance
of the belief that the National Government will
fare best if the States and their institutions are
left free to perform their separate functions in
their separate ways. This ... is referred to by
many as “Our Federalism” .... What the concept
. . . represent[s] is a system in which there is
sensitivity to the legitimate interests of both
State and National Governments, and in which
the National Government, anxious though it
may be to vindicate and protect federal rights
and federal interests, always endeavors to do
so in ways that will not unduly interfere with
the legitimate activities of the States.
401 U.S. at 44. Hence notwithstanding federal courts’
“virtually unf lagging obligation ... to exercise the
jurisdiction given them,” Colorado River Water Conserv.
Dist. v. United States, 424 U.S. 800, 817, 96 S. Ct. 1236,
47 L. Ed. 2d 483 (1976), Younger requires federal courts
to decline jurisdiction when a plaintiff seeks to enjoin
one of the following three kinds of state proceedings: (1)
“ongoing state criminal prosecutions,” (2) “certain civil
enforcement proceedings,” and (3) “civil proceedings
involving certain orders . . . uniquely in furtherance of the
state courts’ ability to perform their judicial functions.”
Sprint Communs., Inc. v. Jacobs, 571 U.S. 69, 78, 134 S.
Ct. 584, 187 L. Ed. 2d 505 (2013) (quoting New Orleans
Pub. Serv., Inc. v. Council of City of New Orleans, 491
U.S. 350, 368, 109 S. Ct. 2506, 105 L. Ed. 2d 298 (1989)
(internal quotation marks omitted)).

43a
Appendix B
If the federal plaintiff seeks to enjoin one of these
three types of proceedings, a federal court may consider
three additional conditions that further counsel in favor
of Younger abstention, first laid out in Middlesex County
Ethics Commission v. Garden State Bar Association. See
457 U.S. 423, 432, 102 S. Ct. 2515, 73 L. Ed. 2d 116 (1982).
The “Middlesex conditions” are “(1) [whether] there is a
pending state proceeding, (2) that implicates an important
state interest, and (3) the state proceeding affords the
federal plaintiff an adequate opportunity for judicial
review of his or her federal constitutional claims.” Falco
v. Justices of the Matrimonial Parts of Supreme Ct. of
Suffolk Cty., 805 F.3d 425, 427 (2d Cir. 2015). 5 Moreover,
Younger also provides for an exception, pursuant to
which a federal court may entertain a suit from which
it must otherwise abstain, upon a showing of “bad faith,
harassment, or any other unusual circumstance that would
call for equitable relief” in federal court. 401 U.S. at 54.
For the reasons set forth below, the Court concludes
that it must abstain under Younger.
1.

Ongoing State Criminal Prosecution

Although the District Attorney views the Mazars
Subpoena as part of an ongoing state criminal prosecution
(see Def.’s Mem. at 6-7), the President disputes that
5. Federal courts previously treated the Middlesex conditions
as dispositive of the abstention inquiry, but it is unclear how much
weight they should be given after the Sprint Court’s clarification
that they are merely “additional factors” appropriately considered
in an abstention inquiry. See Falco, 805 F.3d at 427.

44a
Appendix B
contention. (See Pl.’s Reply at 10-11.) Hence the President
denies the existence of either an “ongoing state criminal
prosecution” under Sprint or a “pending state proceeding”
per the first Middlesex condition. No party argues that
there is a distinction between an “ongoing” proceeding and
a “pending” one, and the Court finds no such distinction
in the law. The Court consequently considers these two
terms identical for the purpose of its abstention analysis
and concludes that the Mazars Subpoena does qualify as
part of an ongoing state criminal prosecution for Younger
purposes -- though not necessarily a prosecution of the
President himself.
In the spirit of comity, the Court begins its analysis
by observing that New York law considers the issuance of
a grand jury subpoena to be a criminal proceeding. C.P.L.
Section 1.20(18) defines a “[c]riminal proceeding” to cover
“any proceeding which . . . occurs in a criminal court and
is related to a prospective, pending or completed criminal
action, . . . or involves a criminal investigation.” C.P.L.
Section 10.10(1) explains that the “‘criminal courts’ of
[New York] state are comprised of the superior courts and
the local criminal courts.” Finally, C.P.L. Section 190.05
defines a grand jury as “a body . . . impaneled by a superior
court and constituting a part of such court.” Because the
Mazars Subpoena relates to a criminal investigation and
was issued by the grand jury, which constitutes a part
of a criminal court, the Court finds as a matter of New
York law that the Mazars Subpoena constitutes a criminal
proceeding.

45a
Appendix B
State law aside, the President correctly notes that the
United States Courts of Appeals are divided on whether
the issuance of a grand jury or investigative subpoena
constitutes a pending state proceeding for Younger
purposes. Compare Monaghan v. Deakins, 798 F.2d 632,
637 (3d Cir. 1986)(holding that grand jury subpoenas
do not constitute a pending state proceeding), vacated
in part, 484 U.S. 193, 108 S. Ct. 523, 98 L. Ed. 2d 529
(1988), with Craig v. Barney, 678 F.2d 1200, 1202 (4th Cir.
1982) (abstaining because of “Virginia’s interest in the
unfettered operation of its grand jury system”), Kaylor v.
Fields, 661 F.2d 1177, 1182 (8th Cir. 1981), and Kingston
v. Utah County, 161 F.3d 17, *4 (10th Cir. 1998) (Table).
The United States Court of Appeals for the Second Circuit
appears not to have yet ruled on the question.
The President asks the Court to agree with the
Monaghan Court and hold that no ongoing criminal
prosecution exists here because a state grand jury does
not “adjudicate anything” and “exists only to charge
that the defendant has violated the criminal law.” (Pl.’s
Reply at 11 (internal quotation marks omitted).) He also
cites Google, Inc. v. Hood for the proposition that “Sprint
undermined prior cases applying Younger abstention to
grand-jury subpoenas.” (Id. (citing 822 F.3d 212, 224 &
n.7 (5th Cir. 2016)).)
However, the Sprint Court did not address what
makes a criminal proceeding an ongoing prosecution.
Instead, it reaffirmed that Younger applies only to
criminal prosecutions and state civil proceedings that
are “akin to a criminal prosecution,” and not to other

46a
Appendix B
civil proceedings. Sprint, 571 U.S. at 80. Here, there is
no doubt that grand jury proceedings are criminal in
nature. Moreover, the Hood Court explicitly observed
that abstention was merited where Texas law reflected
that a grand jury was “an arm of the court by which it is
appointed.” 822 F.3d at 223. As noted above, New York
law similarly considers grand juries a part of the criminal
court that impanels them. See also People v. Thompson, 22
N.Y.3d 687, 985 N.Y.S.2d 428, 8 N.E.3d 803, 810 (N.Y. 2014)
(“[G]rand jurors are empowered to carry out numerous
vital functions independently of the prosecutor, for they
‘ha[ve] long been heralded as the shield of innocence
. . . and as the guard of the liberties of the people against
the encroachments of unfounded accusations from any
source.’”) (quoting People v. Sayavong, 83 N.Y.2d 702, 635
N.E.2d 1213, 1215, 613 N.Y.S.2d 343 (N.Y. 1994) (internal
quotation marks omitted)). The Second Circuit has further
confirmed that “Grand Juries exist by virtue of the New
York State Constitution and the Superior Court that
impanels them; they are not arms or instruments of the
District Attorney.” United States v. Reed, 756 F.3d 184,
188 (2d Cir. 2014).
Although the Second Circuit has not explicitly
addressed whether grand jury proceedings constitute
an ongoing state prosecution under Younger, judges
of this district have “routinely applied Younger where
investigatory subpoenas have been issued,” even prior
to a “full-fledged state prosecution’” and outside of the
criminal context. Mir v. Shah, No. 11 Civ. 5211, 2012
U.S. Dist. LEXIS 174685, 2012 WL 6097770, at *3
(S.D.N.Y. Dec. 4, 2012); aff’d, 569 F. App’x 48, 50-51 (2d

47a
Appendix B
Cir. 2014) (affirming on basis that “abstention is still
appropriate here under the Sprint framework”); see
also Mirka United, Inc. v. Cuomo, No. 06 Civ. 14292,
2007 U.S. Dist. LEXIS 87385, 2007 WL 4225487, at *4
(S.D.N.Y. Nov. 27, 2007) (“Numerous courts have held that
investigatory proceedings that occur pre-indictment and
that are an integral part of a state criminal prosecution
may constitute ‘ongoing state proceedings’ for Younger
purposes.”); J. & W. Seligman & Co. Inc. v. Spitzer, No.
05 Civ. 7781, 2007 U.S. Dist. LEXIS 71881, 2007 WL
2822208, at *5 (S.D.N.Y. Sept. 27, 2007) (“[T]he issuance
of compulsory process, including subpoenas, in criminal
cases, initiates an ‘ongoing’ proceeding for the purposes
of Younger abstention.”); Nick v. Abrams, 717 F. Supp.
1053, 1056 (S.D.N.Y. 1989) (“[C]ommon sense dictates that
a criminal investigation is an integral part of a criminal
proceeding. . . . Permitting the targets of state criminal
investigations to challenge subpoenas ... in federal court
prior to their indictment or arrest, therefore, would do
. . . much damage to principles of equity, comity, and
federalism . . . .”). The Court declines to contradict over
thirty years’ worth of settled and well-reasoned precedent
of courts in this district and instead concludes that this
case involves an ongoing state criminal prosecution.
2. 	The Second Middlesex Condition
The second Middlesex condition favors abstention if
the pending state proceeding implicates an important
state interest. See Falco, 805 F.3d at 427. The Court finds
this condition satisfied. A state’s interest in enforcement
of its criminal laws undoubtedly qualifies as an important

48a
Appendix B
state interest, particularly considering that Younger itself
concerned a challenge to state criminal proceedings. See
Arizona v. Manypenny, 451 U.S. 232, 243, 101 S. Ct. 1657,
68 L. Ed. 2d 58 (1981); see generally Younger, 401 U.S. 37,
91 S. Ct. 746, 27 L. Ed. 2d 669.
3. 	The Third Middlesex Condition
The third Middlesex condition favors abstention if
“the state proceeding affords the federal plaintiff an
adequate opportunity for judicial review of his or her
federal constitutional claims.” Falco, 805 F.3d at 427
(internal quotation marks omitted). “[A]ny uncertainties
as to the scope of state proceedings or the availability
of state remedies are generally resolved in favor of
abstention. . . . [I]t is the plaintiff’s burden to demonstrate
that state remedies are inadequate.” Spargo, 351 F.3d at
78. In this respect, federal courts may not “assume that
state judges will interpret ambiguities in state procedural
law to bar presentation of federal claims.’” Pennzoil Co.
v. Texaco, Inc., 481 U.S. 1, 15, 107 S. Ct. 1519, 95 L. Ed.
2d 1 (1987).
The President argues that state proceedings are
inadequate because “under current New York law, it
does not appear that the President could move to quash a
subpoena he did not receive.” (Pl.’s Reply at 9.) However,
the Court’s review of New York law suggests otherwise.
A non-recipient can challenge a subpoena under certain
circumstances. See Beach v. Oil Transfer Corp., 23 Misc.
2d 47, 199 N.Y.S.2d 74, 76 (Sup. Ct. Kings Cty. 1960)
(“In situations where witnesses served with subpoenas
are not parties, nevertheless, upon a claim of privilege,

49a
Appendix B
the defendant being the party principally concerned
by the adverse effect of the subpoenas served upon the
witnesses and being the party whose rights are invaded
by such process may apply to the court whose duty it is
to enforce it, to set aside such process if it is invalid.”
(internal quotation marks omitted)); see also In re Roden,
200 Misc. 513, 106 N.Y.S.2d 345, 347-48 (Sup. Ct. N.Y. Cty.
1951) (“Any party affected by the process of the court or
its mandate may apply to the court for its modification,
vacatur, quashal or other relief he feels he is entitled to
receive.”); accord Colfin Bulls Funding B, LLC v. Ampton
Invs., Inc., No. 151885/2015, 62 Misc. 3d 1208[A], 2018
NY Slip Op 51959[U], 2018 N.Y. Misc. LEXIS 6761, 2018
WL 7051063, at *8 [Sup. Ct. N.Y. Cty. 2018] (quoting In
re Roden for same proposition); People v. Grosunor, 108
Misc. 2d 932, 439 N.Y.S.2d 243, 246 (Crim. Ct. Bronx Cty.
1981) (same).
The preceding decisions indicate that the President
can challenge the Mazars Subpoena in a state forum on
the basis of his asserted immunity. At the very least, they
reflect an ambiguity in state law that the Court must
resolve in favor of abstention.6
6. Even if the President could not challenge the Mazars
Subpoena in state proceedings, it is unclear why he could not
raise his constitutional arguments in a challenge to the subpoena
served upon the Trump Organization (the “Trump Organization
Subpoena”). As the President’s counsel noted at oral argument,
“there’s not a document Mazars has that [the Trump Organization
does not] have in [its] possession,” Tr. 47:22-23. Counsel further
stated that the Mazars Subpoena was prompted by the Trump
Organization’s refusal to comply with the Trump Organization
Subpoena. Tr. 47:24-48:3. If the President views both subpoenas as

50a
Appendix B
The President raises a closer question by arguing
that, even if available, a state forum would “not be truly
adequate” given that the federal and state governments
are already in conflict. (Pl.’s Reply at 9.) As the President
notes, some sources suggest that Younger is inapplicable
to suits the federal government chooses to bring against
state governments in federal court, on the theory that in
those situations the federal-state conflict Younger seeks to
preempt will occur even if the federal court abstains. See
United States v. Morros, 268 F.3d 695, 707 (9th Cir. 2001);
United States v. Composite State Bd. of Med. Examiners,
656 F.2d 131, 135-36 (5th Cir. 1981). The United States
echoes these arguments, contending that the “principles
of comity and federalism . . . lose their force when the
federal government’s own Chief Executive invokes federal
constitutional law to challenge a state grand jury subpoena
demanding his records.” (Statement of Interest at 4. )
As an initial note, as pointed out above, the Court
is not certain that attorneys privately retained by the
person who is President can bring suit on behalf of the
United States. Indeed, the Justice Department has filed
a Statement of Interest on behalf of the United States
pursuant to 28 U.S.C. Section 517, rather than formally
intervening as a party, or explicitly stating that it is
appearing on behalf of the President in connection with
official presidential business implicating United States
interests.
attempts to criminally prosecute him, he could litigate his claimed
immunity in a challenge to the Trump Organization Subpoena
and incidentally render compliance with the Mazars Subpoena a
moot point.

51a
Appendix B
Even assuming that this action is brought by the
federal government, however, the Supreme Court appears
not to have addressed the impact of this consideration on
Younger analysis, and there is precedent to the contrary.
See Colorado River, 424 U.S. at 816 n.23 (declining to
consider “when, if at all, abstention would be appropriate
where the Federal Government seeks to invoke federal
jurisdiction”); United States v. Ohio, 614 F.2d 101, 104
(6th Cir. 1979) (“Abstention from exercise of federal
jurisdiction is not improper simply because the United
States is the party seeking a federal forum.”); United
States v. Oregon, No. 10 Civ. 528, 2011 U.S. Dist. LEXIS
1107, 2011 WL 11426, at *5 (D. Or. Jan. 4, 2011) (“[T]he
United States’ role as plaintiff is not dispositive to this
question. Comity principles can justify abstention even
when the United States is the plaintiff.”), aff’d, 503 F.
App’x 525, 527 (9th Cir. 2013) (affirming abstention on
basis that the distinction between the federal government
and a private citizen “is not material given the [Supreme
Court’s] comity rationale” in Levin v. Commerce Energy,
Inc., 560 U.S. 413, 130 S. Ct. 2323, 176 L. Ed. 2d 1131
(2010)).
The Court cannot agree that the President’s filing of
this action renders the principles of comity and federalism
a nullity. While the Second Circuit does not appear to have
directly addressed this “difficult question with regard
to federal-state relations” in the Younger context, it has
denied “that a stay [should be] automatically granted
simply on the application of the United States.” United
States v. Certified Indus., Inc., 361 F.2d 857, 859 (2d Cir.
1966); see also United States v. Augspurger, 452 F. Supp.

52a
Appendix B
659, 668 (W.D.N.Y. 1978) (“[T]he general rules of comity
do apply even when the United States is the plaintiff.”).
Instead, it is “necessary to inquire ‘whether the
granting of an injunction [is] proper in the circumstances
of this case.’” Certified Indus., 361 F.2d at 859 (quoting
Leiter Minerals, Inc. v. United States, 352 U.S. 220, 226,
77 S. Ct. 287, 1 L. Ed. 2d 267 (1957)). This circumstantial
test better accords with the vision of a federal court
system “in which there is sensitivity to the legitimate
interests of both State and National Governments
. . . anxious though [the Court] may be to vindicate and
protect federal rights and federal interests.” Younger, 401
U.S. at 44. Automatically deferring to federal interests in
suits brought by the federal government is as incompatible
with our federalism as unthinkingly deferring to states’
interests in state proceedings.7
Further, the President provides no compelling proof
that New York courts would fail to adequately adjudicate
7. The Court does not believe that the cases cited by the
President compel a contrary conclusion. The Composite State
Court specifically distinguished its set of facts from a case where,
as here, “the state and federal governments are not in direct
conflict” even though the federal government might have “an
interest in the outcome of the action to the extent that a federal
right is implicated.” 656 F.2d at 136. And the Morros Court found
that the federal-state conflict inhered where the two governments
were locked in a contentious dispute spanning over ten years. See
268 F.3d at 708. By contrast, a direct or inherent conflict is not
inevitable in this case, where the state grand jury has merely
requested records pertaining to a broad set of facts and actors
and may not ultimately target the President.

53a
Appendix B
his immunity claim, relying instead on the unsubstantiated
allegation that he would risk “local prejudice.” (Pl.’s Reply
at 9 (quoting Clinton v. Jones, 520 U.S. 681, 691, 117 S.
Ct. 1636, 137 L. Ed. 2d 945 (1997)).) Absent a much more
compelling showing, the Court declines to conclude that
New York courts will treat the President with prejudice.
Similarly, the United States misses the mark when it
argues that “the state’s interest in litigating such an
unusual dispute in a state forum is minimal.” (Statement of
Interest at 8.) To the contrary, “[u]nder our federal system,
it goes without saying that preventing and dealing with
crime is much more the business of the States than it is of
the Federal Government. Because the regulation of crime
is pre-eminently a matter for the States, we have identified
a strong judicial policy against federal interference with
state criminal proceedings.” Manypenny, 451 U.S. at 243
(internal alterations, citations, and quotations omitted).
The President’s interest in adjudicating an alleged
immunity from state criminal process in federal court,
with respect to a state investigation that may or may not
ultimately target the President, cannot outweigh the State
interest without much stronger proof of State judicial
inadequacy. 8
8. The United States also argues against abstention by
analogizing to 28 U.S.C. Section 1442, which authorizes a federal
officer to remove a state court action to federal court if she is
directly sued “for or relating to any act under color of” her office.
(Statement of Interest at 9.) But Mazars’s duties and services
with respect to the President’s personal financial records do not
appear to relate to any act taken under the color of the President’s
office, and no party argues otherwise. Nor has any party pointed
to a federal defense that Mazars could bring, as might otherwise

54a
Appendix B
Even if the law regarding suits brought by the federal
government is ultimately unclear, the Court cannot
disregard the principles underlying Younger on this
basis alone. And in any event, “it remains unclear how
much weight [the Court] should afford [the Middlesex
conditions] after Sprint.” Falco, 805 F.3d at 427. Because
the Court finds that there is an ongoing state criminal
prosecution, an important state interest is implicated, and
the state proceeding would afford the President at least a
procedurally adequate opportunity for judicial review of
his federal claims, the weight of the Court’s analysis under
Sprint and the Middlesex conditions requires abstention.9

justify removal under the statute. See Watson v. Philip Morris
Cos., 551 U.S. 142, 151, 127 S. Ct. 2301, 168 L. Ed. 2d 42 (2007);
Isaacson v. Dow Chem. Co., 517 F.3d 129, 139 (2d Cir. 2008). Far
from being directed to a federal officer for her federal acts, the
Mazars Subpoena requests private records from a private third
party. The Court declines to upend its broader Younger analysis
on the basis of an inapposite hypothetical.
9. The Court is sensitive to the President’s argument that
abstention under these circumstances might embolden statelevel investigation of future Presidents, especially by elected
prosecutors in jurisdictions strongly opposed to a given incumbent.
However, the Court cannot conclude that this argument merits
the exercise of jurisdiction here, where the District Attorney has
subpoenaed a third party in a broad investigation that may not
ultimately target the President. If future criminal investigations
by state prosecutors more clearly target a President on politicized
grounds or invade on the prerogatives of the Presidency, then either
such exceptional circumstances or evidence that the investigations
lacked a good-faith basis could potentially warrant the exercise of
federal court jurisdiction to consider such a challenge.

55a
Appendix B
4. 	The Bad Faith or Harassment Exception
Although the Court finds that a state criminal
prosecution is ongoing and the Middlesex conditions
further discourage the Court’s exercise of jurisdiction,
abstention may still be inappropriate if the President can
demonstrate “bad faith, harassment, or any other unusual
circumstance that would call for equitable relief.” Younger,
401 U.S. at 54. “However, a plaintiff who seeks to head
off Younger abstention bears the burden of establishing
that one of the exceptions applies.” Diamond “D” Constr.
Corp. v. McGowan, 282 F.3d 191, 198 (2d Cir. 2002).
To invoke the bad faith exception, “the party bringing
the state action must have no reasonable expectation
of obtaining a favorable outcome.” Id. at 199 (internal
quotation marks omitted). “[R]ecent cases concerning
the bad faith exception have further emphasized that the
subjective motivation of the state authority in bringing
the proceeding is critical to, if not determinative of, this
inquiry.” Id.
The President argues that the Mazars Subpoena
was issued in bad faith because it essentially copies two
congressional subpoenas which cover subject matter
allegedly exceeding the District Attorney’s jurisdiction.
The President also cites numerous statements by federal
and state officials indicating their intent to investigate
the President’s finances and remove him from office. (See
Amended Complaint ¶¶ 25-41.) The President further
relies on Black Jack Distributors, Inc. v. Beame to claim
that this evidence raises an inference that the District
Attorney’s “activities have a secondary motive” and are

56a
Appendix B
“going beyond good faith enforcement of the [criminal]
laws.” (Pl.’s Reply at 10 (quoting 433 F. Supp. 1297, 130407 (S.D.N.Y. 1977)).)
The District Attorney acknowledges that the Mazars
Subpoena is substantially identical to the congressional
subpoenas, but he argues that the Mazars Subpoena
remains appropriate because it would encompass
documents relevant to the state’s investigation and enable
Mazars to produce those documents promptly, as Mazars
had already begun collecting the same documents in order
to respond to the congressional subpoenas. (Tr. 30:16-25.)
The District Attorney adds that although the documents
covered by the subpoenas may relate to matters of federal
law, they nevertheless “certainly pertain to potential
issues under state law,” which would be the “exclusive
focus” of his investigation. (Tr. 30:1-5.)
And although the statements cited in the President’s
complaint certainly reflect that a number of New York
State elected officials may wish the President’s tenure
in office to end, those statements do not reveal the
“subjective motive” of the District Attorney in initiating
these particular proceedings -- particularly when the
District Attorney made none of these statements himself,
and they cannot otherwise be attributed to him. To hold
otherwise and impute bad faith to the District Attorney
on the basis of statements made by various legislators and
the New York Attorney General would be “incompatible
with federal expression of ‘a decent respect’ for” the state
authority’s functions. Glatzer v. Barone, 614 F. Supp. 2d
450, 460 (S.D.N.Y. 2009).

57a
Appendix B
This case is thus distinguishable from Black Jack
Distributors, where the court’s finding of bad faith
relied on a police department’s consistent and repeated
use of arrest procedures that had been “long ago held
invalid under New York law,” pursuant to the head of the
enforcement project’s declaration that the department
would “undertake activities knowing that they are illegal”
and “despite all constitutional limitations . . . stop at
nothing” to put the plaintiff out of business. 433 F. Supp.
at 1306. The President has not shown that the District
Attorney is acting with anywhere near the same level of
disregard for the law at this point in the investigation.
Moreover, the President has not alleged that the
District Attorney lacks any “reasonable expectation of
obtaining a favorable outcome,” Diamond “D” Constr.
Corp., 282 F.3d at 199, in the criminal prosecution of which
the Mazars Subpoena is part -- a proceeding which, after all,
need not necessarily lead to an indictment of the President
himself. Indeed, the Declaration of Solomon Shinerock
reflects that the District Attorney’s investigation relates
at least in part to “‘hush money’ payments to Stephanie
Clifford and Karen McDougal, how those payments were
reflected in the Trump Organization’s books and records,
and who was involved in determining how those payments
would be reflected in the Trump Organization’s books and
records.” (See Shinerock Decl. ¶ 9.)
The Declaration also ref lects that a variety of
investigations related to similar conduct are either
ongoing or resolved, including a non-prosecution
agreement between federal prosecutors and American

58a
Appendix B
Media, Inc. related to an investigation of the lawfulness
of the “hush money” payments; the conviction of Michael
D. Cohen for tax fraud, false statements, and campaign
finance violations during the period he was counsel to the
President; and investigations by multiple other New York
regulatory authorities concerning alleged insurance and
bank fraud by the Trump Organization and its officers.
(See id. ¶ 17.) None of these investigations necessarily
involve the President himself, and the President fails
to show that the District Attorney could not reasonably
expect to obtain a favorable outcome in a criminal
investigation that is substantially related to the topics and
targets listed above. Barring a stronger showing from the
President, the Court declines to impute bad faith to the
District Attorney in relation to these proceedings.
5. 	The Ex traordina r y Ci rcumst a nce s
Exception
Even if bad faith and harassment do not apply, a
district court that would otherwise abstain under Younger
may hear the federal plaintiff’s claims if the claimant can
prove that extraordinary or unusual circumstances justify
enjoining the state court proceeding. See Younger, 401 U.S.
at 54. “[S]uch circumstances must be ‘extraordinary’ in
the sense of creating an extraordinarily pressing need for
immediate federal equitable relief, not merely in the sense
of presenting a highly unusual factual situation.” Kugler
v. Helfant, 421 U.S. 117, 124-25, 95 S. Ct. 1524, 44 L. Ed.
2d 15 (1975). The Second Circuit has construed Kugler
and related Supreme Court precedent to require “(1)
that there be no state remedy available to meaningfully,

59a
Appendix B
timely, and adequately remedy the alleged constitutional
violation; and (2) that a finding be made that the litigant
will suffer ‘great and immediate’ harm if the federal court
does not intervene” for the exception to apply. Diamond
“D” Const. Corp., 282 F.3d at 201.
As noted in Section II.B.3 supra, New York state
courts appear to provide an at least procedurally adequate
avenue for remedying the alleged constitutional violation
at issue. While the Court is mindful of “the special
solicitude due to claims alleging a threatened breach of
essential Presidential prerogatives,” Nixon v. Fitzgerald,
457 U.S. 731, 743, 102 S. Ct. 2690, 73 L. Ed. 2d 349 (1982),
the President’s claims nevertheless fail to demonstrate
an “extraordinarily pressing need for immediate federal
equitable relief.” Kugler, 421 U.S. at 125. As described
further in Section II.C.3.i infra, the President fails to
show irreparable harm. The double jeopardy cases that
the President cites are likewise inapposite to support his
proposition that a claim of Presidential immunity would be
“irreparably lost if . . . not vindicated immediately.” (Pl.’s
Reply at 8.) The President has not been the subject of any
of the criminal proceedings he lists as grounds showing
irreparable harm; he has not been indicted, arrested,
or imprisoned, or even been identified as a target of the
District Attorney’s investigation -- let alone been tried
once before, as required in the double jeopardy context.
Though the President and the United States
devote significant attention to the President’s unique
constitutional position, these arguments reflect the
highly unusual factual underpinning of this case rather

60a
Appendix B
than the “extraordinarily pressing need for immediate
federal equitable relief” demanded by Kugler. Far from
requesting immediate relief, the United States asks that
this Court schedule additional briefing on the merits of
the President’s claims.10 (See Statement of Interest at
10.) The President’s claim that his absolute immunity
defense must be “vindicated immediately” also runs
counter to his counsel’s representations at oral argument
that the President is not currently “seeking a permanent
resolution of this dispute” but is instead merely asking for
“an orderly process that allows the serious constitutional
questions to be adjudicated carefully and thoughtfully[,]
that preserves the [P]resident’s right to be heard and
allows him a reasonable chance to appeal any adverse
decision that might alter the status quo.” (Tr. 11:4, 10-14.)
The President fails to show that New York courts
would not afford him such an orderly process, and his
claim to absolute immunity simply does not demonstrate
“an extraordinarily pressing need for immediate
federal equitable relief” where the District Attorney
has not identified the President as a target of the state
investigation, let alone actually indicted him. On the
contrary, the President’s prophecies that he will be indicted
and denied due process in state proceedings are, at best,
speculative and unripe. The Second Circuit has previously
held that “[t]he exceptional circumstances exception does
not apply [where] the likelihood of immediate harm is
10. The Court denies this request, as the Court fails to see how
further briefing on the merits of the President’s immunity arguments
would add to the parties’ already extensive treatment of the subject,
including a lengthy oral argument.

61a
Appendix B
speculative.” See Miller v. Sutton, 697 F. App’x 27, 28 (2d
Cir. 2017). This Court now so holds.
For these reasons, the Court abstains from exercising
jurisdiction over the President’s suit.
C. 	PRESIDENTIAL IMMUNITY
Notwithstanding the Court’s decision to abstain, and
mindful of the complexities and uncharted ground that
the Younger doctrine presents, the Court will proceed to
examine the merits of the President’s claimed immunity
and articulate an alternative holding, so as to obviate
a remand in the event on appeal the Second Circuit
disagrees with the Court’s abstention holding. For the
reasons stated below, the Court would deny the motion
of the President for a temporary restraining order and a
preliminary injunction (collectively, “injunctive relief”).
At the outset, the Court notes that the question it
addresses in this Order is narrower than the one upon
which the President urges the Court to focus. Based
on the record before it, and as noted in the preceding
section of the Court’s decision, the Court finds no clear
and convincing evidence that the President himself is
the target -- or, at minimum, the sole target -- of the
investigation by the District Attorney. Rather, the record
before the Court indicates that the District Attorney is
investigating a set of facts, and a number of individuals
and business entities, in relation to which conduct by the
President, lawful or unlawful, may or may not be a part.
Accordingly, the question before the Court narrows to

62a
Appendix B
whether the District Attorney may issue a grand jury
subpoena to a third person or entity requiring production
of personal and business records of the President and
other persons and entities? The Court’s answer to that
question is yes.
1.

Legal Standard

Temporary restraining orders and preliminary
injunctions are among “the most drastic tools in the
arsenal of judicial remedies.” Grand River Enter. Six
Nations, Ltd. v. Pryor, 481 F.3d 60, 66 (2d Cir. 2007) (per
curiam). To obtain this extraordinary remedy,
[a] party seeking a preliminary injunction
must ordinarily establish (1) irreparable harm;
(2) either (a) a likelihood of success on the merits,
or (b) sufficiently serious questions going to the
merits of its claims to make them fair ground
for litigation, plus a balance of the hardships
tipping decidedly in favor of the moving party;
and (3) that a preliminary injunction is in the
public interest.
New York ex rel. Schneiderman v. Actavis PLC, 787
F.3d 638, 650 (2d Cir. 2015) (internal quotation marks
omitted). Because it is well-recognized that the legal
standards governing preliminary injunctions and
temporary restraining orders are the same, the Court
addresses them together. See AFA Dispensing Grp. B.V.
v. Anheuser-Busch, Inc., 740 F. Supp. 2d 465, 471 (S.D.N.Y.
2010).

63a
Appendix B
On the second element, the President advocates for
the standard requiring “sufficiently serious questions
going to the merits.” (Pl.’s Reply at 17-18.) The Court finds,
however, that the proper test here is the “likelihood of
success” standard. The grand jury issued its subpoena in
the course of an investigation into violations of New York
law; the President’s motion is thus an attempt to “stay
government action taken in the public interest pursuant
to a statutory . . . scheme.” Able v. United States, 44
F.3d 128, 131 (2d Cir. 1995). It is of no consequence that
the proposed injunction would not restrain the State’s
financial laws themselves: “As long as the action to be
enjoined is taken pursuant to a statutory or regulatory
scheme, even government action with respect to one
litigant requires application of the ‘likelihood of success’
standard.” Id.; see also Plaza Health Labs., Inc. v. Perales,
878 F.2d 577, 580-81 (2d Cir. 1989). Nevertheless, given
the Court’s holding on the other prongs of the preliminary
injunction standard, the President would not prevail even
under the different but no less stringent “sufficiently
serious questions” analysis. Citigroup Glob. Mkts., Inc. v.
VCG Special Opportunities Master Fund Ltd., 598 F.3d
30, 35 (2d Cir. 2010).
2. 	Parties’ Arguments
The President advances two fundamental reasons for
why he is entitled to injunctive relief. First, he argues
that he will suffer an irreparable harm in the absence of
injunctive relief, because “there will be no way to unring
the bell once Mazars complies with the District Attorney’s
subpoena.” (Pl.’s Mem. at 3.) Second, the President argues

64a
Appendix B
that he has demonstrated a likelihood of success on the
merits, because, according to the President, it is clear
that “[n]o State can criminally investigate, prosecute, or
indict a President while he is in office.” (Id.)
The District Attorney counters that the President’s
motion for injunctive relief should be denied, because
the President has failed to carry his burden of showing
entitlement to the requested relief. The District Attorney
primarily maintains that the President has failed to
demonstrate that he will suffer irreparable harm in the
absence of injunctive relief for three reasons. First, the
District Attorney contends that compliance with the
Mazars Subpoena could be “undone” if the Court were to
find the Mazars Subpoena to be invalid and unenforceable.
(Def.’s Mem. at 12-13.) Second, the District Attorney
notes that both his office and the grand jury are obligated
to maintain confidential any documents produced in
response to the Mazars Subpoena. (See id. at 13.) Third,
the District Attorney argues that no irreparable harm
will ensue “if it becomes public that there is an ongoing
criminal investigation that includes requests from thirdparties about business transactions that relate to the
President,” in part because other entities have already
been investigating conduct related to the President and
those investigations have been public. (Id. at 13-14.)
The District Attorney also argues that the President
has failed to demonstrate a likelihood of success on the
merits. According to the District Attorney, there exists
no law supporting a presidential immunity as expansive
as the one claimed by the President in this action. (See

65a
Appendix B
id. at 15.) Finally, the District Attorney argues that the
balance of equities and public interest both weigh in favor
of denying the requested injunctive relief, because there
is a public interest in having the grand jury investigation
at issue proceed expeditiously. (See id. at 19.)
3.

Analysis

The Court is not persuaded that the immunity
claimed by the President in this action is so expansive
as to encompass enforcement of and compliance with the
Mazars Subpoena. As such, the President has not satisfied
his burden of showing entitlement to the “extraordinary
and drastic remedy” of injunctive relief. Grand River
Enter., 481 F.3d at 66. The Court turns to each element
of the preliminary injunction standard in turn.
i. 	Irreparable Harm
The first element is irreparable harm, which is “an
injury that is not remote or speculative but actual and
imminent, and ‘for which a monetary award cannot be
adequate compensation.’” Dexter 345 Inc. v. Cuomo, 663
F.3d 59, 63 (2d Cir. 2011) (quoting Tom Doherty Assocs.
v. Saban Entm’t, Inc., 60 F.3d 27, 37 (2d Cir. 1995)). This
high standard reflects courts’ “traditional reluctance to
issue mandatory injunctions.” North Am. Soccer League,
LLC v. United States Soccer Fed’n, Inc., 883 F.3d 32, 38 n.8
(2d Cir. 2018) (quoting Jacobson & Co., Inc. v. Armstrong
Cork Co., 548 F.2d 438, 441 n.3 (2d Cir. 1977)).

66a
Appendix B
The Court finds that enforcement of and compliance
with the Mazars Subpoena would not cause irreparable
harm to the President. The President urges the Court to
find otherwise on the basis that public disclosure of his
personal records would cause irreparable harm, first, to
the confidentiality of the President’s tax and financial
records and, second, to the President’s opportunity for
judicial review of his claims in this action.
The Court is not persuaded that disclosure of the
President’s financial records to the office of the District
Attorney and the grand jury would cause the President
irreparable harm. The President relies on a number of
cases to support his argument that mere disclosure -without more -- of the documents requested by the Mazars
Subpoena would cause irreparable harm, but none of those
cases relate to ongoing criminal investigations, let alone
to the disclosure of documents and records to a grand
jury bound by law and sworn official oath to keep such
documents and records confidential. See Merrill Lynch,
Pierce, Fenner & Smith, Inc. v. Bishop, 839 F. Supp. 68
(D. Me. 1993) (disclosure of plaintiff’s business records to
competitor by a former employee); Providence Journal
Co. v. Fed. Bureau of Investigation, 595 F.2d 889 (1st Cir.
1979) (disclosure of FBI documents to plaintiff); PepsiCo,
Inc. v. Redmond, No. 94 Civ. 6838, 1995 U.S. Dist. LEXIS
19380, 1996 WL 3965 (N.D. Ill. Jan. 2, 1996) (disclosure
of plaintiff’s trade secrets or confidential information to
competitor defendant); Metro. Life Ins. Co. v. Usery, 426
F. Supp. 150 (D.D.C. 1976) (disclosure -- to a chapter of
the National Organization for Women -- of certain forms
and plans submitted by insurance companies to federal

67a
Appendix B
offices); Airbnb, Inc. v. City of New York, 373 F. Supp. 3d
467, 2019 WL 91990 (S.D.N.Y. 2019) (disclosure of data
regarding businesses’ customers to Mayor’s Office).
The Court agrees with the District Attorney that the
grand jury is a “constitutional fixture.” United States v.
Williams, 504 U.S. 36, 47, 112 S. Ct. 1735, 118 L. Ed. 2d
352 (1992). As such, the Court finds that disclosure to a
grand jury is different from disclosure to other persons
or entities like those identified in the cases cited by the
President. And because a grand jury is under a legal
obligation to keep the confidentiality of its records, the
Court finds that no irreparable harm will ensue from
disclosure to it of the President’s records sought here.
See, e.g., People v. Fetcho, 91 N.Y.2d 765, 698 N.E.2d 935,
938, 676 N.Y.S.2d 106 (N.Y. 1998) (“[S]ecrecy has been
an integral feature of Grand Jury proceedings since well
before the founding of our Nation. . . . The reasons for this
venerable and important policy include preserving the
reputations of those being investigated by and appearing
before a Grand Jury, safeguarding the independence of
the Grand Jury, preventing the flight of the accused and
encouraging free disclosure of information by witnesses.”)
(internal citation and quotation marks omitted); People v.
Bonelli, 36 Misc. 3d 625, 945 N.Y.S.2d 539, 541 (N.Y. Sup.
Ct. 2012) (“Grand Jury secrecy is of paramount public
interest and courts may not disclose these materials
lightly.” (internal quotation marks omitted)).
Further, as explained in Section II.B.3 supra, the
Court finds that a state forum exists for judicial review
of the President’s claim.

68a
Appendix B
ii.

Likelihood of Success on the Merits

Even if the President had made a sufficient showing
that enforcement of the Mazars Subpoena and the
President’s compliance with it would cause the President
irreparable harm -- and, to be clear, the Court finds
it would not -- the Court would nonetheless deny the
President’s motion for injunctive relief because the
President has failed to demonstrate a likelihood of success
on the merits.
The Court disagrees with the President’s position that
a third person or entity cannot be subpoenaed requesting
documents related to an investigation concerning
potentially unlawful transactions and conduct of third
parties in which records possessed or controlled by the
sitting President may be critical to establish the guilt or
innocence of such third parties, or of the President. The
Court also rejects the President’s contention that the
Constitution, the historical record, and the relevant case
law support such a presidential claim.
As a threshold matter, the. Court underscores several
vital points. First, the President recognizes that the
precise constitutional question this action presents -- the
core boundaries of the President’s immunity from criminal
process -- has not been presented squarely in any judicial
forum, and thus has never been definitively resolved. (See
Amended Complaint ¶ 10 (“no court has had to squarely
consider the question” of whether a President can be
subject to criminal process while in office).)

69a
Appendix B
The President urges the Court to conclude that the
powers vested in the President by Article II and the
Supremacy Clause necessarily imply that the President
cannot “be investigated, indicted, or otherwise subjected to
criminal process” while in office (Pl.’s Mem. at 9), and that
“criminal process” encompasses investigations of third
persons concerning matters that may relate to conduct or
transactions of third persons, or of the President. (Id. at
8, 13.) As the Court reads the proposition, the President’s
definition of “criminal process” is all-encompassing;
it would extend a blanket presidential and derivative
immunity to all stages of federal and state criminal
law enforcement proceedings and judicial process:
investigations, grand jury proceedings, indictment,
arrest, prosecution, trial, conviction, and punishment by
incarceration and perhaps even by fine. The Court will
proceed to canvas the various relevant authorities to
assess that proposition.
a. 	D e p a r t m e n t
Memoranda

of

Justice

As authority for the absolute immunity doctrine he
proclaims, the President points to and rests substantially
upon two documents issued by the Justice Department’s
Office of Legal Counsel (“OLC”). The first memorandum
appeared in 2000. See Memorandum Opinion for the
Attorney General, from Randolph D. Moss, Assistant
Attorney General, Office of Legal Counsel, A Sitting
President’s Amenability to Indictment and Criminal
Prosecution (Oct. 16, 2000) (the “Moss Memo”). The Moss
Memo in turn contains a review and reaffirmation of an

70a
Appendix B
OLC memorandum from 1973. See Memorandum from
Robert G. Dixon, Jr., Assistant Attorney General, Office
of Legal Counsel, Re: Amenability of the President, Vice
President and Other Civil Officers to Federal Criminal
Prosecution While in Office (Sept. 24, 1973) (the “Dixon
Memo”). In addition, the President relies upon a 1973
brief filed by Solicitor General Robert Bork in the
United States District Court for the District of Maryland
in connection with a federal grand jury proceeding
regarding misconduct of Vice President Spiro Agnew.11
See Memorandum for the United States Concerning
the Vice President’s Claim of Constitutional Immunity
(filed Oct. 5, 1973), In re Proceedings of the Grand Jury
Impaneled December 5, 1972: Application of Spiro T.
Agnew, Vice President of the United States, No. 73 Civ.
965 (D. Md. 1973) (the “Bork Memo”). The Dixon, Moss,
and Bork Memos are here referred to collectively as the
“DOJ Memos.” The gist of these documents is that a
sitting President is categorically immune from criminal
investigation, indictment, and prosecution.
The Court is not persuaded that it should accord
the weight and legal force the President ascribes to the
DOJ Memos, or accept as controlling the far-reaching
proposition for which they are cited in the context of the
11. The Moss Memo reexamined and updated the Dixon
and Bork Memos and essentially reaffirmed their conclusion that
indictment and prosecution of a President while in office would be
unconstitutional because “it would impermissibly interfere with
the President’s ability to carry out his constitutionally assigned
functions and thus would be inconsistent with the constitutional
structure.” See Moss Memo at 223.

71a
Appendix B
controversy at hand. As a point of departure, the Court
notes that many statements of the principle that “a sitting
President cannot be indicted or criminally prosecuted”
typically cite to the DOJ Memos as sole authority for that
proposition. Accordingly, the theory has gained a certain
degree of axiomatic acceptance, and the DOJ Memos
which propagate it have assumed substantial legal force as
if their conclusion were inscribed on constitutional tablets
so-etched by the Supreme Court. The Court considers
such popular currency for the categorical concept and its
legal support as not warranted.
Because the arguments the President advances are
so substantially grounded on the supposed constitutional
doctrine and rationale the DOJ Memos present, a close
review of the DOJ Memos is called for. On such assessment,
the Court rejects the DOJ Memos’ position. It concludes
that better-calibrated alternatives to absolute presidential
immunity exist yielding a more appropriate balance
between, on the one hand, the burdens that subjecting the
President to criminal proceedings would impose on his
ability to perform constitutional duties, and, on the other,
the need to promote the courts’ legitimate interests and
functions in ensuring effective law enforcement attendant
to the proper and fair administration of justice.
The heavy reliance the President places on the DOJ
Memos is misplaced for several reasons. First, though they
contain an exhaustive and learned consideration of the
constitutional questions presented here, the DOJ Memos
do not constitute authoritative judicial interpretation
of the Constitution concerning those issues. In fact, as
the DOJ Memos themselves also concede, the precise

72a
Appendix B
presidential immunity questions this litigation raises have
never been squarely presented or fully addressed by the
Supreme Court. See Moss Memo at 237; Dixon Memo at
21. Nonetheless, as elaborated in Section II.C.3.ii.c infra,
insofar as the Supreme Court has examined some of the
relevant presidential privileges and immunities issues as
applied in other contexts, the case law does not support
the President’s and the DOJ Memos’ absolute immunity
argument to its full extremity and ramifications.
Second, the DOJ Memos address solely the amenability
of the President to federal criminal process. Hence,
because state law enforcement proceedings were not
directly at issue in the matters that prompted the memos,
as they are here, the DOJ Memos do not address the
unique concerns implicated by a blanket assertion of
presidential immunity from state criminal law enforcement
and judicial proceedings.12 That gap and its significant
distinction would include due recognition of the principles
of federalism and comity, and the proper balance between
the legitimate interests of federal and state authorities in
the administration of justice, as discussed above in the
section addressing Younger abstention. See Clinton v.
Jones, 520 U.S. 681, 691, 117 S. Ct. 1636, 137 L. Ed. 2d 945
(1997) (noting that in the context of state law enforcement
proceedings, invocation of presidential privilege could
implicate “federalism and comity concerns”).
12. The Moss Memo acknowledged that its analysis, and that
of the Dixon Memo, focused solely on federal rather than state
prosecution of a President while in office, and therefore did not
consider “any additional concerns that may be implicated by state
criminal prosecution of a sitting President.” Moss Memo at 223 n.2.

73a
Appendix B
State criminal law enforcement proceedings and
judicial process, moreover, do not implicate one of the
DOJ Memos’ rationales justifying broad presidential
immunity from federal criminal process: that by virtue
of the President’s functions as Chief Executive, giving
him power over prosecution, invocation of privilege, and
pardons in federal criminal proceedings against the
President would be inappropriate and ineffective, as such
process would turn the President into prosecutor and
defendant at the same time.13 See Dixon Memo at 26.
Third, the Memos’ analyses are flawed by ambiguities
(if not outright conflicts) on an essential point: the scope of
presidential immunity as presented in the DOJ Memos and
asserted here by the President’s claim. For instance, the
Dixon Memo refers to the immunity of a sitting President
from “criminal proceedings,” without explicitly defining
what “proceedings” the rule would encompass. See, e.g.,
Dixon Memo at 18. The Bork Memo, again without further
elaboration, discusses the President’s immunity from
federal “criminal process” while in office. See Bork Memo
at 3. Whether there is a difference between “criminal
proceedings” and “criminal process” is a basic open
question.
The Moss Memo, rather than addressing this
uncertainty, compounds it by introducing a third
13. Of course, as the Watergate scandal and more recent
events confirm, there are practical and legal constraints over
a president’s power to interfere with a federal law enforcement
investigation of himself or his Office, without risking serious
charges of obstruction of justice.

74a
Appendix B
expression of the principle that, though not further
defined, clearly suggests a narrower scope of presidential
immunity than that expressed in the Dixon and Bork
Memos. In particular, throughout, the Moss Memo’s
analysis refers to the exemption as not subjecting a
President while in office to “indictment and criminal
prosecution.” See, e.g., Moss Memo at 222. That articulation
invites inquiry as to whether the rule it states would not
apply to pre-indictment stages of criminal process such
as investigations and grand jury proceedings, including
responding to subpoenas.
On this crucial point the DOJ Memos may be at odds
with one another. The specific circumstance that impelled
the Dixon and Bork Memos was a grand jury investigation
of Vice President Agnew, in which he objected to
responding to a grand jury subpoena and argued that
the Constitution prohibited investigation and indictment
of an incumbent Vice President, and consequently that he
could not be compelled to answer a subpoena. The Dixon
and Bork Memos rejected that contention and concluded
that the Vice President was not entitled to claim immunity
from criminal process and prosecution. But both Memos
went further and indicated that such a broad exemption
would extend to the sitting President. Implicitly, therefore,
as suggested by the context, the Dixon and Bork Memos
would expand the scope of their reference to “criminal
proceedings” and “criminal process” to cover presidential
immunity from all pre-indictment phases of criminal
law prosecutions, presumably including exemption from
investigations, grand jury proceedings, and subpoenas.

75a
Appendix B
The Moss Memo, however, by framing its analysis of
the scope of the President’s immunity from criminal law
enforcement by reference specifically to “indictment or
criminal prosecution,” could be read to suggest that the
exemption would not encompass investigations and grand
jury proceedings, including responding to subpoenas.
In fact, the Moss Memo expressly distinguishes the
other two memos on this point.14 Addressing concern
over the potential prejudicial loss of evidence that could
occur during a period of presidential immunity prior to
indictment, the Moss Memo states that “[a] grand jury
could continue to gather evidence throughout the period
of immunity, even passing this task down to subsequently
empaneled grand juries if necessary.” Moss Memo at 257
n.36. Moreover, the Moss Memo disavows an interpretation
of the Dixon and Bork Memos’ analyses as positing “a
broad contention that the President is immune from all
judicial process while in office.” Moss Memo at 239 n.15.
It further notes that the Dixon Memo “specifically cast
doubt upon such a contention” and explains that a broader
statement by Attorney General Stanbury in 1867 “is
presumably limited to the power of the courts to review
official action of the President.” Id. (emphasis added).
The Moss Memo thus stepped back from the extreme
position advanced by Vice President Agnew, and that
is repeated here by the President’s argument, that
immunity extends to all criminal investigations and grand
jury proceedings, including responding to subpoenas.
14. See Moss Memo at 232 n.10 (noting that unlike the Dixon
Memo, the Bork Memo “did not specifically distinguish between
indictment and other phases of the ‘criminal process’”).

76a
Appendix B
In fact, as the Moss Memo acknowledges, such a view
has been rejected by longstanding case law. Supporting
this observation, the Moss Memo quotes another OLC
Memorandum, dating to 1988, which declared that “it has
been the rule since the Presidency of Thomas Jefferson
that a judicial subpoena in a criminal case may be issued
to the President, and any challenge to the subpoena
must be based on the nature of the information sought
rather than any immunity from process belonging to the
President.” Id. at 253 n.29 (quoting Memorandum for
Arthur B. Culvahouse, Jr., Counsel to the President, from
Douglas W. Kmiec, Assistant Attorney General, Office of
Legal Counsel, Re: Constitutional Concerns Implicated
by Demand for Presidential Evidence in a Criminal
Prosecution at 2 (Oct. 17, 1988)); see also United States
v. Burr, 25 Fed. Cas. 30, F. Cas. No. 14692d, (No. 14,692)
(C.C.D. Va. 1807) (Chief Justice Marshall noting that
“[t]he guard, furnished to [the President] to protect
him from being harassed by vexatious and unnecessary
subpoenas, is to be looked for in the conduct of a court after
those subpoenas have issued; not in any circumstances
which is to [] precede their being issued”); Clinton, 520
U.S. at 704-05 (“It is also settled that the President is
subject to judicial process in appropriate circumstances.
... We unequivocally and emphatically endorsed [Chief
Justice] Marshall’s position when we held that President
Ni xon was obligated to comply w ith a subpoena
commanding him to produce certain tape recordings of
his conversations with his aides. . . . As we explained,
‘neither the doctrine of separation of powers, nor the need
for confidentiality of high-level communications, without
more, can sustain an absolute unqualified Presidential

77a
Appendix B
privilege of immunity from judicial process under all
circumstances.’” (quoting United States v. Nixon, 418 U.S.
683, 706, 94 S. Ct. 3090, 41 L. Ed. 2d 1039 (1974) (internal
citations omitted)); Memorandum from Robert G. Dixon,
Jr., Assistant Attorney General, Office of Legal Counsel,
Re: Presidential Amenability to Judicial Subpoena (June
25, 1973) (noting the view expressed by Chief Justice
Marshall in Burr that while the President’s duties may
create difficulties complying with a subpoena, this “was
a matter to be shown upon the return of the subpoena
as a justification for not obeying the process; it did not
constitute a reason for not issuing it”).
The uncertainties and inconsistencies these various
statements manifest about an essential question of
constitutional interpretation suggest that the DOJ Memos’
position concerning presidential immunity from criminal
law enforcement and judicial process cannot serve as
compelling authority for the President’s claim of absolute
immunity, at least insofar as the argument would extend to
pre-indictment investigations and grand jury proceedings
such as those at issue in this case.
Finally, the DOJ Memos lose persuasive force because
their analysis and conclusions derive not from a real case
presenting real facts, but instead from an unqualified
abstract doctrine conclusorily asserting a generalized
principle, specifically the proposition that while in office
the President is not subject to criminal process. Because
the constitutional text and history on point are scant
and inconclusive, the DOJ Memos construct a doctrinal
foundation and structure to support a presidential

78a
Appendix B
immunity theory that substantially relies on suppositions,
practicalities, and public policy, as well as on conjurings
of remote prospects and hyperbolic horrors about the
consequences to the Presidency and the nation as a
whole that would befall under any model of presidential
immunity other than the categorical rule on which the
DOJ Memos and the President’s claim ultimately rest.
The shortcomings of formulating a categorical rule
from abstract principles may be highlighted by various
concrete examples demonstrating that other plausible
alternatives exist that would not produce the dire
consequences the DOJ Memos portray absent the absolute
presidential exemption they propound. The indictment
stage of criminal process presents such an illustration,
raising fundamental questions, reasonable doubts, and
feasible grounds for making exceptions to an unqualified
presidential immunity doctrine. The Dixon Memo itself
acknowledges as “arguable” the possibility of an alternative
approach that would not implicate the concerns about the
burdens and interferences with the President’s ability
to carry out official duties that are advanced to justify
a categorical immunity rule: Permit the indictment of a
sitting President but defer further prosecution until he or
she leaves office. See Dixon Memo at 31. The Dixon Memo
concludes that “[f]rom the standpoint of minimizing direct
interruption of official duties . . . this procedure might be a
course to be considered.” Id. at 29. Nonetheless, the Dixon
Memo rejects that alternative, declaring without further
analysis or support that an indictment pending while the
President remains in office would harm the Presidency
virtually as much as an actual conviction. Id.

79a
Appendix B
Perhaps the most substantial flaw in the DOJ Memos’
case in favor of a categorical presidential immunity rule
extending to all stages of criminal process is manifested
in their expressions of absolutism that upon close parsing
and deeper probing does not bear out. On this point, the
DOJ Memos engage in rhetorical flair -- also embraced
by the President’s arguments -- that not only overstates
their point, but does not consider the possibility of
substantive distinctions which could reasonably address
concerns about the burdens and intrusions that criminal
proceedings against a sitting President could entail, and
thus could support a practical alternative to a regime of
absolute presidential immunity.
The thrust of the DOJ Memos’ argument is that a
doctrine of complete immunity of the President from
criminal proceedings while in office can be justified by
the consideration that subjecting the President to the
jurisdiction of the courts would be unconstitutional because
“it would impermissibly interfere with the President’s
ability to carry out his constitutionally assigned functions
and thus would be inconsistent with the constitutional
structure.” Moss Memo at 223.
In support of that peremptory claim, the DOJ Memos
-- and the President -- describe various physical and nonphysical interferences associated with defending criminal
proceedings that they contend could impair the ability of a
President to govern, even possibly amounting to a complete
functional disabling of the President. In particular, the
DOJ Memos cite mental distraction, the effect of public
stigma, loss of stature and respect, the need to assist in the
preparation of a defense, the time commitment demanded

80a
Appendix B
by personal appearance at a trial, and the incapacitation
effected by an arrest or imprisonment if convicted. See,
e.g., Moss Memo at 249-54. Summarizing these potential
impediments, the Dixon Memo concludes:
[T]he President is the symbolic head of the
Nation. To wound him by a criminal proceeding
is to hamstring the operation of the whole
governmental apparatus, both in foreign and
domestic affairs. . . . [T]he spectacle of an
indicted President still trying to serve as Chief
Executive boggles the imagination.
Dixon Memo at 30. To a similar effect, the Moss Memo
declares that
the ordinary workings of the criminal process
would impose burdens upon a sitting President
that would directly and substantially impede
the executive branch from performing its
constitutionally assigned functions, and the
accusation or adjudication of the criminal
culpability of the nation’s chief executive by
either a grand jury returning an indictment
or a petit jury returning a verdict would have
a dramatically destabilizing effect upon the
ability of a coordinate branch of government
to function.15
15. The Court notes that in this statement the Moss Memo
essentially implies that the scope of presidential immunity it urges
would extend to grand jury proceedings, not only to “indictment
and criminal prosecution,” as expressed throughout the rest of the
memo. The remark apparently contradicts expressions elsewhere

81a
Appendix B
Moss Memo at 236.
A major problem with constructing a categorical rule
founded upon hypothesizing and extrapolating from an
abstract general proposition disembodied from an actual
set of facts, is that the entire theoretical structure could
collapse when it encounters a real-world application that
shakes the underpinnings of the unqualified doctrine.
To propound as a blanket constitutional principle
that a President cannot be subjected to criminal
process presupposes a faulty premise. Implicit in that
pronouncement is the assumption that every crime -- and
every stage of every criminal proceeding, at any time and
forum, whether involving only one or many other offenders
-- is just like every other instance of its kind.
The absolute proposition also presumes uniformity
of consequences: that but for the application of absolute
presidential immunity every one of these circumstances
would give rise to every one of the alarming outcomes
conjured by the DOJ Memos to justify unqualified
presidential protection from any form of criminal process.
But on deeper scrutiny of the rationale for the categorical
doctrine, and by constructing alternatives that eliminate
or substantially mitigate even the most extreme fears
conjured, the assumptions underlying the categorical rule
may prove both unjustified and wrong.

in the memo suggesting that a sitting President could be the
subject of grand jury investigations. See, e.g., supra pages 50-51.

82a
Appendix B
In fact, not every criminal proceeding to which a
President may be subjected would raise the grim specters
the DOJ Memos portray as incapacitation of the President,
as impeding him from discharging official duties, or as
hamstringing “the operation of the whole governmental
apparatus.” Dixon Memo at 30. To be sure, some crimes
and some criminal proceedings may involve very serious
offenses that undisputably may demand the President’s
full personal time, energy, and attention to prepare a
defense, and that consequently could justify recognition of
broader immunity from criminal process in the particular
case.
Nonetheless, not every criminal offense falls into that
exceptional category. Some crimes may require months or
even years to resolve, while others conceivably could be
disposed of in a matter of days, even hours. To be specific,
perhaps a charge of murder and imprisonment upon
conviction would present extraordinary circumstances
raising the burdens and interferences the DOJ Memos
describe and thus justify broad immunity. But a charge of
failing to pay state taxes, or of driving while intoxicated,
may not necessarily implicate such concerns. Similarly,
responding to a subpoena relating to the conduct of a
third party, as is the case here, would likely not create
the catastrophic intrusions on the President’s personal
time and energy, or impair his ability to discharge official
functions, or threaten the “dramatic destabilization” of
the nation’s government that the DOJ Memos and the
President depict. See Dixon Memo at 29 (acknowledging
that “[t]he physical interference consideration . . . would
not be quite as serious regarding minor offenses leading

83a
Appendix B
to a short trial and a fine,” and that “Presidents have
submitted to the jurisdiction of the courts in connection
with traffic offenses”). See also, Moss Memo at 254
(acknowledging that “[i]t is conceivable that, in a particular
set of circumstances, a particular criminal charge will
not in fact require so much time and energy of a sitting
President so as materially to impede the capacity of the
executive branch to perform its constitutionally assigned
functions.”).
As regards public stigma, vilification, and loss of
stature associated with criminal prosecutions, again
some criminal offenses undoubtedly could engender such
consequences and would warrant significant weight in
assessing a claim of immunity from criminal process,
but others would not. Indeed, some civil wrongs, such
as sexual harassment, could arouse much greater public
opprobrium and cause more severe mental anguish and
personal distraction than, for example, criminal possession
of a marijuana joint. Moreover, as Paula Jones’s lawsuit
against President Clinton illustrated, civil charges of
sexual misconduct filed against a sitting President could
entail an extensive call on a President’s time and energy,
and potentially interfere with performance of official
duties,16 perhaps to a greater degree than some criminal
charges that could be more readily resolved. And not
16. See Clinton, 520 U.S. at 701-02 (“As a factual matter,
[President Clinton] contends that this particular case -- as well
as the potential additional litigation that an affirmance . . . might
spawn -- may impose an unacceptable burden on the President’s
time and energy and thereby impair the effective performance
of his office.”).

84a
Appendix B
every crime and not every conviction necessarily results
in a sentence requiring imprisonment.
In a similar vein, a criminal accusation involving the
President alone cannot be considered in the same light as
one entailing unlawful actions committed by other persons
that in some way may also implicate potential criminal
conduct by the President. This circumstance presents
unique implications that demand recognizing and making
finer distinctions. A grand jury investigation of serious
unlawful acts committed by third persons may turn up
evidence incriminating the sitting President. It would
create significant issues impairing the fair and effective
administration of justice if the proceedings had to be
suspended or abandoned because the President, invoking
absolute immunity from all criminal investigations and
grand jury proceedings, refused to provide critical
evidence he may possess that could, either during
the investigation or at later proceedings, convict or
exonerate any of the co-conspirators. In that instance, the
President’s claim of absolute immunity conceivably could
enable the guilty to go free, and deprive the innocent of an
opportunity to resolve serious accusations in a court of law.
The running of a statute of limitations in favor of
the President or third persons during the period of
immunity presents additional complexities and exceptional
circumstances in these situations, similarly raising the
prospect of frustrating the proper administration of
justice.

85a
Appendix B
A hypothetical combining all of these difficulties may
illustrate how a real and compelling set of facts could
undermine a blanket invocation of presidential immunity
from all criminal process. Suppose that during the course
of a criminal investigation of numerous third persons
engaged in very serious crimes, some of the targets
being high-ranking government officials, substantial
evidence is uncovered indicating that the President was
closely involved with those other persons in committing
the offenses under investigation. The accusations come
to light not long before the President’s term is about to
expire, leaving no time for the House of Representatives
to present articles of impeachment, nor for the Senate to
conduct a trial. But the applicable statute of limitations
is also about to expire before the President leaves office.
On these facts, no persuasive argument could be made
that an indictment of the President while in office, along
with the co-conspirators -- thereby tolling the statute
of limitations -- would present the severe burdens and
interferences with the discharge of the President’s duties
that the DOJ Memos interpose. Balanced against the
prospect of a number of powerful individuals going free
and escaping punishment for serious crimes by virtue of
the President asserting absolute immunity from criminal
process, an alternative that would allow the indictment
and prosecution to proceed under these circumstances
may weigh against recognizing a categorical claim of
presidential immunity.
The Dixon Memo acknowledges the special difficulties
that criminal proceedings involving co-conspirators and

86a
Appendix B
statute of limitations problems present. See Dixon Memo
at 29, 32, 41. In response, the Dixon Memo dismisses such
concerns as not sufficient to overcome the argument in
favor of the President’s absolute immunity. See id. On that
point, the Dixon Memo remarks: “In this difficult area
all courses of action have costs and we recognize that a
situation of the type just mentioned could cause a complete
hiatus in criminal liability.” Id. at 32. But failure to do full
and fair justice in any case should not be shrugged off as
mere collateral damage caused by a claim of presidential
privilege or immunity. If in fact criminal justice falls to an
assertion of immunity, that verdict should be an absolutely
last resort. It should be justified by exacting reasons of
momentous public interest such as national security, and
be reviewable by a court of law. Above all, its effect should
not be to shield the President from all legal process,
especially in circumstances where it may appear that a
claim of generalized immunity is invoked more on personal
than on official grounds, and work to place the President
above the law. See Nixon, 418 U.S. at 706 (holding that
“[a]bsent a claim of need to protect military, diplomatic,
or sensitive national security secrets,” a generalized
interest in protecting the confidentiality of presidential
communications in the performance of the President’s
duties must yield to the adverse effects of such a privilege
on the fair administration of justice). As the Nixon
Court declared under pertinent circumstances, “[t]he
impediment that an absolute unqualified privilege would
place in the way of the primary constitutional duty of the
Judicial Branch to do justice in criminal prosecutions
would plainly conflict with the function of the courts under
Art. III.” Id. at 707; see also Clinton, 520 U.S. at 708.

87a
Appendix B
Here, this Court is not persuaded that the President has
met this rigorous standard.
b.

Constitutional Text and History

The Court finds that the structure of the Constitution,
the historical record, and the relevant case law support
its conclusion that, except in circumstances involving
military, diplomatic, or national security issues, a county
prosecutor acts within his or her authority -- at the very
least -- when issuing a subpoena to a third party even
though that subpoena relates to purportedly unlawful
conduct or transactions involving third parties that may
also implicate the sitting President. No other conclusion
squares with the fundamental notion, embodied in those
sources, that the President is not above the law.
Turning first to the text of the Constitution and the
historical record, the Court concludes that neither the
Constitution nor the history surrounding the founding
support as broad an interpretation of presidential
immunity as the one now espoused by the President. As
the Supreme Court did in Clinton, this Court notes that
the historical record does not conclusively answer the
question presented to the Court:
Just what our forefathers did envision, or would
have envisioned had they foreseen modern
conditions, must be divined from materials
almost as enigmatic as the dreams Joseph
was called upon to interpret for Pharaoh. A
century and a half of partisan debate and

88a
Appendix B
scholarly speculation yields no net result but
only supplies more or less apt quotations from
respected sources on each side .... They largely
cancel each other.
Youngstown Sheet & Tube Co. v. Sawyer, 343 U.S. 579,
634-35, 72 S. Ct. 863, 96 L. Ed. 1153, 62 Ohio Law Abs.
417 (1952).
c.

Supreme Court Guidance

Turning to the opinions issued by the Supreme Court,
the Court finds that they support this Court’s conclusions
in this action. The Supreme Court has twice recognized
that “[i]t is settled law that the separation-of-powers
doctrine does not bar every exercise of jurisdiction over
the President of the United States.” Clinton, 520 U.S. at
705 (quoting Fitzgerald, 457 U.S. at 753-54). “[I]t is also
settled that the President is subject to judicial process in
appropriate circumstances.” Id. at 703.
The narrower part of the judicial process that is at
issue in this action -- i.e., responding to a subpoena -- has
similarly been addressed by the Supreme Court. That
Court squarely upheld the view first espoused by Chief
Justice Marshall, who presided over the trial for treason
of Vice President Aaron Burr while in office, that “a
subpoena duces tecum could be directed to the President.”
Id. at 703-04; accord Nixon, 418 U.S. at 706 (“[N]either
the doctrine of separation of powers, nor the need for
confidentiality of high-level communications, without
more, can sustain an absolute, unqualified Presidential

89a
Appendix B
privilege of immunity from judicial process under all
circumstances.”); see also Nixon v. Sirica, 487 F.2d 700,
709-10, 159 U.S. App. D.C. 58 (D.C. Cir. 1973) (“The clear
implication is that the President’s special interests may
warrant a careful judicial screening of subpoenas after
the President interposes an objection, but that some
subpoenas will nevertheless be properly sustained by
judicial orders of compliance.”) (en banc) (per curiam).
And at least one President (Richard M. Nixon) has
himself conceded that he, as President, was required to
produce documents in response to a judicial subpoena:
“He concedes that he, like every other citizen, is under a
legal duty to produce relevant, non-privileged evidence
when called upon to do so.” Sirica, 487 F.2d at 713. If a
subpoena may be directed to the President, it follows that a
subpoena potentially implicating private conduct, records,
or transactions of third persons and the President may
lawfully be directed to a third-party.
The Court cannot square a vision of presidential
immunity that would place the President above the law
with the text of the Constitution, the historical record, the
relevant case law, or even the DOJ Memos on which the
President relies most heavily for support. The Court thus
finds that the President has not demonstrated a likelihood
of success on the merits and is accordingly not entitled to
injunctive relief in this action. Contrary to the President’s
claims, the Court’s conclusion today does not “upend our
constitutional design.” (Pl’s Reply at 4.) Rather, the Court’s
decision upholds it.

90a
Appendix B
d.

Alternatives

The questions and concerns the DOJ Memos present,
and that the President here embraces, need not inexorably
lead to only one course, that of prescribing an absolute
immunity rule. In fact, the Supreme Court has provided
guidance to govern invocations of absolute immunity. In
Clinton it declared that such claims should be resolved by
a “functional” approach. Specifically, the Court counseled
that “an official’s absolute immunity should extend only to
acts in performance of particular functions of his office.”
Clinton, 520 U.S. at 694. The court further explained
that “immunities are grounded in ‘the nature of the
function to be performed, not the identity of the actor who
performed it.’” Id. at 695 (quoting Forrester v. White, 484
U.S. 219, 229-30, 108 S. Ct. 538, 98 L. Ed. 2d 555 (1988)).
Underscoring this point, the Court concluded that “we
have never suggested that the President, or any other
official, has an immunity that extends beyond the scope
of any action taken in an official capacity.” Clinton, 520
U.S. at 694.
The DOJ Memos, while espousing a categorical
presidential immunity rule, and perhaps seeming
inconsistent on this point as well,17 also recognize the
17. The Dixon Memo, for example, though remarking that
an alternative of permitting an indictment of a President and
deferring trial until he is out of office is a course worthy of
consideration, rejects the option in favor of a categorical rule. The
Dixon Memo also admits to “certain drawbacks” of an absolute
immunity doctrine. Similarly, the memo acknowledges the
difficulties that a categorical rule presents because of issues such

91a
Appendix B
applicability of such a method. The Dixon Memo, for
instance, concludes that
under our constitutional plan it cannot be
said either that the courts have the same
jurisdiction over the President as if he were
an ordinary citizen or that the President is
absolutely immune from the jurisdiction of
the courts in regard to any kind of claim. The
proper approach is to find the proper balance
between the normal functions of the courts and
the special responsibilities and function of the
Presidency.
Dixon Memo at 24.
In the few instances in which the Supreme Court
has addressed questions concerning the scope of the
President’s assertion of executive privilege and immunity
from judicial process, albeit in varying contexts, several
general principles and a functional framework emerge
from the Court’s pronouncements that should inform and
guide adjudications of such claims. A synthesis of Burr,
Nixon, Fitzgerald, and Clinton suggests that the Supreme
Court would reject an interpretation and application of
presidential powers and functions that would “sustain an
absolute, unqualified Presidential privilege of immunity
from judicial process under all circumstances.” Nixon, 418
as the running of the statute of limitations and the involvement of
co-conspirators, but again discounts those concerns to support a
categorical rule. See Dixon Memo at 17, 32.

92a
Appendix B
U.S. at 706. Rather than enunciating such a categorical
rule, the Supreme Court’s guidance suggests that courts
take account of various circumstances that may bear
upon a court’s ultimate determination concerning the
appropriateness of a claim of presidential immunity from
judicial process relating to a criminal proceeding.
Among the relevant considerations are: whether the
events at issue involve conduct taken by the President in
an a private or official capacity; whether the conduct at
issue involved acts of the President, or of third parties, or
both; whether the conduct of the President occurred while
the President was in office, or before his tenure; whether
the acts in dispute related to functions of the President’s
office; whether a subpoena for production of records was
issued against the President directly or to a third person;
whether the judicial process at issue involves federal or
state judicial process; whether the proceedings pertain
to a civil or criminal offense; whether the enforcement of
the particular criminal process concerned would impose
burdens and interferences on the President’s ability to
execute his constitutional duties and assigned functions;
and whether the effect of the President’s asserting
immunity under the circumstances would be to place the
President, or other persons, above the law.
The analytic framework the Supreme Court counsels
courts to employ requires a balancing of interests. The
assessment would consider the interest of the President in
protecting his office from undue burdens and interferences
that could impair his ability to perform his official duties,
and the interests of law enforcement officers and the

93a
Appendix B
judiciary in protecting and promoting the fair, full, and
effective administration of justice.
The relevance of these multiple considerations in
a determination of the appropriateness of presidential
immunity from criminal process under such varying
circumstances underscores the incompatibility of an
unqualified, absolute doctrine, and, rather than a blanket
application; points to a case-by-case approach in which
a demonstration of sufficiently compelling conditions to
justify presidential exemption is made by the courts.18
Here, the Court’s weighing of the competing interests
persuades it to reject the President’s request for injunctive
relief. The interest the President asserts in maintaining
the confidentiality of certain personal financial and tax
records that largely relate to a time before he assumed
office, and that may involve unlawful conduct by third
persons and possibly the President, is far outweighed
by the interests of state law enforcement officers and
the federal courts in ensuring the full, fair, and effective
administration of justice.

18. The Moss Memo mentions such a course in passing,
reiterating its support for a categorical rule “rather than a
doctrinal test that would require the court to assess whether a
particular criminal proceeding is likely to impose serious burdens
upon the President.”) Moss Memo at 254. This point ignores that
it was precisely this kind of assessment that the Supreme Court
conducted in Nixon and Clinton, and that more generally courts
routinely make in the course of performing their constitutional
duties.

94a
Appendix B
The Court is not persuaded that the burdens and
interferences the President describes in this case would
substantially impair the President’s ability to perform his
constitutional duties. See Clinton, 520 U.S. at 705 (“The
burden on the President’s time and energy that is a mere
byproduct of [judicial] review surely cannot be considered
as onerous as the direct burden imposed by judicial review
and the occasional invalidation of his official actions.”).
In the Court’s view, frustration of the state criminal
investigation under the facts presented here presents
much greater concerns that overcome the President’s
grounds for not complying with the grand jury subpoena.
iii.

The Public Interest

Given that the Court finds that the President would
not suffer irreparable harm or succeed on the merits, it
is unnecessary to consider whether the public interest
would favor a preliminary injunction. Nevertheless,
the Court notes that the public interest does not favor
granting a preliminary injunction. As discussed above,
grand juries are an essential component of our legal
system and the public has an interest in their unimpeded
operation. Manypenny, 451 U.S. at 243; see also United
States v. Dionisio, 410 U.S. 1, 17, 93 S. Ct. 764, 35 L.
Ed. 2d 67 (1973) (referring to “the public’s interest in
the fair and expeditious administration of the criminal
laws”); Branzburg v. Hayes, 408 U.S. 665, 688-90, 92 S.
Ct. 2646, 33 L. Ed. 2d 626 (1972) (in a First Amendment
case, referring to “the public interest in law enforcement
and in ensuring effective grand jury proceedings” and
noting that the principle that the public is entitled to every

95a
Appendix B
person’s evidence “is particularly applicable to grand jury
proceedings”); In re Sealed Case, 794 F.2d 749, 751 n.3, 254
U.S. App. D.C. 40 (D.C. Cir. 1986) (per curiam) (referring
to “the weighty public interest in the orderly functioning
of grand juries and the judicial process”).
III.

ORDER
For the reasons described above, it is hereby

ORDERED that the amended complaint of plaintiff
Donald J. Trump (Dkt. No. 27) is DISMISSED pursuant
to the decision of the United States Supreme Court in
Younger v. Harris, 401 U.S. 37, 91 S. Ct. 746, 27 L. Ed.
2d 669 (1971).
SO ORDERED.
Dated: New York, New York
7 October 2019
/s/ Victor Marrero
Victor Marrero
U.S.D.J.

96a
C
Appendix C — Appendix
EMERGENCY
NOTICE OF
APPEAL to the UNITED STATES DISTRICT
COURT for THE SOUTHERN DISTRICT OF
NEW YORK, DATED oCTOBER 7, 2019
UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF NEW YORK
Case No. 1:19-cv-08694-VM
DONALD J. TRUMP,
- against Plaintiff,
CYRUS R. VANCE, JR., in his official
capacity as District Attorney of the
County of New York; SOLOMON SHINEROCK,
in his official capacity as Assistant
District Attorney for the County of
New York;
and
MAZARS USA, LLP,
Defendants.
EMERGENCY NOTICE OF APPEAL
Plaintiff Donald J. Trump hereby appeals to the U.S.
Court of Appeals for the Second Circuit, on an emergency
basis, this Court’s decision from October 7, 2019, denying

97a
Appendix C
Plaintiff’s emergency motion for a temporary restraining
order and a preliminary injunction, denying Plaintiff a
stay pending appeal, and dismissing the case.

Dated: October 7, 2019

Respectfully Submitted,
/s/ William S. Consovoy
William S. Consovoy
Consovoy McCarthy PLLC
1600 Wilson Blvd., Ste. 700
Arlington, VA 22209
(703) 243-9423
will@consovoymccarthy.com

98a
Appendix D —Appendix
ORDER D
of the UNITED
STATES COURT OF APPEALS FOR THE
SECOND CIRCUIT, DATED OCTOBER 7, 2019
UNITED STATES COURT OF APPEALS
FOR THE SECOND CIRCUIT
Docket No. 19-3204
Donald J. Trump,
Plaintiff-Appellant,
v.
Cyrus R. Vance, Jr., in his official
capacity as District Attorney of the
Country of New York, Mazars USA, LLP,
Defendants-Appellees.
At a Stated Term of the United States Court of
Appeals for the Second Circuit, held at the Thurgood
Marshall United States Courthouse, 40 Foley Square,
in the City of New York, on the 7th day of October, two
thousand nineteen.
Before: Raymond J. Lohier, Jr., Circuit Judge.
ORDER
Appellant has filed a motion seeking an order
temporarily staying enforcement of a subpoena to his

99a
Appendix D
accountant. Because of the unique issues raised by this
appeal,
IT IS HEREBY ORDERED that a temporary
administrative stay is granted pending expedited review
by a panel of the Court. A scheduling order will issue in
the ordinary course.
For the Court:
Catherine O’Hagan Wolfe,
Clerk of Court

100a
E the UNITED
Appendix E —Appendix
ORDER of
STATES COURT OF APPEALS FOR THE
SECOND CIRCUIT, DATED OCTOBER 7, 2019
UNITED STATES COURT OF APPEALS
FOR THE SECOND CIRCUIT
Docket No. 19-3204
Donald J. Trump,
Plaintiff-Appellant,
United States Department of Justice,
Amicus curiae,
v.
Cyrus R. Vance, Jr., in his official
capacity as District Attorney of the
Country of New York, Mazars USA, LLP,
Defendants-Appellees.
At a Stated Term of the United States Court of
Appeals for the Second Circuit, held at the Thurgood
Marshall United States Courthouse, 40 Foley Square,
in the City of New York, on the 7th day of October, two
thousand and nineteen.
Before: Raymond J. Lohier, Jr., Circuit Judge.

101a
Appendix E
ORDER
A temporary administrative stay pending expedited
review by a panel of the Court issued earlier today. The
order further provided that a scheduling order would issue
in the ordinary course.
Appellee Cyrus R. Vance moves for expedited
consideration of both the motion for a stay pending appeal
as well as the merits of the appeal and proposes a briefing
schedule with argument to be held on October 11, 2019.
Appellee Vance also requests that if the appeal is not
submitted to a merits panel on October 11, 2019, the Court
hold argument on the motion for a stay pending appeal
on that date. Appellant proposes a briefing schedule that
contemplates consolidated argument of the stay motion
and merits of the appeal after October 18, 2019. The
United States Department of Justice, as amicus in support
of Appellant, proposes that its brief be due on or before
October 11, 2019.
IT IS HEREBY ORDERED t hat ex ped it ed
consideration of both the request for a stay pending
appeal and the merits of the appeal is granted. Under
the circumstances, the motion for a stay pending appeal
is too closely linked to the underlying merits to be argued
separately. Appellant’s brief is due Friday, October
11, 2019 at 5:00 pm. The United States Department of
Justice’s amicus brief in support of Appellant is due at the
same time. Appellees’ briefs are due Tuesday, October 15,
2019 at 5:00 pm. Appellant’s reply brief is due Thursday,
October 17, 2019 at 5:00 pm. Argument will be scheduled

102a
Appendix E
as early as the week of October 21, 2019. The temporary
administrative stay remains in effect until argument is
completed.
For the Court:
Catherine O’Hagan Wolfe,
Clerk of Court

103a
Appendix F
Appendix F — MEMORANDUM
IN SUPPORT
OF EMERGENCY MOTION of the UNITED
STATES COURT OF APPEALS FOR THE SECOND
CIRCUIT, DATED October 18, 2019
IN THE UNITED STATES COURT OF
APPEALS FOR THE SECOND CIRCUIT
19-3204-cv
DONALD J. TRUMP,
Plaintiff-Appellant,
v.
CYRUS R. VANCE, JR., IN HIS OFFICIAL
CAPACITY AS DISTRICT ATTORNEY OF THE
COUNTY OF NEW YORK; MAZARS USA, LLP,
Defendants-Appellees.
MEMORANDUM IN SUPPORT OF EMERGENCY
MOTION FOR A STAY PENDING APPEAL
Movant, President Donald J. Trump, respectfully
asks this Court to stay the District Attorney’s subpoena
to Mazars during the pendency of this appeal—i.e., until
this Court issues the mandate. See Fed. R. App. P. 8; 28
U.S.C. §1651. The President’s right to that relief is set
out in his opening brief (CA2 Doc. 80 at 48-59) and reply
(CA2 Doc. 121 at 27-32). This Court has administratively
stayed the subpoena “until [oral] argument is completed”
on October 23 (CA2 Docs. 10; 38), and Mazars will divulge

104a
Appendix F
the President’s confidential records shortly after the stay
expires—causing him irreparable harm. The President
thus needs a ruling on this motion for a stay pending
appeal before the end of oral argument on Wednesday,
October 23, 2019.
If the Court has not granted a stay pending appeal
before 9 a.m. on Tuesday, October 22, 2019, the President
will file a protective motion for a stay pending appeal
with the U.S. Supreme Court. The President greatly
appreciates the Court’s prompt attention to this matter.
Dated: October 18, 2019
Respectfully submitted,
s/ William S. Consovoy
Marc L. Mukasey
Mukasey Frenchman & Sklaroff LLP
Two Grand Central Tower
140 East 45th Street, 17th Floor
New York, New York 10177
(212) 466-6400
marc.mukasey@mukaseylaw.com
Alan S. Futerfas
Law Offices of A lan S. Futerfas
565 Fifth Ave., 7th Floor
New York, NY 10017
(212) 684-8400
asfuterfas@futerfaslaw.com

105a
Appendix F
William S. Consovoy
Cameron T. Norris
Consovoy McCarthy PLLC
1600 Wilson Blvd., Ste. 700
Arlington, VA 22209
(703) 243-9423
will@consovoymccarthy.com
cam@consovoymccarthy.com
Patrick Strawbridge
Consovoy McCarthy PLLC
Ten Post Office Square
8th Floor South PMB #706
Boston, MA 02109
patrick@consovoymccarthy.com
Counsel for President Donald J.
Trump

106a
Appendix G
Appendix g — agreement
to resolve
motion for stay, dated october 21, 2019
DISTRICT ATTORNEY
COUNTY OF NEW YORK
ONE HOGAN PLACE
New York, N.Y. 10013
(212) 335-9000
Catherine O’Hagan Wolfe
Clerk of Court
U.S. Court of Appeals, Second Circuit
Thurgood Marshall United States Courthouse
40 Foley Square
New York, New York 10007
October 21, 2019
	Re: Donald J. Trump v. Cyrus R. Vance, Jr., et al.
		Case No. 19-3204 cv
Dear Ms. O’Hagan Wolfe:
We represent the office of Cyrus R. Vance, Jr., District
Attorney of New York County, an Appellee in this matter.
We write to inform the Court that the parties have
reached an arrangement to resolve Appellant’s emergency
motion for a stay pending appeal (Dkt. No. 128) filed on
Friday, October 18, 2019.

107a
Appendix G
Appellee Vance agrees to forbear enforcement of the
Mazars Subpoena between the date of oral argument
in this matter (October 23, 2019) and ten calendar days
after this Court issues its panel opinion (the “Forbearance
Period”), on the following conditions:
1.

A ny petition for cer tiorari in this matter
will be filed in the Supreme Court within the
Forbearance Period; any opposition will be filed
within seven calendar days from the petition;
and any reply will be filed within three calendar
days from any opposition. Should any filing date
specified above fall on a weekend or holiday, the
terms of Federal Rule of Appellate Procedure 26
shall control.

2.

Should Appellant petition for cer tiorar i ,
Appellant will request in his petition that the
Supreme Court hear the case in the current
term, and Appellee Vance will further forbear
enforcement of the Mazars Subpoena until the
Supreme Court either denies certiorari or issues
an opinion, whichever is sooner.

3.

Appellant will immediately withdraw all pending
motions for a stay in this Court.

We are available at the Court’s convenience should
any questions arise concerning this undertaking.

108a
Appendix G
Respectfully submitted,
/s/				
Carey R. Dunne, General Counsel
Christopher Conroy (pro hac vice)
Solomon B. Shinerock
James H. Graham
Sarah Walsh (pro hac vice)
Allen J. Vickey
Assistant District Attorneys
New York County District Attorney’s
Office

109a
Appendix h —Appendix
letterAwithdrawing
motion for stay, dated october 21, 2019
October 21, 2019
Catherine O’Hagan Wolfe
Clerk of Court
U.S. Court of Appeals for the Second Circuit
Thurgood Marshall United States Courthouse
40 Foley Square
New York, NY 10007
Re: Donald J. Trump v. Cyrus R. Vance, Jr., et al., No.
19-3204 (withdrawal of stay motions)
Per the parties’ agreement (CA2 Doc. 136), the
President withdraws all pending motions for a stay.
Respectfully submitted,
/s/ William S. Consovoy		
1600 Wilson Boulevard, Suite 700
Arlington, VA 22209
703.243.9423
will@consovoymccarthy.com
Counsel for President Donald J. Trump

110a
Appendix I to The Trump
Appendix I — Subpoena
Organization, DATED AUGUST 1, 2019
SUBPOENA
(Duces Tecum)
FOR A WITNESS TO ATTEND THE
GRAND JURY
In the Name of the People of the State of New York
To: Custodian of Records
The Trump Organization
YOU ARE COMMANDED to appear before the GRAND
JURY of the County of New York, at the Grand Jury Room
907, of the Criminal Courts Building at One Hogan Place,
between Centre and Baxter streets, in the Borough of
Manhattan of the City, County and State of New York, on
August 15, 2019 at 2:00 p.m. of the same day, as a witness
in a criminal proceeding:
Investigation into the Business and Affairs
of John Doe (2018-00403803),
AND, YOU A RE DIRECTED TO BRING WITH
YOU AND PRODUCE AT THE TIME AND PLACE
AFORESAID, THE FOLLOWING ITEMS IN YOUR
CUSTODY:
SEE EXHIBIT A - ATTACHED

111a
Appendix I
IF YOU FAIL TO ATTEND AND PRODUCE SAID
ITEMS, you may be adjudged guilty of a Criminal
Contempt of Court, and liable to a fine of one thousand
dollars and imprisonment for one year.
Dated in the County of New York,
August 1, 2019
CYRUS R. VANCE, JR.
District Attorney, New York County
By: /s/
Solomon Shinerock
Assistant District Attorney
(212) 335-9567

Note: In lieu of appearing personally with the requested
documents, you may email electronic copies to paralegal
Daniel Kenny (kennyd@dany.nyc.gov) or deliver CDs,
DVDs, or USB 2.0 external hard drives to the New York
County District Attorney’s Office, 80 Centre Street,
Major Economic Crimes Bureau, New York, NY 10013,
for the attention of Assistant District Attorney Solomon
Shinerock, c/o Daniel Kenny.
Inv. Number: 2018-00403803

112a
Appendix I
EXHIBIT A TO SUBPOENA TO
THE TRUMP ORGANIZATION
DATED AUGUST 1, 2019
ITEMS TO BE PRODUCED are those in the actual and
constructive possession of the Trump Organization, its
entities, agents, officers, employees and officials over
which it has control, including without limitation its
subsidiaries:
1.

For the period of June 1, 2015, through September
20, 2018, any and all documents and communications
that relate to, reference, concern, or reflect:
a.

payments made for the benefit of or agreements
concerning Karen McDougal,

b.

payments made for the benefit of or agreements
concerning Stephanie Clifford aka Stormy
Daniels aka Peggy Peterson,

c.

payments made to or agreements with Michael
Cohen or American Media, Inc. that concern
Karen McDougal or Stephanie Clifford aka
Stormy Daniels aka Peggy Peterson,

i nclud i ng but not l i m it ed t o docu ment s a nd
communications involving:
• Resolution Consultants LLC
• Essential Consultants LLC aka EC LLC

113a
Appendix I
• Entities owned or controlled by Michael Cohen
• Michael Cohen
• David Dennison
• Keith Davidson
• Keith M. Davidson & Associates
• American Media, Inc.
• National Enquirer
• David Pecker
• Dylan Howard
• Hope Hicks
• Jill Martin
• Jeffrey McConney
• Deborah Tarasoff
• Donald Trump, Jr.
• Allen Weisselberg.
The items sought by this demand include without
l i m it a t ion : e m a i l s , m e mor a nd a , a nd ot he r

114a
Appendix I
communications; invoices; agreements, including
without limitation retainer agreements; accounting
and other book entries or backup documents; general
ledger records; wire transfer requests and related
records, check images, bank statements, and any
other evidence of payments or installments; and
organizational documents and agreements, including
without limitation articles of incorporations, limited
liability agreements, and minutes of director or
member meetings.
2.

For the period of June 1, 2015, through September
20, 2018, any and all documents and communications
that relate to, reference, concern, or reflect Michael
Cohen’s employment by or work on behalf of Donald
Trump or the Trump Organization at any time,
including without limitation: invoices, payment
records, human resource records, W2s, 1099s, emails,
memoranda, and other communications.

3.

For any responsive documents or communications
withheld under a claim of privilege, please provide
a log setting forth, as to each such document or
communication, the legal basis for the claim of
privilege, the type of document or communication,
its general subject matter, date, author, sender and
recipient where applicable, and such other information
as is sufficient to determine the claim of privilege.

115a
Appendix I
DEFINITIONS AND INSTRUCTIONS
As used herein, unless otherwise indicated, the following
terms shall have the meanings set forth below:
A. The terms “relate,” “reference,” “concern,” “reflect,”
“include,” and “including without limitation,” in
whatever tense used, shall be construed as is
necessary in each case to make the request to
produce inclusive rather than exclusive, and are
intended to convey, as appropriate in context, the
concepts of comprising, respecting, referring to,
embodying, evidencing, connected with, commenting
on, concerning, responding to, showing, refuting,
describing, analyzing, reflecting, presenting, and
consisting of, constituting, mentioning, defining,
involving, explaining, or pertaining to in any way,
expressly or impliedly, to the matter called for.
B. The words “and,” “or,” “any” and “all” shall be
construed as is necessary in each case to make each
request to produce inclusive rather than exclusive.
C. Terms in the plural include the singular and terms
in the singular include the plural. Terms in the male
include the female and terms in the female include
the male. Neutral gender terms include all.
D. “Document” includes without limitation, any written,
printed, typed, photocopied, photographic, recorded
or otherwise created or reproduced communication
or representation, whether comprised of letters,

116a
Appendix I
words, numbers, pictures, sounds or symbols, or
any combination thereof, in the form maintained,
having access to, constructively possessed, physically
possessed, and controlled. This definition includes
copies or duplicates of documents contemporaneously
or subsequently created that have any non-conforming
notes or other markings, and drafts, preliminary
versions, and revisions of such. It includes, without
limitation, correspondence, memoranda, notes,
records, letters, envelopes, teleg rams, faxes,
messages, emails, voice mails, instant messenger
services, studies, analyses, contracts, agreements,
working papers, summaries, work papers, calendars,
diaries, reports. It includes, without limitation,
internal and external communications of any type.
It includes without limitation documents in physical,
electronic, audio, digital, video existence, and all
data compilations from which the data sought can be
obtained, including electronic and computer as well
as by means of other storage systems, in the form
maintained and in usable form.
E. “Communication” includes every means of transmitting,
receiving or recording transmission or receipt of facts,
information, opinion, data, or thoughts by one person, and
between one and more persons, entities, or things.

117a
Appendix J TO MAZARS USA
Appendix j — subpoena
LLP, DATED AUGUST 29, 2019

SUBPOENA
(Duces Tecum)
FOR A WITNESS TO ATTEND THE
GRAND JURY
In the Name of the People
of the State of New York
To: Custodian of Records
		
Mazars USA LLP
YOU ARE COMMANDED to appear before the GRAND
JURY of the County of New York, at the Grand Jury Room
907, of the Criminal Courts Building at One Hogan Place,
between Centre and Baxter streets, in the Borough of
Manhattan of the City, County and State of New York,
on September 19, 2019 at 2:00p.m. of the same day, as a
witness in a criminal proceeding:
Investigation into the Business and Affairs of John
Doe (2018-00403803),
AND, YOU ARE DIRECTED TO BRING WITH
YOU AND PRODUCE AT THE TIME AND PLACE
AFORESAID, THE FOLLOWING ITEMS IN YOUR
CUSTODY:

118a
Appendix J
SEE EXHIBIT A - ATTACHED
IF YOU FAIL TO ATTEND AND PRODUCE SAID
ITEMS, you may be adjudged guilty of a Criminal
Contempt of Court, and liable to a fine of one thousand
dollars and imprisonment for one year.
Dated in the County of New York,
August 29, 2019
CYRUS R. VANCE, JR.
District Attorney, New York County
By:

/s/			
Solomon Shinerock
Assistant District Attorney
(212) 335-9567

Note: In lieu of appearing personally with the requested
documents, you may email electronic copies to paralegal
Daniel Kenny (kennyd@dany.nyc.gnv) or deliver CDs,
DVDs, or USB 2.0 external hard drives to the New York
County District Attorney’s Office, 80 Centre Street,
Major Economic Crimes Bureau, New York, NY 10013,
for the attention of Assistant District Attorney Solomon
Shinerock, c/o Daniel Kenny.
Inv. Number: 2018-00403803

119a
Appendix J
EXHIBIT A TO SUBPOENA TO MAZARS USA LLP
DATED AUGUST 29, 2019
ITEMS TO BE PRODUCED are those in the actual
and constructive possession of Mazars USA LLP, its
related predecessors, entities, agents, officers, employees
and officials over which it has control, including without
limitation subsidiaries:
1.

For the period of January 1, 2011 to the present, with
respect to Donald J. Trump, the Donald J. Trump
Revocable Trust, the Trump Organization Inc., the
Trump Organization LLC, the Trump Corporation,
DJT Holdings LLC, DJT Holdings Managing Member
LLC, Trump Acquisition LLC, Trump Acquisition,
Corp., the Trump Old Post Office LLC, the Trump
Foundation, and any related parents, subsidiaries,
affiliates, joint ventures, predecessors, or successors
(collectively, the “Trump Entities”):
a.

Tax returns and related schedules, in draft, asflied, and amended form;

b.

Any and all statements of financial condition,
annual statements, periodic financial reports,
and independent auditors’ reports prepared,
compiled, reviewed, or audited by Mazars USA
LLP or its predecessor, WeiserMazars LLP;

c.

Reg a rd le ss of t i me p er iod, a ny a nd a l l
engagement agreements or contracts related to
the preparation, compilation, review, or auditing
of the documents described in items (a) and (b);

120a
Appendix J
d.

All underlying, supporting, or source documents
and records used in the preparation, compilation,
review, or auditing of documents described in
items (a) and (b), and any summaries of such
documents and records; and

e.

A ll work papers, memoranda , notes, and
communications related to the preparation,
compilation, review, or auditing of the documents
described in items (a) and (b), including, but not
limited to,
i. All communications between Donald Bender
and any employee or representative of the
Trump Entities as defined above; and
ii. All communications, whether internal or
external, related to concerns about the
completeness, accuracy, or authenticity
of any records, documents, valuations,
explanations, or other information provided
by any employee or representative of the
Trump Entities.
DEFINITIONS AND INSTRUCTIONS

As used herein, unless otherwise indicated, the
following terms shall have the meanings set forth below:
A. The terms “relate,” “reference,” “concern,” “reflect,”
“include,” and “including w ithout litnitation,”
in whatever tense used, shall be construed as is

121a
Appendix J
necessary in each case to make the request to
produce inclusive rather than exclusive, and are
intended to convey, as appropriate in context, the
concepts of comprising, respecting, referring to,
embodying, evidencing, connected with, commenting
on, concerning, responding to, showing, refuting,
describing, analyzing, reflecting, presenting, and
consisting of, constituting, mentioning, defining,
involving, explaining, or pertaining to in any way,
expressly or impliedly, to the matter called for.
B. The words “and,” “or,” “any” and “all” shall be
construed as is necessary in each case to make each
request to produce inclusive rather than exclusive.
C. Terms in the plural include the singular and terms
in the singular include the plural. Terms in the male
include the female and terms in the female include
the male. Neutral gender terms include all.
D. “Document” includes without litnitation, any written,
printed, typed, photocopied, photographic, recorded
or otherwise created or reproduced communication
or representation, whether comprised of letters,
words, numbers, pictures, sounds or symbols, or
any combination thereof, in the form maintained,
having access to, constructively possessed, physically
possessed, and controlled. This definition includes
copies or duplicates of documents contemporaneously
or subsequently created that have any non-conforming
notes or other markings, and drafts, preliminary
versions, and revisions of such. It includes, without

122a
Appendix J
limitation, correspondence, memoranda, notes,
records, letters, envelopes, teleg rams, faxes,
messages, emails, voice mails, instant messenger
services, studies, analyses, contracts, agreements,
working papers, summaries, work papers, calendars,
diaries, reports. It includes, without limitation,
internal and external communications of any type.
It includes without limitation documents in physical,
electronic, audio, digital, video existence, and all
data compilations from which the data sought can be
obtained, including electronic and computer as well
as by means of other storage systems, in the form
maintained and in usable form.
E. “ C om mu n ic at ion” i nc lude s e ve r y me a n s of
transmitting, receiving or recording transmission or
receipt of facts, information, opinion, data, or thoughts
by one person, and between one and more persons,
entities, or things.

123a
Appendix K of complaint,
Appendix k — excerpts
filed september 24, 2019
***
49. The following table illustrates how each provision
of the District Attorney’s subpoena (other than paragraph
1.a) precisely tracks the House Oversight Committee’s
subpoena.
House Oversight
Committee

District Attorney

Unless otherwise noted, the 1. For the period of January
time period covered by this 1, 2011 to the present,
subpoena includes calendar
years 2011 through 2018.
With respect to Donald J.
Trump, Donald J. Trump
Revocable Trust, the Trump
Organization Inc., the Trump
Organ i zation LLC, the
Trump Corporation, DJT
Holdings LLC, the Trump
Old Post Office LLC, the
Trump Foundation, and any
parent, subsidiary, affiliate,
joint venture, predecessor, or
successor of the foregoing:

w it h r e sp e c t t o Don a ld
J. Tr ump, the Donald J.
Trump Revocable Trust, the
Trump Organization Inc., the
Trump Organization LLC,
the Trump Corporation, DJT
Holdings LLC, DJT Holdings
Manag ing Member LLC,
Trump Acquisition LLC,
Trump Acquisition, Corp.,
the Trump Old Post Office
LLC, the Trump Foundation,
and any related parents,
subsidiaries, affiliates, joint
ventures, predecessors, or
successors (collectively, the
“Trump Entities”):

124a
Appendix K
House Oversight
Committee

District Attorney

Unless otherwise noted, the 1. For the period of January
time period covered by this 1, 2011 to the present,
subpoena includes calendar
years 2011 through 2018.
With respect to Donald J.
Trump, Donald J. Trump
Revocable Trust, the Trump
Organization Inc., the Trump
Organ i zation LLC, the
Trump Corporation, DJT
Holdings LLC, the Trump
Old Post Office LLC, the
Trump Foundation, and any
parent, subsidiary, affiliate,
joint venture, predecessor, or
successor of the foregoing:

w it h r e sp e c t t o Don a ld
J. Tr ump, the Donald J.
Trump Revocable Trust, the
Trump Organization Inc., the
Trump Organization LLC,
the Trump Corporation, DJT
Holdings LLC, DJT Holdings
Manag ing Member LLC,
Trump Acquisition LLC,
Trump Acquisition, Corp.,
the Trump Old Post Office
LLC, the Trump Foundation,
and any related parents,
subsidiaries, affiliates, joint
ventures, predecessors, or
successors (collectively, the
“Trump Entities”):
a. Tax returns and related
schedules, in draft, as-filed,
and amended form;

125a
Appendix K
1. All statements of financial
condition, annual statements,
periodic financial reports, and
independent auditors’ reports
prepared, compiled, reviewed,
or audited by Mazars USA
LLP or it s predecessor,
WeiserMazars LLP;

b. Any and all statements of
financial condition, annual
statements, periodic financial
reports, and independent
auditors’ reports prepared,
c o mp i l e d , r e v i e w e d , o r
audited by Ma za rs USA
LLP or its predecessor,
WeiserMazars LLP;

2. Without regard to time,
all engagement agreements
or contracts related to the
preparation, compilation,
review, or auditing of the
documents described in Item
Number 1;

c. Regardless of time period,
any and a l l engagement
ag reements or contracts
related to the preparation,
c omp i l at ion , r e v ie w, or
auditing of the documents
described in items (a) and (b);

3. All underlying, supporting,
or source documents and
records used in the
preparation, compilation,
r e v i e w, o r a u d i t i n g o f
documents described in Item
Number 1, or any summaries
o f s u c h d o c u m e nt s a n d
records relied upon, or any
requests for such documents
and records; and

d. All underlying, supporting,
or source documents
and records used in the
preparation, compilation,
r e v i e w, o r a u d i t i n g o f
docu ment s desc r ibed i n
items (a) and (b), and any
summaries of such documents
and records; and

126a
Appendix K
4. All memoranda, notes, and
communications related to
the preparation, compilation,
review, or auditing of the
documents described in Item
Number 1, including, but not
limited to:

e. A ll work papers,
memor a nd a , not e s , a nd
communications related to
the preparation, compilation,
review, or auditing of the
documents described in items
(a) and (b), including, but not
limited to,

a. all communications between
Donald Bender and Donald J.
Trump or any employee or
representative of the Trump
Organization; and

i. All communications between
Dona ld Bender a nd a ny
employee or representative
of the Trump Entities as
defined above; and

b. a l l commun ications
related to potential concerns
that records, documents,
explanations, or other
i n for mat ion, i nclud i ng
sig n i f ica nt judg ment s,
provided by Donald J. Trump
or other individuals from the
Trump Organization, were
incomplete, inaccurate, or
otherwise unsatisfactory.

i i . A l l c om mu n ic at ion s ,
whether internal or external,
related to concerns about the
completeness, accuracy, or
authenticity of any records,
d o c u m e nt s , v a l u a t i o n s ,
explanations, or other
information provided by any
employee or representative of
the Trump Entities.

****

127a
L
Appendix lAppendix
— constitutional
provisions involved
U.S. Const. art. I, § 3, cl. 7
Judgment in Cases of Impeachment shall not extend
further than to removal from Office, and disqualification
to hold and enjoy any Office of honor, Trust or Profit
under the United States: but the Party convicted shall
nevertheless be liable and subject to Indictment, Trial,
Judgment and Punishment, according to Law.
U.S. Const. art II, § 1, cl. 1
The executive Power shall be vested in a President of
the United States of America. He shall hold his Office
during the Term of four Years, and, together with the Vice
President, chosen for the same Term, be elected as follows
U.S. Const. art. II, § 2
The President shall be Commander in Chief of the Army
and Navy of the United States, and of the Militia of the
several States, when called into the actual Service of the
United States; he may require the Opinion, in writing, of
the principal Officer in each of the executive Departments,
upon any Subject relating to the Duties of their respective
Offices, and he shall have Power to grant Reprieves and
Pardons for Offenses against the United States, except
in Cases of Impeachment.

128a
Appendix L
He shall have Power, by and with the Advice and Consent
of the Senate, to make Treaties, provided two thirds of
the Senators present concur; and he shall nominate, and
by and with the Advice and Consent of the Senate, shall
appoint Ambassadors, other public Ministers and Consuls,
Judges of the supreme Court, and all other Officers of
the United States, whose Appointments are not herein
otherwise provided for, and which shall be established by
Law: but the Congress may by Law vest the Appointment
of such inferior Officers, as they think proper, in the
President alone, in the Courts of Law, or in the Heads of
Departments.
The President shall have Power to fill up all Vacancies
that may happen during the Recess of the Senate, by
granting Commissions which shall expire at the End of
their next Session.
U.S. Const. art. II, § 3
He shall from time to time give to the Congress
Information of the State of the Union, and recommend
to their Consideration such Measures as he shall judge
necessary and expedient; he may, on extraordinary
Occasions, convene both Houses, or either of them, and in
Case of Disagreement between them, with Respect to the
Time of Adjournment, he may adjourn them to such Time
as he shall think proper; he shall receive Ambassadors
and other public Ministers; he shall take Care that the
Laws be faithfully executed, and shall Commission all the
Officers of the United States.

129a
Appendix L
U.S. Const. art. II, § 4
The President, Vice President and all civil Officers
of the United States, shall be removed from Office on
Impeachment for, and Conviction of, Treason, Bribery,
or other high Crimes and Misdemeanors.
U.S. Const. art. VI, cl. 2
This Constitution, and the Laws of the United States
which shall be made in Pursuance thereof; and all Treaties
made, or which shall be made, under the Authority of the
United States, shall be the supreme Law of the Land;
and the Judges in every State shall be bound thereby,
any Thing in the Constitution or Laws of any State to the
Contrary notwithstanding.

